<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
        DEPARTMENT OF DEFENSE APPROPRIATONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, MARCH 5, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:36 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Mikulski, Murray, Stevens, 
Cochran, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. DONALD C. WINTER, SECRETARY OF THE 
            NAVY

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Donald 
Winter, Secretary of the Navy, Admiral Gary Roughead, Chief of 
Naval Operations, and General James Conway, Commandant of the 
Marine Corps, to present testimony on the fiscal year 2009 
budget for the Department of the Navy.
    The President's budget request includes $149 billion to 
support the Navy and Marine Corps in fiscal year 2009. Along 
with the forthcoming request for supplemental, these funds will 
support the forward deployment of sailors and marines to the 
farthest corners of the globe. This forward presence 
contributes to our security, by deterring conflict in strategic 
regions, performing vital humanitarian relief missions, and 
carrying out combat missions in the global war on terrorism 
(GWOT).
    Many Americans may not be aware of the full role of the 
Navy and the Marine Corps in the wars in Iraq and Afghanistan. 
There are currently 25,600 marines and 7,800 sailors with boots 
on the ground in these two countries. Our Nation owes them, and 
all their fellow servicemembers, a special debt of gratitude.
    One challenge to maintaining the posture of the Navy and 
Marine Corps is to equip the forces with the tools they need to 
complete their missions. Both today and into the future, 
however high profile modernization programs, like the littoral 
combat ship (LCS), the expeditionary combat vehicle, the 
Presidential helicopter, have experienced problems with cost 
and schedule.
    The subcommittee intends to undertake a careful review of 
these and other important programs, to determine the best 
course to modernize our forces, in the most fiscally 
responsible manner possible. Not only are there important 
questions to be asked about the next generation of weapons 
systems, but there are also concerns about how funds are being 
invested to meet the immediate needs of our servicemembers.
    The recent grounding of P-3 aircraft is one such concern. 
And just recently, new questions are being asked about whether 
the bureaucracy acted quickly enough, getting mine resistant 
ambush protected (MRAPs) and other equipment to those currently 
serving in harms way.
    We look forward to our witnesses sharing their views on 
both the challenges and successes they have--they see for the 
Navy and Marine Corps, and how the 2009 budget request 
addresses those issues. But before calling on our panel for 
their opening statements, there's one other matter I wish to 
raise.
    As the subcommittee examines the fiscal year 2009 request, 
we must remember that the budget before us is based on 
recommendations made 6 months ago. And it will be several 
months before our bill may be approved and sent to the White 
House. If, for no other reason than the time it takes to 
assemble and review the budget request, as well as the 
information gleaned from these hearings, there are likely to be 
several changes warranted in your request, in order to best 
serve our national defense.
    My co-chairman, Senator Stevens, and I worked for many 
years to propose adjustments that make sense. I believe our 
country is best served when Congress and the military services 
work as partners in identifying and carrying out the 
adjustments made during the appropriations process.
    I look forward to working with each of you to continue that 
same spirit of cooperation, which is now a tradition that has 
served our Nation very well. The full statement of each of the 
witnesses this morning will be included in the record.
    And now, I'm pleased to turn to my co-chairman, Senator 
Stevens, for his opening statement.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman.
    And gentlemen, we're pleased to have you before the 
subcommittee, and I think you couldn't find a more important 
time. You--I do join in thanking you for your service and for 
your willingness to really take on these tasks that we all 
have. And we welcome you on your first appearance--I know you 
have a challenging assignment and we look forward to working 
with you in the Navy.
    The demand for money surpasses the amounts that we can make 
available, but we have to work together to make sure that we 
meet the most pressing needs of the services. I think the 
greatest thrill is the one that the five of us discussed 
yesterday, and that is, how do we look over the horizon and 
make sure we have the military of the future to meet the 
threats the future generations will face.
    Now that we know how long it takes to prepare those 
systems, we have to be really clairvoyant and work hard to make 
sure that we start the systems and find the ways to fund them, 
so that there will be a superiority for all our forces out 
there in the years ahead.
    I look forward to working with you. Thank you.
    Senator Inouye. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. I can't let this opportunity pass, to 
observe that I think the leaders we have today, of the Navy, 
the Marine Corps, and the Department of the Navy, are the best 
qualified that I can ever remember. Their personal experiences, 
their education backgrounds, their proven ability to manage the 
United States Navy and Marine Corps, reflect great credit, I 
think, on the military and our Government. It's an honor to be 
involved in helping to decide how the funding is allocated for 
the missions and the challenges that face the Navy today.
    But I think these individuals have reflected great credit 
on the process and our great country. And it's a pleasure to 
welcome them to the subcommittee for the annual review of the 
budget request that's been submitted to the subcommittee.
    Senator Inouye. Thank you very much.

                   STATEMENT OF HON. DONALD C. WINTER

    And now, Mr. Secretary.
    Dr. Winter. Thank you very much, Mr. Chairman, Senator 
Stevens, members of the subcommittee. Thank you for the 
opportunity to appear before you here today. I'm here to 
present the Department of the Navy's plan to support our 
sailors and marines in their mission to defend our Nation 
against current and future challenges.
    The President's fiscal year 2009 budget will assist the 
Navy and Marine Corps in accomplishing their complimentary and 
reinforcing missions, while building capabilities necessary to 
meet future threats. One of the primary responsibilities of our 
Government is to provide for the Nation's defense. Those 
responsibilities include the critical requirement to organize, 
train, and equip our naval forces. For that vast majority of 
citizens, the only cost imposed on us is financial.
    America is able to provide for the national defense with 
such a minimal impact on its citizenry, because we are blessed 
to have among us, a generation of people, patriots all, who 
volunteer to serve. They are the ones who bear many hardships, 
accept many risks, and go in harms way. The pay and benefit 
funding levels in our 2009 budget reflect the compensation 
levels necessary to continue to attract and retain quality 
personnel in the Navy and the Marine Corps.
    Furthermore, although we are doing well in overall 
recruiting and retention numbers, I emphasize the need for 
special pays and bonuses to meet critical sub-specialty needs, 
such as our requirements for nurses, physicians, and GWOT 
stress communities, such as explosive ordinance disposal (EOD) 
personnel.
    It is because of the hard work of our sailors and marines, 
that we are making progress, fostering maritime security, 
defeating terrorist networks, progressing toward a stable Iraq, 
supporting the Afghan Government, countering piracy and 
proliferation of deadly technology, rendering humanitarian 
assistance, and strengthening partnerships around the world. 
Our sailors and marines have responded when called, and 
superbly performed their many missions in our Nation's defense. 
It is truly an honor and a privilege to work with them and 
support them as their Secretary.
    The Department of the Navy's fiscal year 2009 budget, meets 
the challenge of resourcing the Navy and the Marine Corps team 
across a range of missions, from partnership building to combat 
operations. It invests in our ability to operate, sustain, and 
develop forces that are engaged in the GWOT, while preparing 
the force for the challenges and threats of the future. We are 
requesting a total of $149 billion, a 7 percent increase over 
the fiscal year 2008 baseline.
    This increase is driven by factors, such as rising oil 
costs, and the critical comprehensive growth of the Marine 
Corps. Our fiscal year 2009 budget reflects three key 
priorities, which are consistent with those of previous years. 
They are, first of all, prevail in the GWOT. Second, take care 
of our sailors, marines, their families, and particularly, our 
wounded. And last, prepare for a full challenge across--prepare 
for future challenges across the full spectrum of operations.
    To help meet our first priority, prevail in the GWOT, we 
are adapting our force for current and future missions, to 
include growing the Marine Corps, shaping the force by 
recruiting and retaining the right people, and addressing 
critical readiness needs. Among our most critical readiness 
needs, is the ability to train our sailors and marines for the 
threats that they may encounter. Unfortunately, our Navy has 
encountered increasing encroachments in our ability to conduct 
training. We recognize that there are, on occasion, impacts on 
the citizenry at large, associated with such training, but 
these are necessary costs that are critical to the defense of 
our Nation. We take extensive precautions to minimize the 
impact of our training. We owe it to the American people and we 
owe it to those who serve, to acknowledge that, as in all 
things in life, there are competing interests and tradeoffs, 
and that we treat the risks of sonar operation at sea or the 
impact of jet noise, the way we treat all public policy issues, 
balancing risks and costs against legitimate national security 
interests.
    I commit to you today, that I will keep you appraised of 
legal challenges in near implications for readiness that we 
face over the course of the coming year. Mr. Chairman, if in 
the future, we are unable to properly train our sailors and 
marines, we will have failed to do our duty to them and to the 
American people.
    Another critical issue I would like to highlight concerns 
doing right by those who go in harms way. As Secretary of 
Defense Gates has stated, ``Apart from the war itself, we have 
no higher priority than to take care of our wounded.'' Our 
wounded warriors and their families deserve the highest 
priority care, respect, and treatment for their sacrifices. Our 
2009 budget honors our commitment to ensure that our sailors 
and marines receive the appropriate care, training, and 
financial support that they need.
    Finally, to meet the challenges of the future, the 2009 
budget provides for a balanced fleet of ships, aircraft, and 
expeditionary capabilities, with the fighting power and 
versatility to carry out blue, green, and brown water missions 
wherever called upon.
    Furthermore, I would like to note that, consistent with our 
commitment to ensure affordability and timely delivery of 
capabilities, we have launched an acquisition improvement 
initiative to provide better integration of requirements in 
acquisition decision processes, improve governance and insight 
into the development, establishment, and execution of 
acquisition programs, and formalize a framework to engage 
senior Naval leadership.

                           PREPARED STATEMENT

    Mr. Chairman, I am grateful for the strong support this 
subcommittee and the Congress at large have given our Navy and 
Marine Corps team. I want to thank you on their behalf. Our 
Navy and Marine Corps is a strong, capable, and dedicated team. 
I appreciate the opportunity to represent them here today and I 
look forward to your questions.
    [The statement follows:]

              Prepared Statement of Hon. Donald C. Winter

 The Navy and Marine Corps Team . . . fighting today and preparing for 
                           future challenges

                              INTRODUCTION

    Chairman Inouye, Senator Stevens and Members of the Committee, it 
is an honor to appear again before you representing the men and women 
of the United States Navy and the United States Marine Corps--active, 
reserve, and civilian--a force of over 800,000 strong.
    I am here to present the Department of the Navy's (DON) plan to 
support our Sailors and Marines in their mission to defend our Nation 
against current and future challenges as they conduct operations 
spanning the spectrum, from major combat to humanitarian assistance. 
The President's fiscal year 2009 budget will assist the Navy and Marine 
Corps in accomplishing their complimentary and reinforcing missions, 
while building capabilities necessary to meet future threats. The 
fiscal year 2009 budget balances capabilities to support both 
traditional and irregular warfare demands. It also continues to expand 
the Marine Corps' capacity and furthers the transformation from a blue 
water navy into one that can fight and win in the blue, green, and 
brown waters.
    As I reflect upon my time as Secretary of the Navy, nothing is more 
sobering than the experience of seeing--every single day--the 
dedication, professionalism, and willingness to sacrifice shown by our 
Sailors, Marines, civilian employees, and their families. I will attest 
to you their unwavering commitment to duty. These patriots put 
themselves in harm's way to protect our Nation. From those who have 
given the ultimate sacrifice, such as Medal of Honor recipients 
Lieutenant Michael Murphy and Corporal Jason Dunham, to those who daily 
take the pledge to support and defend our Nation, our Navy and Marine 
Corps Team is second to none. It is because of their efforts that we 
are making progress fostering maritime security, defeating terrorist 
networks, progressing towards a stable Iraq, supporting the Afghan 
government, countering piracy and the proliferation of deadly 
technology, giving humanitarian assistance to people in need after 
Tsunamis and earthquakes, and strengthening partnerships around the 
world. The men and women of the Navy and Marine Corps have responded 
when called upon. It is an honor and privilege to work with them and 
support them as their Secretary.
    Today our Nation is faced with a myriad of challenges and 
uncertainties across the globe. There have been several unexpected, and 
sometimes sudden, changes in the security environment over the past few 
years. Yet many of the strategic imperatives of the United States--
particularly with respect to the maritime environment--remain 
unchanged. It is clear the United States must have the capacity to act 
in such a fluid and unpredictable environment, and that Naval forces 
offer unique flexibility to respond swiftly and decisively anywhere in 
the world. Providing this flexibility requires that the Department of 
the Navy invest wisely across a wide range of capabilities, and that we 
take care to deliver a balanced portfolio of capabilities to the Joint 
force. Worldwide presence, credible deterrence and dissuasion, 
projection of power from naval platforms anywhere on the globe, and the 
ability to prevail at sea are the critical, most fundamental elements 
of the Navy and Marine Corps strategic posture; these are our 
indispensable contributions to the joint warfighting capability of the 
Nation.
    The United States is a maritime power, bounded by sea to the east 
and west. The health of our national economy depends on assuring safe 
transit through the seas--and the maritime dimension of international 
commerce is ever increasing. Consider that 70 percent of the earth is 
covered by water, 80 percent of the world's population lives in close 
proximity to the coast, and 90 percent of the world's international 
commerce is transported via the sea. Given our national interests, and 
the role we play in the world, it is unsurprising that our Sailors and 
Marines are constantly called upon to react to a wide range of 
challenges. I suggest that the strength of a nation's naval force 
remains an essential measure of that nation's status and role in the 
world. I also submit that maritime dominance by the United States 
remains vital to our national security, to our position in the world, 
and to our ability to defend and promote our interests.
    Last fall, the Department of the Navy, in collaboration with the 
U.S. Coast Guard, reaffirmed its emphasis on the traditional 
capabilities of forward presence, deterrence, sea control, and power 
projection in its new Maritime Strategy: A Cooperative Strategy for 
21st Century Seapower. However, the Maritime Strategy also makes clear 
that we consider our core capabilities to include maritime security and 
the provision of humanitarian assistance and disaster relief--areas of 
growing importance. The strategy emphasizes the use of soft power, and 
highlights the criticality of our foreign friends and allies, while 
reminding us that the underlying credibility for partnerships and peace 
is the United States' ability to swiftly defeat a threat with 
overwhelming and decisive combat power.
    The unique nature of our Department is such that the Navy and 
Marine Corps team is a constantly deployed force, both in peacetime and 
in war, with the further ability to surge assets worldwide, anytime 
required. As we consider the current and projected strategic 
environment, we must anticipate a steadily growing reliance on our 
unique expeditionary character. This is becoming ever more apparent. 
The challenge of resourcing our two services across such a large range 
of steadily growing global missions, from partnership building to 
combat operations, is one that we have met with the President's fiscal 
year 2009 budget.
    Reflected in the budget submittal is the fact that today's Navy and 
Marine Corps are operating in blue, green and brown waters, in the air 
and on the shore--and sometimes deep inland--facing a wide variety of 
threats. On any given day, approximately 40 percent of the fleet is 
deployed at sea or involved in pre-deployment training. Forward 
deployed carrier and expeditionary strike groups operate on the high 
seas, unencumbered by constraints facing land-based forces. They are 
providing our combatant commanders with many important and powerful 
combinations of capability: tactical aviation, land attack systems, 
SEAL and Marine special operations forces (SOF), intelligence and 
surveillance platforms, amphibious assault and forcible entry capacity, 
over-the-horizon force projection, and flexible seabasing and at sea 
logistical support. Our full spectrum of capabilities also includes 
ship-based ballistic missile defense--providing a shield that not only 
protects our maritime freedom of movement and access, but which also 
contributes to the defense of our allies and our homeland against 
missile threats. In other words, we are presenting a budget which 
supports a force in high demand across the globe.
    The President's budget does more than just fulfill our 
responsibilities in today's complex environment; it continues to evolve 
our portfolio of capabilities. This is essential to our ability to 
defend against future threats which could range from the asymmetric--
from terrorists to proliferation and/or use of weapons of mass 
destruction--to the more traditional challenges posed by nation-states 
and possible future ``near peer'' competitors.
    Evolving our portfolio of capabilities can be challenging, since 
the Navy and Marine Corps have an operational construct that emphasizes 
forward deployment and presence. Historically, while the bulk of U.S. 
forces return home after cessation of a conflict or crisis, our 
maritime forces often do not. They are continuously present in forward 
regions, and through their forward engagement they maintain familiarity 
with the environment and the characteristics of regional actors; they 
also foster and sustain trust and cooperation with friends and allies. 
Thus when a threat to our national security emerges overseas, it may 
well be encountered first by the Navy and Marine Corps. Meeting that 
threat, whether on land, in the air, on the high seas, or under the 
sea, will require our forces to be in peak fighting condition. They 
must be ready to fight and win at any time, and to do so at great 
strategic distance. We have developed a budgetary plan which addresses 
these requirements.
    We have developed the budget in the face of a demanding and rapidly 
changing security environment, and there are worrisome trends that bear 
watching. Nations are developing weapons and systems which seem 
deliberately intended to threaten our Naval assets, deny access, and 
restrict our freedom of maneuver. The proliferation of anti-access 
weapons technology to unfriendly nations is a significant concern. 
Furthermore, the Department of the Navy, like other parts of the 
Department of Defense (DOD), has been a target of aggressive foreign 
intelligence and data-collection activities. As such, we need to invest 
in the capabilities necessary to preserve our technological advantage. 
Additionally, aside from growing costs and schedule delays in some 
acquisition programs, we also struggle with regulatory encroachment and 
legal challenges that threaten to undercut our ability to effectively 
train and maintain readiness. We must address these challenges; doing 
so is fundamental to maintaining our Naval readiness and our capability 
to defend our Nation.
    In summary, the Department of the Navy's fiscal year 2009 budget 
invests in the Navy and Marine Corps to operate, sustain and develop 
forces that will remain engaged in the Global War on Terrorism (GWOT), 
while at the same time preparing the force for the challenges and 
threats of the future. The fiscal year 2009 budget requests $149.3 
billion for these purposes. This is a 7 percent increase over the 
fiscal year 2008 baseline and is driven by factors such as rising oil 
costs and the critical, comprehensive growth of the United States 
Marine Corps.
Priorities for the Department of the Navy
    The Department of the Navy is committed to finding solutions that 
allow the Navy and Marine Corps to balance our current requirements and 
operational realities with the likely needs of the future. We strive to 
maintain an agile and flexible force that cannot only contribute to 
winning our Nation's wars but also can assist in preventing future 
conflict to the extent possible--whether by dissuasion, deterrence, 
humanitarian action or disaster relief. As such, our priorities remain 
consistent with those in previous years. They are to: Prevail in the 
GWOT; take care of our Sailors, Marines, their Families and 
particularly our wounded; and prepare for future challenges across the 
full spectrum of operations.
    As in the past, for the sake of brevity, some of the key programs 
are highlighted and can be found in greater detail in the Highlights of 
the Department of the Navy fiscal year 2009 budget.\1\ This statement 
is designed to reinforce, and build upon, initiatives articulated in 
previous testimony and budget material.
---------------------------------------------------------------------------
    \1\ Highlights of the Department of the Navy Fiscal Year 2009 
Budget, February 2008.
---------------------------------------------------------------------------
                 PREVAIL IN THE GLOBAL WAR ON TERRORISM

    The Department's top priority remains the Global War on Terrorism. 
Today, approximately 29,300 Marines and 11,300 Sailors (including 
individual augmentees) operate ashore, along with 12,000 Sailors at 
sea. They are conducting and supporting operations in Iraq and 
Afghanistan, and throughout the U.S. Central Command region, and their 
contributions are central to the progress being made.
    Naval forces provide a major part of the national worldwide 
rotational presence and an increasing portion of the required support 
for ground units in Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF). They operate across the spectrum--from low 
intensity conflict, humanitarian assistance and disaster relief, to 
high intensity conflict involving airborne strike and Marine Corps 
forces in coordinated joint and coalition ground operations. To 
illustrate the wide range of activities undertaken, it is noteworthy 
that, in 2007, five Carrier Strike Groups and five Expeditionary Strike 
Groups deployed in support of OEF and OIF. Throughout 2007 the Marine 
Corps provided three embarked Marine Expeditionary Units (MEUs) forward 
positioned in all geographic commands. Two of these MEUs were employed 
ashore in support of Multi-National Force--West and participated in 
sustained combat operations. Naval aviation, afloat and ashore, in 
concert with U.S. Air Force and coalition aviation forces, has provided 
critical strike, overland surveillance, logistical and electronic 
warfare support to the joint land forces deployed in Iraq and 
Afghanistan. The Navy has also deployed riverine forces for the first 
time since Vietnam, operating on Lake Thar Thar and the Euphrates 
River. The Marine Corps also achieved a milestone with successful 
deployment of the first MV-22 Osprey squadron in OIF operations. Naval 
Special Warfare (NSW) forces continue to be actively engaged in 
combating terrorism. The Navy SEALs and the Marine Special Operations 
Command have done outstanding work in OIF/OEF and have made critical 
progress in countering the threat of international terrorism. We will 
continue to prioritize investment and retention of our highly skilled 
special operations forces.
    In addition to traditional types of maritime activities, the Navy 
continues to support the GWOT in a variety of non-traditional areas. 
For example, Navy Sailors are leading a number of Provincial 
Reconstruction Teams in Afghanistan today. Significant numbers of Naval 
combat support and combat service support personnel are relieving the 
Army and Marine Corps in select mission areas. In U.S. Central Command, 
Navy personnel are providing base and port operations support, medical, 
explosive ordinance disposal, construction battalions, civil affairs, 
electronic warfare, mobile security forces, detainee operations, 
intelligence, and headquarters staff support. The Navy also continues 
command of the detainee mission in Guantanamo Bay, Cuba and at Camp 
Bucca, a high security prison in Iraq. Executive agent responsibilities 
are discharged by the Navy for the GWOT-related Combined Joint Task 
Force Horn of Africa (CJTF HOA) in Djibouti. CJTF HOA has transformed 
from its initial seafaring force, aimed at blocking terrorists fleeing 
Afghanistan (and preventing them from establishing new safe havens), 
into a task force that also conducts military-to-military training and 
humanitarian assistance over a large geographic expanse of eight 
countries.
    With respect to the Marine Corps, the II Marine Expeditionary Force 
Forward, augmented by Marines from around the Corps, conducted 
counterinsurgency operations in Iraq and led the Multi-National Force--
West in Al Anbar Province, supported by Army, Air Force, and Navy 
personnel. The achievements of the Marines in Al Anbar have been widely 
noted, and their success in creating a permissive environment for local 
governance and economic development--making significant inroads in 
security, training, and transfer of responsibility to their Iraqi 
counterparts--has been crucial. More broadly across the country, Marine 
Corps Transition Teams have conducted training for Iraqi military, 
police and border teams. The Marine Corps provided over 800 personnel 
across more than 50 types of Iraqi transition teams in 2007. Building 
upon these successes in Iraq, recently the President approved the 
deployment of 2,200 Marines to Afghanistan in support of the NATO-led 
International Security Assistance Force mission, and 1,000 Marines to 
assist in the training and development of the Afghan National Security 
Forces. In preparation for these overseas missions, the Marine Corps 
continues to implement comprehensive training programs at home, such as 
Mojave Viper and Desert Talon.
    At sea, the effective conduct of Maritime Security Operations is a 
critical element of the fight against terrorism. In the Northern 
Arabian Gulf, our Sailors and Marines are working with Coalition and 
Iraqi forces in a Coalition Task Group to defend the Al Basra Oil 
Terminal and the Khawr al Amaya Oil Terminal. The security of these 
platforms is provided through waterborne patrols in Rigid Hull 
Inflatable Boats, platform security personnel, and helicopter 
surveillance. Working with our NATO Allies, the Navy continues to 
provide support for Operation Active Endeavor, which is an ongoing 
maritime interdiction effort in the Mediterranean. Similarly, the 
conduct of operations to dissuade and counter piracy off the West 
African coast and the actions of the guided missile destroyers U.S.S. 
Porter, U.S.S. Arleigh Burke and U.S.S. James E. Williams off the coast 
of Somalia this past October are examples of how the Navy is working to 
provide a secure maritime environment.
    Fostering enduring foreign partnerships and friendships is yet 
another key contributor to the GWOT, as we bolster the capacity of 
nations to work with us, and to conduct counter-terrorism efforts of 
their own. The Navy is continuing to develop the concept of Global 
Fleet Station (GFS), envisioned to be a highly visible, positively 
engaged, reassuring, and persistent sea base from which to interact 
with the global maritime community of nations. The Department 
demonstrated the concept through the GFS pilot in October, using the 
HSV-2 SWIFT in the Caribbean, and again with the African Partnership 
Station in the Gulf of Guinea, using the U.S.S. Fort McHenry and HSV-2 
SWIFT. In addition to targeted outreach activities, the Navy and Marine 
Corps team extends America's diplomatic reach through the conduct of 
multinational exercises and port visits. Throughout 2007, the Naval 
force participated in over 230 bilateral and multinational exercises 
with partners around the globe.\2\ The Marine Corps also participated 
in over sixty Theater Security Cooperation events, which ranged from 
deployment of small Mobile Training Teams in Central America to MEU 
exercises in Africa, the Middle East, and the Pacific. Additionally, 
several overseas training events were held with foreign special 
operations forces to improve interoperability with Navy and Marine SOF, 
and the Department provided support to the stand-up of NATO's new SOF 
Coordination Center. The cumulative effect of these exercises and 
events is to foster trust and sustain cooperative relationships with 
our international partners. This is critical to U.S. national security.
---------------------------------------------------------------------------
    \2\ Illustrative of our global security cooperation are exercises 
involving the Japanese Maritime Self Defense Force and the Indian Navy 
during TRILAX 07 in the Northern Pacific; PHOENIX EXPRESS 07 with 
Moroccan, Algerian, and Tunisian forces west of the Gibraltar Strait; 
BALTOPS 07 in the Baltic Sea with Denmark, France, Germany, Sweden, 
Poland, Russia, Latvia, Lithuania, the United Kingdom, and NATO; AMAN 
07 with Pakistan, Great Britain, China, France, Italy, Malaysia, 
Turkey, and Bangladesh; UNITAS off of South America's Pacific coast 
with Chile, Colombia, and Peru; and MALABAR with forces from India.
---------------------------------------------------------------------------
    Outreach to foreign populations is also an important part of the 
Nation's efforts to stem the spread of terrorism. This is an important 
mission for the Navy and the Marine Corps and is a tangible way that we 
can demonstrate the compassion and values of the American people. Last 
year, the Navy and Marine Corps together were at the forefront of 
numerous humanitarian assistance and disaster relief operations. 
Sailors and Marines in the Pacific provided desperately-needed 
humanitarian support to Bangladesh in the aftermath of Cyclone Sidr. 
The Marine Corps engaged in civil-military and humanitarian assistance 
operations such as ``New Horizons'' in Nicaragua and land mine removal 
training in Azerbaijan. The joint and combined crew aboard the USNS 
Comfort gave humanitarian aid during a four month tour in Latin America 
and the Caribbean. During Pacific Partnership 2007, the joint and 
interagency crew of the U.S.S. Peleliu gave similar aid to the 
Philippines and other Pacific island nations. We hope that the support 
given during these missions, whether it was the Seabees' reconstruction 
of homes and schools devastated by a tsunami, or inoculation and 
treatment of children and the elderly by Navy and Marine medical 
professionals, helped convey a positive image of the United States with 
local populations.
    Finally, within the United States, the Department continues its 
emphasis on providing increased force protection to our Sailors and 
Marines, particularly in the area of counter-improvised explosive 
devices (IED). As lead service for the joint Mine Resistant Ambush 
Protected (MRAP) vehicle program, the Department accelerated production 
for MRAP vehicles to rapidly field this capability in Iraq and 
Afghanistan. Through the use of Lean Six Sigma activities and projects, 
the Department synchronized an effort to build and transport MRAP 
vehicles to the theater, rapidly identifying and mitigating 
deficiencies in the MRAP vehicle pipeline. Over 2,000 MRAP vehicles 
have been fielded to support the Department's joint urgent requirement, 
over 900 of which are in the hands of Marines and more than 150 fielded 
to the Navy. Also as part of the broader counter-IED effort, the 
Department is procuring Biometric Tools, the Family of Imaging Systems, 
counter-IED robotics, and Counter Radio-Controlled IED Electronic 
Warfare systems.
Adapting the Naval Force for GWOT and Future Missions
    The Marine Corps and Navy are being called upon today to conduct 
surge operations, conduct Iraq unit rotations, provide additional 
forces to Afghanistan, and prepare for other challenges. The Department 
has not only addressed these commitments, but is contributing low 
supply, high demand forces (e.g., Explosive Ordnance Disposal (EOD) 
units) to support the other services and coalition efforts. Of our 
deployed EOD teams, over 50 percent operate in support of other 
services. Additionally, over the course of 2007, the Navy provided 
12,985 Active Component Augmentees and 9,527 Mobilized Reservists in 
support of OEF and OIF globally, and filled approximately 8,000 
Individual Augmentee and 4,500 ``in-lieu-of'' requirements. The Navy 
has increased several low density, high demand specialties and units, 
such as Construction Battalions and EOD teams. In October 2007, the 
Navy commissioned its newest Construction Battalion and Construction 
Regiment, bringing them to a total of 9 active duty battalions and 3 
active duty regiments. Further, in order to relieve stress on Marines 
and their families, and to address future contingencies, the Marine 
Corps is growing the force, exceeding its 2007 target of 184,000 
Marines; the Marine Corps is on track to meet the goal of 202,000 by 
fiscal year 2011.
    Reshaping of the force is an important and evolutionary process. To 
do this, the Department is focused on three fronts: recruiting the 
right people, retaining the right people, and achieving targeted 
attrition. Recruiting objectives are focused on increasing the quality 
of the Total Force and seeking qualified Sailors to include special 
emphasis on filling the ranks of SEAL, NSW, Navy Special Operations, 
Special Warfare Combatant-Craft Crewmen, EOD, Divers, Hospital 
Corpsmen, and Women in Non-traditional Ratings (Master-at-Arms and 
Seabees). Recruiters are also focused on creating a smooth flow of 
recruits into boot camp by maintaining and mentoring a healthy pool of 
young men and women in the Delayed Entry Program.
    The Department has also implemented initiatives to increase 
visibility and incentives for medical recruitment. While we have seen 
improvement in some medical programs, such as in the Nurse Corps with 
direct accessions, numerous challenges remain in recruiting and 
retaining medical personnel. Retention challenges exist in critical 
specialties that require 3-7 years of training beyond medical school. 
In the Dental Corps, we face challenges in retaining junior officers 
between 4-7 years, and we also are experiencing high attrition rates 
for junior officer ranks in the Nurse Corps. To combat the recruiting 
challenges and continue supporting the increased demand for the OIF/
OEF, we implemented increased accession bonuses for the Nurse Corps and 
Dental Corps; funded a critical skills accession bonus for medical and 
dental school Health Professions Scholarship Program (HPSP) 
participants; increased the stipend for HPSP students, as well as 
Financial Assistance Program participants; expanded the critical skills 
wartime specialty pay for reserve component medical designators; 
recently implemented a Critical Wartime Skills Accession bonus for 
Medical and Dental Corps; and implemented a Critical Skills Retention 
bonus for clinical psychologists.
    We note that the Fiscal Year 2008 National Defense Authorization 
Act (NDAA) restricts military to civilian conversions for the medical 
community through September 30, 2012. Due to the date of enactment of 
this legislation, it is not reflected in the fiscal year 2009 
President's budget request, but the plan is now being readdressed. 
Resolution will require careful planning, and we are working closely 
with the Office of the Secretary of Defense on this matter.
    Incentive programs were a key component of our enlisted recruiting 
success in 2007. The enlistment bonus continues to be our most popular 
and effective incentive for shaping our accessions. The authority to 
pay a bonus up to $40,000 made a significant contribution to our Navy 
Special Warfare and Navy Special Operations recruiting efforts. 
Likewise, our Reserve Component success would not have been possible 
without the availability of enlistment bonuses. Extended incentive 
authorities towards some of our more specialized skill fields, 
including nuclear and aviation, will help to recruit and retain these 
critical skill sets, while renewal of accession bonuses will help to 
expand the force to newly mandated levels. The continued support of 
Congress in the creation of flexible compensation authorities affords 
the Department the tools that will help shape the force for the 21st 
Century.
    The Grow the Force mandate by the President is a long-term plan to 
restore the broad range of capabilities necessary to meet future 
challenges and mitigate global risk to national security of the United 
States. The Marine Corps will grow the force by 27,000 (from 175,000 to 
202,000) Marines over five years. This additional capacity and 
capability will enable full spectrum military operations in support of 
allies and partners as well as against potential enemies. In 2007, the 
Marine Corps added two infantry battalions, capacity to the combat 
engineer battalions and air naval gunfire liaison companies, and 
planned the training and infrastructure pieces necessary to build a 
balanced warfighting capability. The Marine Corps has achieved success 
in recruiting and maintaining quality standards. This is a remarkable 
achievement for an all volunteer force during a sustained war. The 
Marine Corps anticipates continued success in meeting recruiting and 
retention goals to achieve this planned force level. This end strength 
increase addresses more than current operations in Iraq and 
Afghanistan. It ensures that the Marine Corps will be able to deal with 
the challenges of the Long War and will reduce combat stress on Marines 
and their families by moving towards a 1:2 deployment to dwell ratio. 
Currently many Marines are on a 1:1 or less deployment to dwell ratio.
    Navy and Marine Corps Reserves continue to be vital to successfully 
fighting the GWOT and in accomplishing routine military operations. The 
Marine Corps and Navy activated, respectively, 5,505 and 5,007 
reservists to fulfill critical billets in OIF and other gaps in 
headquarters and operational units. At the close of fiscal year 2007, 
the Navy and Marine Corps Reserves end strength was 69,933 and 38,557 
respectively.
Readiness
    The Department's budget reflects a commitment to properly price and 
fund readiness to meet the demands of the Combatant Commands. For 
fiscal year 2009, the Fleet Response Plan (FRP) is funded to achieve 
``6+1''--the ability to support deployment of six carrier strike groups 
within 30 days and one additional group within 90 days. Additionally, 
the fiscal year 2009 budget funds 45 underway steaming days per quarter 
for deployed forces and 22 underway days per quarter for non-deployed 
forces. For the Marine Corps, equipment readiness accounts are focused 
on supporting the operational and equipment readiness of units engaged 
in operations in OIF. The Marine Corps has made tradeoffs in this area 
by cross-leveling equipment from units not in the fight, and while the 
force made great strides in its overall readiness to conduct 
counterinsurgency operations, this has been achieved at the expense of 
other traditional training, such as amphibious assault and jungle 
warfare.
    Carrier Waiver.--The Navy is committed to maintaining an aircraft 
carrier force of 11. However, during the 33-month period between the 
planned 2012 decommissioning of U.S.S. Enterprise and the 2015 delivery 
of the U.S.S. Gerald R. Ford, legislative relief is requested to 
temporarily reduce the carrier force to ten. Extending Enterprise to 
2015 would involve significant technical risk, challenge our manpower 
and industrial bases, and require significant resource expenditure; 
with only minor gain for the warfighter in carrier operational 
availability and significant opportunity costs in force structure and 
readiness. The Navy is adjusting carrier maintenance schedules to meet 
the FRP and ensure a responsive carrier force for the Nation during 
this proposed ten carrier period.
    Law of the Sea Convention.--It is critically important to the 
United States and our friends and allies that the seas of the world 
remain safe and open for all nations. Accordingly, the Department of 
the Navy supports U.S. accession to the Law of the Sea Convention. The 
Treaty codifies important principles of customary international law, 
such as Freedom of Navigation and rights of passage. Joining the 
Convention, with the declarations and understandings reflected in 
Senate Report 110-9 (Senate Foreign Relations Committee), will assist 
the United States to exercise its leadership role in the future 
development of open oceans law and policy. As a non-party, the United 
States does not have full access to the Convention's formal processes 
(through which over 150 nations participate in influencing future law 
of the sea developments). By providing legal certainty and stability 
for the world's largest maneuver space, the Convention furthers a core 
goal of our National Security Strategy to promote the rule of law 
around the world.
    Suppression of Unlawful Acts (SUA).--The Department supports 
expeditious U.S. ratification of the 2005 Protocol of the Convention 
for the Suppression of Unlawful Acts against the Safety of Maritime 
Navigation and the 2005 Protocol to the 1988 Protocol for the 
Suppression of Unlawful Acts against the Safety of Fixed Platforms 
Located on the Continental Shelf (``SUA Amendments''), adopted by the 
International Maritime Organization on October 14, 2005, and signed by 
the United States on February 17, 2006. The SUA Amendments 
significantly strengthen the legal regime to criminalize terrorist acts 
and combat weapons of mass destruction proliferation in the maritime 
domain making them an important component in the international campaign 
to prevent and punish such acts.
    Encroachment.--A critical readiness issue is our ability to be 
prepared to meet the full spectrum of operations that may arise 
globally. This requires that we have the ability to properly train our 
sons and daughters in a manner that effectively prepares them for the 
threats they may encounter. In order for Naval forces to be able to 
meet our operational commitments we need installations and ranges, the 
ability to continue to use them for their intended purposes, and the 
ability to augment them when necessary to respond to changing national 
defense requirements and circumstances.
    We appreciate the action taken by Congress to recognize the 
importance of protecting Naval installations from encroachment 
pressures by enacting section 2863 of the Fiscal Year 2007 National 
Defense Authorization Act that establishes prohibitions against making 
certain military airfields or facilities, including Marine Corps Air 
Station Miramar, available for use by civil aircraft. We seek your 
continued support to move forward with plans for the Outlying Landing 
Field (OLF) that is critically needed to support training requirements 
for Carrier Air Wing aircraft based at Naval Air Station Oceana and 
Naval Station Norfolk. The OLF will directly support the Department's 
ability to meet its national defense commitments under the FRP and 
provide naval aviators critical training in conditions most comparable 
to the at-sea operating environment they will face. In response to 
public comments regarding the previous site alternatives, the Navy has 
terminated the draft Supplemental Environmental Impact Statement (EIS) 
and will initiate a new EIS that examines five new site alternatives, 
three in Virginia and two in North Carolina, based upon new information 
provided by officials in those states. I ask for your continued support 
as we work with the Congress and the States of Virginia and North 
Carolina to preserve and improve the installation and range 
capabilities needed to properly train our young men and women before we 
send them into harms way.
    Marine Mammals and Active Sonar.--The most critical readiness issue 
relates to the Navy's ability to train using active sonar while 
minimizing the effect on marine mammals. One of the most challenging 
threats that our Naval forces face is modern, quiet diesel-electric 
submarines. These submarines employ state-of-the-art silencing 
technologies and other advances, such as special hull treatments, that 
make them almost undetectable with passive sonar and also reduce their 
vulnerability to detection with active sonar. A diesel-electric 
submarine so equipped can covertly operate in coastal and open ocean 
areas, blocking Navy access to combat zones and increasing United 
States vessels' vulnerability to torpedo and anti-ship missile attacks. 
Currently, over 40 countries operate more than 300 diesel-electric 
submarines worldwide, including potential adversaries in the Asia-
Pacific and Middle East areas. Naval strike groups are continuously 
deployed to these high-threat areas. Training with the use of mid-
frequency active (MFA) sonar is a vital component of pre-deployment 
training. The tactical use of MFA sonar is the best means of detecting 
potentially hostile, quiet, diesel-electric submarines. The inability 
to train effectively with active sonar literally puts the lives of 
thousands of Americans at risk.
    In January 2008, a federal district court issued an injunction 
precluding the Navy's ability to train effectively with MFA in critical 
exercises scheduled to occur in the Southern California Operating Area 
through January 2009, creating an unacceptable risk that strike groups 
may not be certified for deployment in support of world-wide 
operational and combat activities. Because the Composite Unit Training 
Exercises and the Joint Task Force Exercises off Southern California 
are critical to the ability to deploy strike groups ready for combat, 
the President concluded that continuing to train with MFA in these 
exercises is in the paramount interest of the United States and granted 
a temporary exemption from the requirements of the Coastal Zone 
Management Act for use of MFA sonar in these exercises through January 
2009. Additionally, the Council on Environmental Quality (CEQ) 
concluded that the risk that strike groups might not be certified 
constituted an emergency circumstance requiring alternative National 
Environmental Policy Act arrangements. These alternative arrangements 
were accepted by the Navy. Despite these developments, the trial court 
refused to set aside the injunction. As a result the Navy appealed the 
court's refusal to give effect to the President's and CEQ's actions by 
dissolving the injunction and the court's failure to properly tailor 
the injunction in the first place to allow the Navy to train 
effectively. On February 29, the Ninth Circuit upheld the trial court. 
Acknowledging the Chief of Naval Operations' (CNO's) concern that the 
injunction issued by the trial court in its current form will 
``unacceptably risk'' effective training and strike group 
certification, however, the Ninth Circuit also temporarily and 
partially stayed several features of the injunction. This temporary and 
partial stay should allow us to complete two training exercises this 
month, which are critical to preparing two strike groups for 
deployment.
    The Department continues to be a good steward of the environment, 
while providing the necessary training that is essential to national 
security and ensures the safety of our people. The Department is 
engaged in a comprehensive effort to ensure compliance with the 
National Environmental Policy Act, Marine Mammal Protection Act, 
Endangered Species Act, Coastal Zone Management Act, National Marine 
Sanctuaries Act, and Executive Order 12114. Twelve EISs are in 
development with associated Records of Decision (ROD) scheduled for 
issuance by the end of calendar year 2009. The Navy implements twenty-
nine protective measures developed in conjunction with the National 
Marine Fisheries Service, the Federal regulator responsible for 
oversight and implementation of the Marine Mammal Protection Act. These 
measures afford significant protection to marine mammals while 
maintaining training fidelity. The Navy has steadily increased funding 
for marine mammal research from $12.5 million in fiscal year 2004 to 
$22 million in fiscal year 2009. The Navy's financial commitment 
constitutes more that half of the world-wide funding for research on 
the effects of anthropogenic sound on marine mammals. Over the past 
several years, tremendous progress has been made in expanding the 
scientific base of knowledge, especially concerning the species 
identified as the most sensitive to mid-frequency active sonar, deep 
diving beaked whales. The Navy, working with the National Marine 
Fisheries Service, is engaged in a three-year controlled exposure study 
of sound on whales at the Navy's Atlantic Undersea Test and Evaluation 
Center in the Bahamas. This study, along with other research, 
development, test and evaluation efforts, will provide further 
information needed to understand and effectively mitigate the effects 
of active sonar on marine mammals.

                        TAKE CARE OF OUR PEOPLE

    In 2007 the Department implemented a Human Capital Strategy that 
focuses on our most valuable asset, the Department's people. In the 
strategy, the Department addresses the changes in warfare, workforce, 
technologies, and processes and lays out the strategic objective to 
produce and employ the right people with the right skills to support or 
accomplish 21st Century Naval missions. The development and retention 
of quality people is vital to our continued success. The Department of 
the Navy is committed to sustaining quality of service and quality of 
life programs, including training, compensation, promotion 
opportunities, health care, housing, and reasonable operational and 
personnel tempo. The cost of manpower is the single greatest component 
in the fiscal year 2009 budget. The fiscal year 2009 budget requests 
$41.6 billion for Military Personnel and includes a 3.4 percent 
Military Personnel pay raise. This investment is critical to ensuring a 
Naval force with the highest levels of ability and character.
    Comprehensive Care.--As Secretary of Defense Gates has stated, 
``Apart from the war itself, we have no higher priority (than to take 
care of our Wounded, Ill, and Injured).'' Over the sustained combat 
operations in the GWOT, the Department has endured the loss of over 830 
Marines and 75 Sailors killed in action, and over 8,500 Marines and 600 
Sailors wounded in action. These Marines and Sailors and their 
survivors deserve the highest priority care, respect and treatment for 
their sacrifices. We must ensure our wounded warriors and families 
receive the appropriate care, training and financial support they need. 
Failing them will undermine the trust and confidence of the American 
people. Consequently, the Department of the Navy initiated a 
Comprehensive Casualty Care effort in March 2007 to ensure visibility 
of the full range of needs of service members and their family members 
and the coordination and expedient delivery of clinical and non-
clinical services throughout the continuum of care. Among the 
initiatives pursued under this effort was a Lean Six Sigma mapping of 
the casualty care process to identify areas of patient transitions, 
gaps in service, and unmet needs across key functional service areas to 
include: Medical, Pay, and Personnel, Family Support, Case Management, 
Information Technology, and the Disability Evaluation System. The 
following sections provide some specific examples of the Department's 
actions and plans for improving care for our people.
    Combat Casualty Care.--Navy Medicine provides combat casualty care 
to Navy and Marine Corps units, on Expeditionary Medical Facilities, 
aboard casualty receiving/treatment ships and hospital ships, and in 
military hospitals. Recent advances in force protection, battlefield 
medicine, combat/operational stress control, and medical evaluation 
have led to improved survival rates for wounded (approximately 97 
percent) and enhanced combat effectiveness. In September 2007 Naval 
Medical Center San Diego stood-up a Comprehensive Combat Casualty Care 
Center providing inpatient and outpatient services to all levels of 
combat casualties, including rehabilitative, mental health and 
prosthetic care. The unit is the military's first and only center for 
amputee care on the West Coast. This year the Marine Corps is 
reorganizing Medical Battalions and fielding the Family of Field 
Medical Equipment, modernizing 34 different medical systems such as the 
Traumatic Brain Injury (TBI) scanner and the Airframe First Aid Kit.
    Wounded Warrior and Safe Harbor.--In fiscal year 2007 the Marine 
Corps expanded its existing programs by establishing the Wounded 
Warrior Regiment with a Wounded Warrior Battalion on each coast to 
provide better continuity of care for wounded warriors. Specifically, 
these organizations provide wounded warriors a location to recuperate 
and transition in proximity to family and parent units. The Navy has a 
number of programs ensuring care for all wounded, ill and injured 
Sailors and their families. Those severely wounded, ill, and injured 
Sailors and their families receive non-medical case management and 
advocacy from the Navy's Safe Harbor Program. Safe Harbor provides 
assistance in dealing with personal challenges from the time of injury 
through return to duty or transition to civilian life.
    Post Traumatic Stress Disorder.--Specific improvements for post 
traumatic stress disorder include both preventive and post deployment 
care. The Marine Corps is employing Operational Stress Control and 
Readiness teams to provide early intervention, outreach, and prevention 
at the unit level in close proximity to operational missions, reducing 
stigma associated with conventional mental health care. The Navy is 
enhancing the Operational Stress Control Program and is completing 
phase two of the in-theater Behavioral Health Needs Assessment Survey 
to identify mental health needs, guide development of appropriate 
prevention and treatment programs, and ensure adequate in-theater 
mental health support. To date in fiscal year 2008, Navy Medicine 
expanded the Deployment Health Clinic (DHC) concept to a total of 17 
Centers. These DHCs logged over 30,000 visits encompassing the entire 
range of post deployment healthcare symptoms. These clinics are 
designed to be easily accessible, non-stigmatizing portals for 
effective assessment and treatment of deployment-related mental health 
issues. Three additional DHCs are planned for 2008. Specialized 
training is also being provided to the Chaplain Corps and non-mental 
health medical personnel to include mind, body and spiritual practices. 
Augmenting the ability to deliver the highest quality of Psychological 
Healthcare available, Navy Medicine committed $7 million to stand-up a 
Naval Center for the Study of Combat Stress that will support all of 
the varied and diverse mental health needs.
    Traumatic Brain Injury (TBI).--The Department is engaged in 
activities to address TBI and remains committed to the further 
expansion of TBI research and availability of services for our service 
members. Navy Medical Research Command uses new techniques to identify 
transmissibility of blast wave energy into the brain, focusing on the 
nexus between the blast wave energy transmission and the resulting 
brain pathology. Navy researchers serve on the Health Affairs Senior 
Executive Advisory Committee on TBI sensor development and coordinate 
closely with the U.S. Army Program Executive Office in the development 
of helmet mounted monitors. The National Naval Medical Center's 
Traumatic Stress and Brain Injury Program serves blast-exposed or head-
injured casualties aero-medically evacuated out of theater. Over 1,082 
blast-exposed service members have been evaluated for psychological 
health and traumatic brain injury. In May 2007, Naval Medical Center 
San Diego stood up a Traumatic Stress and Brain Injury Program, and in 
September 2007, Camp Lejeune stood up a similar program.
    Physical and Medical Evaluation Boards.--The Department refined the 
physical and medical evaluation board process to ensure timely, 
comprehensive and transparent actions balancing the rights of the 
individual and the needs of the service. Actions include upgrading the 
Council of Review Board website to provide transition services and 
links to government agencies with post-service benefits. Additional 
upgrades are underway to provide a portal for members to monitor case 
processing. The Department is also participating in the joint DOD-VA 
Disability Evaluation Pilot in the National Capital Region that is 
designed to further streamline the process and ensure a smooth 
transition to civilian life for service members leaving active duty.
    Family Readiness.--The Department remains committed to the 
readiness and resilience of Navy and Marine Corps families, including 
the spouses, children, parents, and other extended family members 
committed to caring for Sailors and Marines. To that end, the 
Department operationalized family support programs to better empower 
Sailors and Marines to effectively meet the challenges of today's 
military lifestyle. The Marine Corps is redesigning and enhancing 
family readiness programs that most directly prepare Marines and their 
families, including: Unit Family Readiness Program, Marine Corps Family 
Team Building Program, Exceptional Family Member Program, School 
Liaison Program, and Children, Youth and Teen Program. As a companion 
effort, the Marine Corps will address quality of life deficiencies at 
remote and isolated installations, expand communication connections 
between separated Marines and their families, and make needed 
improvements to quality of life facilities and equipment throughout the 
Marine Corps. The Navy increased emphasis on prevention, education, and 
counseling to Navy families undergoing frequent and often short notice 
deployments. It has created school liaison positions to work with 
school districts and Navy families to ensure teachers and other school 
officials understand the pressures and issues facing military children. 
The Navy provides brief, solution-focused clinical counseling services 
to more family members, as well as increasing home visitation services 
to new parents who have been identified as requiring parenting support. 
To better reach Individual Augmentee families who do not live near a 
military installation but who have access to a computer, the Navy has 
begun virtual Individual Augmentee Family Discussion Groups to ensure 
outreach information, referral and ongoing support.
    The Department has developed an aggressive child care expansion 
plan, adding over 4,000 new child care spaces within the next 18 
months. This expansion includes construction of new Child Development 
Centers (including facilities open 24/7), commercial contracts, and 
expanding military certified home care. Combined, these initiatives 
will reduce the waiting time for child care from 6-18 months to less 
than 3 months. To assist parents and children with the challenges of 
frequent deployments, an additional 100,000 hours of respite child care 
will be provided for families of deployed service members. In efforts 
to combat youth obesity, the Navy has implemented a new world-wide 
youth fitness initiative called ``FitFactor'' to increase youth 
interest and awareness in the importance of healthy choices in life.
    National Security Personnel System (NSPS).--The Department of the 
Navy has successfully converted 30,000 employees into NSPS, with an 
additional 30,000 scheduled to convert by 30 October 2008. The DON is 
already seeing a return on investment: an unprecedented training effort 
focused on performance management, greater communication between 
employees and supervisors, people talking about results and mission 
alignment, and increased flexibility in rewarding exceptional 
performance. While mindful of new legislative restraints, maintaining 
key human resource elements of NSPS, including pay-for-performance, is 
vital to the system's success and the Department's ability to respond 
to ever-changing national security threats.
    Safety.--Fundamental to taking care of Sailors, Marines and DON 
civilian employees is establishing a culture and environment where 
safety is an intrinsic component of all decision making, both on and 
off-duty. Safety and risk management are integrated into on and off 
duty evolutions to maximize mission readiness and to establish DON as a 
world class safety organization where no mishap is accepted as the cost 
of doing business.
    The Secretary of Defense established a goal to achieve a 75 percent 
reduction in baseline fiscal year 2002 mishap rates across DOD by the 
end of fiscal year 2008. In fiscal year 2007 the DON recorded our 
lowest number of serious operational mishaps and the lowest rate of 
serious aviation mishaps in our history.
    One particular challenge that we continue to face is loss of 
Sailors and Marines to fatal accidents on our nation's highways--111 in 
fiscal year 2007. While our rates are actually better than U.S. 
national statistics, and fiscal year 2007 was one of our best years 
ever, we find these losses untenable--we can and must do better. In 
particular, the growing popularity of sport bikes, or high powered 
racing motorcycles, represents our biggest challenge. We are 
restructuring our motorcycle training, and in partnership with the 
Motorcycle Safety Foundation, we have developed a new hands-on Sport 
Bike Rider Safety Course. We are also implementing methods and 
technology to more rapidly assess our personnel to accurately identify 
those individuals at high risk for private motor vehicle mishaps. They 
will be targeted for intervention in an effort to further reduce 
mishaps and our DON risk profile.

                     PREPARE FOR FUTURE CHALLENGES

Building a Balanced Fleet
    Today's Navy and Marine Corps must confront threats in the maritime 
domain ranging from near-peer competitors, to non-state and 
transnational actors, to rogue nations and pirates. To meet the 
challenge the fiscal year 2009 budget provides for a balanced fleet of 
ships, aircraft and expeditionary capabilities with the fighting power 
and versatility to carry out blue, green, and brown water missions on a 
global basis.
    To ensure affordability and timely delivery of capabilities will 
require improvements in the acquisition process--ensuring stable 
requirements and clarity in design criteria, better program management 
expertise, and new measures to incentivize contractors to complete 
programs on cost and within schedule, while delivering a quality 
product for military use. Military use also includes other factors such 
as habitability conditions that support quality of life, reduced 
variability of part types, and supportable logistics and sustainment. 
In addition, independent cost, schedule, and risk assessments are 
conducted and used to establish the foundation of program plans.
    The Department has launched an acquisition improvement initiative, 
planning for which has included the Secretary, Chief of Naval 
Operations (CNO) and Commandant of the Marine Corps (CMC), and which 
will enforce discipline across the Department without altering existing 
Office of the Secretary of Defense and Joint Chiefs of Staff-level 
processes. Actions comprising the acquisition improvement initiative 
include the following:
            Acquisition Governance
    Led by CNO/CMC, the requirements phase comprises three 
``requirements gates:'' (1) Approval of Initial Capabilities Document; 
(2) Approval of Analysis of Alternatives; and (3) Approval of 
Capabilities Development Document and Concept of Operations. During 
this phase the focus is on what we buy and the process ensures 
completeness and unanimity of requirements, agreed upon by top 
leadership early in the acquisition process.
    The acquisition phase, led by the Component Acquisition Executive, 
consists of three ``acquisition gates'': (1) Approval of the System 
Design Specification; (2) Approval to release the System Development 
and Demonstration Request for Proposals; and (3) A Sufficiency Review 
of the entire program. During this phase the focus is on ``how we 
buy'', emphasizing clear system design specifications, leveraging 
commonality within parts and systems, and the use of open architecture. 
During this phase CNO and CMC remain in support of the acquisition 
force to ensure stability in the requirements.
    Each ``gate review'' includes a comprehensive assessment using 
detailed metrics to determine the health of the program and ensures 
that the program is ready to proceed through the next phase of the 
acquisition process. The key benefits are (1) better integration of 
requirements and acquisition decision processes; (2) improvement of 
governance and insight into the development, establishment, and 
execution of acquisition programs; and (3) formalization of a framework 
to engage senior Naval leadership throughout the review process.
            Acquisition Workforce
    To reinvigorate the acquisition workforce the Department has 
aggressively pursued investment in several key areas. Using a model of 
our total workforce, we've identified certain imbalances and 
redundancies which Systems Commands and Program Executive Officers will 
initiate corrective action for in fiscal year 2008. Further, the 
Department will create a common business model across Systems Commands 
to allow maximum flexibility of workforce utilization while sharpening 
the skill sets of our acquisition professionals. Further, we are 
creating common templates for acquisition program leadership that will 
ensure adequate staffing of programs throughout their life cycle. 
Notably we have adjusted the programmatic leadership structure of the 
DDG 1000 and Littoral Combat ships to benefit from these common 
templates.
    Finally, to bolster our acquisition leadership, we have selected a 
Vice Admiral to serve as Principal Deputy Assistant Secretary for 
Research Development and Acquisition.
Fiscal Year 2009 Acquisition Programs
    Shipbuilding.--The fiscal year 2009 shipbuilding budget provides 
for seven new ships: one Virginia-Class (SSN-774) nuclear-powered 
attack submarine, one DDG 1000 Destroyer, two Littoral Combat Ships 
(LCS), two Dry Cargo Ammunition (T-AKE) ships and one Joint High Speed 
Vehicle (JHSV). The Navy also will procure an additional JHSV for the 
Army in fiscal year 2009. The budget also includes the next increment 
of funding for CVN-78; research and development funds for CG(X), the 
future cruiser; the first increment of funding for the Refueling 
Complex Overhaul for the U.S.S. Theodore Roosevelt (CVN-71); funding 
for an engineered refueling overhaul for an SSBN; and continued 
modernization for guided missile cruisers, guided missile destroyers, 
submarines and aircraft carriers.
    Naval Aviation.--The Department of the Navy requires a robust 
aviation capacity including attack, utility, and lift capabilities. The 
Department is in the midst of an extensive, long-term consolidation and 
recapitalization of aircraft in the Naval inventory to achieve a more 
efficient and effective warfighting force. The fiscal year 2009 budget 
requests funding for 206 aircraft. The fiscal year 2009 budget supports 
the acquisition of the F-35 Joint Strike Fighter (JSF), the EA-18G 
Growler, the MV-22B, the KC-130J, the E-2D; the MH-60, the UH-1Y and 
AH-1Z helicopters; and the continued development of the P-8A Multi-
Mission Maritime Aircraft (MMA), the CH-53K and VH-71 programs.
    The Department will continue to recapitalize our aging inventory 
with upgrades or new variants of existing aircraft where suitable and 
cost effective. For example, the Navy helicopter community is replacing 
six different aircraft with the MH-60R and MH-60S, while the Marine 
Corps is buying the UH-1Y, AH-1Z and CH-53K to replace older variants 
of those aircraft.
    Command, Control, Communications, Computers (C4).--Effective C4 
capabilities are key to ensuring that our forces have accurate 
situational understanding to enable decision superiority. The Navy and 
Marine Corps have planned several programs to deliver agile and 
interoperable network-centric capabilities to ensure success for Naval, 
Joint and Coalition forces, including naval contributions to the 
National Security Space. The Department is planning the replacement for 
the Navy Marine Corps Intranet with the Next Generation Enterprise 
Network. The Marine Corps is developing the Command and Control 
Harmonization Strategy. Capitalizing on emerging capabilities such as 
the Tactical Communications Modernization Program and the Very Small 
Aperture Terminal, the Marine Corps intends to deliver an end-to-end 
integrated, cross functional capability across the force.
    Intelligence, Surveillance and Reconnaissance (ISR).--The Navy and 
Marine Corps are in the process of reviewing current ISR capabilities 
and formulating a long-term ISR strategy. This strategy, when 
completed, will ensure the Department's current and future ISR 
capabilities are used to the fullest extent possible and will maximize 
the use of other services' and national capabilities to enhance the 
Department's variety of missions. The Marine Corps' use of Department 
of Army's unmanned aircraft system, Shadow, is an example of leveraging 
another service's capability. Shadow meets the Marine Corps 
requirements for a transportable ISR asset capable of providing 
tactical commanders with day and night, battlefield and maritime 
reconnaissance. The Navy, with unique maritime domain ISR requirements, 
is integrating manned and unmanned capabilities with the Broad Area 
Maritime Surveillance (BAMS) Unmanned Aircraft System (UAS) and the P-
8A program. The BAMS UAS will provide a persistent, multi-sensor, 
maritime intelligence, surveillance, and reconnaissance capability with 
worldwide access. Additionally, the Department of the Navy is working 
closely with the Office of the Under Secretary of the Defense for 
Intelligence to ensure the current Distributed Common Ground System--
Navy and Marine Corp family of systems meet DOD standards, share 
technology and minimize duplication.
    Maritime Domain Awareness.--The responsibility for Global Maritime 
Security lies with many departments, agencies, and organizations across 
the spectrum of our government, international partners, and industry. 
Each of these stakeholders bring a part of the solution, and taking the 
lead in establishing a global capability from those parts is one of the 
single most important new steps of the Department of the Navy. 
Protection of the global maritime domain is fundamental to our national 
security, and requires an integrated approach across the Naval forces, 
with our Federal maritime partners, with certain State and local 
authorities, and indeed with the entire global maritime community. We 
have embarked on the organizational behavior changes necessary to bring 
those disparate stakeholders together, and are investing in creation of 
an enduring operational capability for the Nation.
Infrastructure Investment
    Facilities.--The fiscal year 2009 budget requests $3.2 billion for 
military construction projects at active and reserve Navy and Marine 
Corps bases, a substantial increase over the enacted $2.3 billion in 
fiscal year 2008. Much of the funding growth is to build training and 
housing facilities to support the Marine Corps growth in end strength 
over the next five years. Both Navy and Marine Corps will sustain 
existing facilities at 90 percent of the DOD model requirement.
    Base Realignment and Closure (BRAC).--The fiscal year 2009 budget 
requests $871.5 million to continue implementation of the 2005 BRAC 
Commission recommendations. This request invests in construction 
(including planning and design) and operational movements at key 
closure and realignment locations. Fiscal year 2009 plans may require 
some adjustment to ensure consistency with the approved fiscal year 
2008 budget.
    Walter Reed National Medical Center Bethesda.--BRAC action 169 
called for closure of Walter Reed Army Medical Center, realignment of 
tertiary and complex care missions to National Naval Medical Center 
Bethesda, and establishment of Walter Reed National Military Medical 
Center Bethesda. The Department of Defense approved an expanded scope 
and acceleration of the original program. The Naval Facilities 
Engineering Command is managing the EIS for Bethesda and a ROD is 
scheduled for May 2008.
    Family and Bachelor Housing.--Privatization for housing in the 
continental United States is on its way towards completion. The 
privatization of unaccompanied housing is proceeding smoothly at our 
first pilot project in San Diego. The construction of new apartments is 
well underway with completion of the first building scheduled for 
December 2008. Moreover, the project won an industry customer service 
award in its first year of operation in recognition of the dramatic 
improvement in resident satisfaction in existing housing that was 
privatized. We have broken ground on our second pilot project in 
Hampton Roads in our effort to bring the benefits of bachelor housing 
privatization to Sailors on the East Coast. This year's budget reflects 
the continuation of the Marine Corps' quality of life initiative to 
construct additional housing to address the substantial, long-standing 
shortfall of adequate housing for single Marines. The objective is to 
provide quality bachelor housing for all sergeants and below for our 
``pre-grow the force'' end strength by fiscal year 2012 and to support 
202,000 Marines by fiscal year 2014. Our fiscal year 2009 budget 
request also includes a military construction project to replace 
bachelor housing at Naval Station San Clemente, completing elimination 
of inadequate bachelor housing in the Department.
    Wounded Warrior Housing.--The Department of the Navy completed 
inspections of all housing for wounded, ill, and injured to ensure 
quality and accessible living quarters. Annual inspections will ensure 
continued oversight by Department of the Navy leadership. In addition, 
Wounded Warrior Barracks are under construction at Camp Lejeune and 
Camp Pendleton. Both barracks will provide 100 two-person American with 
Disabilities Act compliant rooms allowing for surge capability.
    Marine Corps Relocation to Guam.--The fiscal year 2009 budget 
continues detailed studies, plans and environmental analyses for the 
U.S./Government of Japan Defense Policy Review Initiative (DPRI) to 
relocate about 8,000 Marines and their dependents from Okinawa, Japan 
to Guam by 2014. The facilities, housing, logistics and environmental 
requirements are being developed from the ground up to support mission 
requirements as well as business-case prudence. The measured investment 
in fiscal year 2009 is crucial to the five-year $10.27 billion ($4.18 
billion from the United States and $6.09 billion from the Government of 
Japan) construction program scheduled to commence in fiscal year 2010.
    Naval Station Mayport.--The Navy is preparing an EIS that examines 
several alternatives for best utilizing the facilities and capabilities 
of Naval Station Mayport after the retirement of the U.S.S. John F 
Kennedy (CV 67). The options being evaluated include: Cruiser/Destroyer 
(CRUDES) homeporting; Amphibious Assault Ship (LHD) homeporting; 
Nuclear-Powered Aircraft Carrier (CVN) capable; CVN homeporting; and 
Amphibious Ready Group (ARG) homeporting.
    Preparation of the Mayport EIS is on schedule. The draft EIS is 
scheduled for release in March 2008, with the final EIS expected in 
December 2008 and the ROD in January 2009.
Environmental Stewardship
    Energy Initiatives.--Energy efficiency is key to reducing life 
cycle costs and increasing the sustainability of installations and 
facilities. The Department has led the way in supporting the Energy 
Policy Act of 2005 (EPAct05) by adopting the Leadership in Energy and 
Environmental Design (LEED) Silver standard as a primary consideration 
for all DON military construction projects. Using the LEED Silver 
standard, new energy-efficient projects have been completed on several 
installations, including Recruit Training Center Great Lakes and Naval 
Amphibious Base Little Creek. DON also has a comprehensive energy 
program responding to the requirements of EPAct05 and Presidential 
Executive Order 13423, evidenced by an 8.85 percent reduction in fiscal 
year 2007 energy consumption and an extensive renewable energy program.
    Minimizing the overall environmental effects.--The recently-
announced Low-Impact Development (LID) policy is an example of how the 
Department is emphasizing reduction of impact to the environment. The 
goal of the policy is ``no net increase'' in the amount of nutrients, 
sediment, and storm water escaping into the watersheds surrounding 
facilities and installations. The use of cost-effective LID Best 
Management Practices such as rainwater collection systems in 
construction and renovation projects is central to achieving this goal.
    Alternative Fuels.--The Department has been a leader in the use of 
alternative fuels. The Navy and Marine Corps both reduced petroleum 
consumption in their vehicle fleets by more than 25 percent from 1999 
to 2006, and together used almost two million gallons of biodiesel in 
2006. Further gains in alternative fuel implementation will be 
supported by the Department's new Petroleum Reduction and Alternative 
Fuel Vehicle Strategy, which challenges the Navy and Marine Corps to 
build on already substantial progress to meet and exceed the 
established Federal goals contained in Executive Order 13423 and the 
Energy Independence and Security Act of 2007. We are also expanding our 
use of alternative fuels in our tactical fleet, to include ships, 
aircraft and ground vehicles. In fiscal year 2009 we will lay the 
groundwork for a testing and certification program for alternative fuel 
use. The Navy is also actively pursuing energy conservation 
initiatives, through energy conserving alterations in propulsion plants 
and conservation practices in operations.

                     MANAGEMENT PROCESS IMPROVEMENT

    Complementary action to our acquisition improvement initiatives is 
our commitment to enhance process improvement across the Department of 
the Navy to increase efficiency and effectiveness and responsible use 
of resources. The Enterprise Resource Planning (ERP) program, planned 
for implementation throughout the Department, began initial 
implementation at Naval Air Systems Command in October 2007. It is an 
integrated business management system that modernizes and standardizes 
business operations and provides management visibility across the 
enterprise. The Department continues to champion the use of Lean Six 
Sigma as the primary toolset as a means toward increasing readiness and 
utilizing resources efficiently. Over 4,420 leaders have completed Lean 
Six Sigma training, and there are over 2,000 projects underway. The 
Department's Financial Improvement Program leverages ERP and 
strengthens control of financial reporting. The Marine Corps expects to 
be the first military service to achieve audit readiness.
    A major process improvement initiative to ensure that the 
Department applies fundamental business precepts to its management is 
the Secretary of the Navy's Monthly Review (SMR). The SMR is a senior 
leadership forum, involving CNO, CMC and Assistant Secretaries, 
designed to afford greater transparency across the Department and set 
into motion actions that garner maximum effectiveness and efficiency 
for the Department. The SMR reviews a portfolio of the bulk of 
Department activities and programs involving manpower, readiness, 
acquisition, infrastructure, etc. Using Lean Six Sigma tools and other 
business tools, this forum reviews the most urgent issues and discusses 
and implements appropriate solutions. Ultimately, this monthly 
interaction serves as a means to synchronize the Department's actions 
to comprehensively address complex problems, accomplish strategic 
objectives, and better position for challenges in the future.
    The Department will incorporate the Chief Management Officer (CMO) 
into the Secretariat in fiscal year 2008. The CMO will have 
responsibility for improving Department business operations to carry 
out objectives. These initiatives are all steps to make process 
improvement a way of thinking in carrying out daily business throughout 
the organization.

                               CONCLUSION

    Thank you for this opportunity to report to you on the Department 
of the Navy. I provide the fiscal year 2009 budget to you and ask for 
your support for this plan that will enable the Department to prevail 
in GWOT, take care of our people and prepare for future challenges. The 
uniformed men and women of the Department of the Navy, and our civilian 
workforce, depend on our collective support and leadership. I 
appreciate the opportunity to set forth the President's fiscal year 
2009 budget and look forward to working with you in furtherance of our 
maritime capabilities and our national security.

    Senator Inouye. Mr. Chief of Naval Operations, do you wish 
to testify?
STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Roughead. Chairman Inouye, Senator Stevens, 
distinguished members of the subcommittee. On behalf of our 
600,000 sailors, Navy civilians, and families, it's an honor to 
appear before you today. And together, with Secretary Winter 
and General Conway, I'm privileged to be part of this 
leadership team that provides for our Nation's safety, 
security, and prosperity.
    Today, your Navy stands ready with the agility, the 
flexibility, and the competence to do what no other Navy in the 
world can do. Three weeks ago, we successfully and temporarily 
converted a portion of our Sea-based Ballistic Missile Defense 
Program to engage a failing satellite. Sea-based ballistic 
missile defense is here, it is real, and it works, but that is 
only a part of what your Navy delivers to our Nation.
    We are exercising our new maritime strategy every day, a 
strategy that is more than just a glossy brochure. Our carriers 
are projecting power in the Arabian Gulf, our destroyers are 
demonstrating our resolve in the Mediterranean, an amphibious 
ship is engaged in counterpiracy operations on the east coast 
of Africa, and another is delivering humanitarian assistance on 
the west coast of that continent, our frigates are intercepting 
drug traffickers in the Caribbean Sea, and our Riverine Forces 
are patrolling vital infrastructure on the Euphrates River in 
Iraq, and our submarines patrol silently around the globe. We 
have 118 ships and over 58,000 people on deployment, out and 
about, doing the work of the Nation. But as you so well know, 
our operations come at a cost to our people, current readiness, 
and the future fleet, those are my three focus areas.
    Our people, our sailors, marines, and their families know 
they have your support. We must continue to invest in their 
futures, and in the young men and women of America, who will 
follow in their wake. In the context of this generational war, 
it is imperative that we continue to care for our wounded 
warriors and support the healthcare needs of all of our sailors 
and Navy civilians. Likewise, your support for the critical 
skills, re-enlistment bonuses, has enabled us to retain the 
sailors we need. Supporting our future force cannot be done 
without readiness to fight today.
    To this end, quality shore installations, responsive depot-
level maintenance facilities, an unfettered ability to train 
responsibly are necessities. Where area access and shore 
support is denied, the Commandant and I have been moving 
forward together with a sea-basing alternative. These elements 
are essential to support our fleet response plan, which has 
enabled us to meet requirements and will sustain us through the 
requested temporary carrier force level adjustment.
    Of my three focus areas, building tomorrow's Navy to be a 
balanced, appropriately sized force, is the most immediate 
imperative and challenge. Fiscal realities, however, have led 
us to assume more risk in ship building, ship operations, and 
weapons. Achieving the 313 ship floor, at current funding 
levels, will require us to improve processes, collaborate with 
industry, and make difficult decisions in the near term.
    I am pleased that the first two DDG 1000 contracts have 
been awarded. Our surface combatants are an essential element 
of our force, and it is important that we do not raid the 
combatant line as we build to 313 ships. I remain strongly 
committed to funding those programs that provide critical 
capabilities to our forces. There is no substitute for the 
littoral combat ship in closing the littoral capability gap. 
Current F/A-18 Hornets are needed to swage a 2016 strike 
fighter shortfall. Surface combatant superiority will be 
maintained through DDG 51 modernization. Multimission maritime 
aircraft will recapitalize our maritime patrol, antisubmarine 
warfare capabilities. And sea-based ballistic missile defense 
will ensure future theater and national defense and enable 
access for our joint forces.
    These critical programs for our future fleet require 
appropriate, disciplined investments now. The 2009 budget and 
its associated force-structure plans will meet our current 
challenges with a moderate degree of risk. Clearly, we have 
many challenges, of which building tomorrow's fleet is the 
greatest, but with these challenges is our opportunity to have 
a balanced and global fleet, which will defend the Nation and 
assure our prosperity for generations to come.

                           PREPARED STATEMENT

    On behalf of our sailors, our Navy civilians, and our 
families, thank you again for the opportunity to appear before 
you today, and thank you for your support of what we do today 
and what we will do tomorrow. And I look forward to your 
questions.
    Senator Inouye. Thank you very much.
    [The statement follows:]

              Prepared Statement of Admiral Gary Roughead

                              INTRODUCTION

    Chairman Inouye, Senator Stevens, and members of the Committee, it 
is an honor to appear before you today representing the nearly 600,000 
men and women, Sailors and civilians of our Navy. In 2007, the Navy 
answered all bells. Surge and rotational expeditionary forces performed 
brilliantly and we responded to global contingencies and requirements. 
The fiscal year 2009 budget and its associated force structure plans 
represent the capabilities needed to meet current challenges with a 
moderate degree of risk. I appreciate your continued support as our 
Navy defends our nation and our vital national interests.
    In 2007, the Navy, Marine Corps, and Coast Guard released the 
Cooperative Strategy for 21st Century Seapower. The strategy represents 
unprecedented collaboration among the three Services. It also 
incorporates input from American citizens obtained through a series of 
``Conversations with the Country'' that included the maritime Services, 
business and academic leaders, and the general public.
    The maritime strategy is aligned with the President's National 
Strategy for Maritime Security and the objectives articulated in the 
National Security Strategy, the National Defense Strategy, and the 
National Military Strategy. It recognizes that the maritime domain is 
vital to national security and prosperity. Nearly three-quarters of the 
Earth's surface is water; 80 percent of the world's population lives on 
or near coastlines; and 90 percent of the world's trade, including two-
thirds of the world's petroleum, moves on the oceans to market. The 
oceans connect us to populations around the world and our Navy's 
presence and active engagement is vital to our collective security.
    In addition to the Navy's engagement in Iraq and Afghanistan, 
international military, political, and economic events beyond those 
borders have direct and indirect implications for the Navy. Examples 
include China's rapid build up of a blue water navy and their 
development of cyber and space warfighting capabilities. Russia's first 
Mediterranean deployment in 15 years and increased defense spending 
demonstrate their desire to emerge as a global naval power. North 
Korea's long-range ballistic missile program and their missile 
proliferation history reinforce the need for a credible, forward 
deployed ballistic missile defense capability. Militaries in Central 
and South American seek aircraft and submarines to back their regional 
and international objectives. Iran's confrontational activities at sea 
this past January, when the USS PORT ROYAL, USS HOPPER, and USS 
INGRAHAM encountered five small Iranian boats operating provocatively 
in the Strait of Hormuz, heightened tensions. Conflict is likely to 
continue into the future and the Navy's global commitments are likely 
to increase. As U.S. ground forces reset, reconstitute, and revitalize, 
the Navy will remain on station to respond to threats and crises.
    The new maritime strategy recognizes the many existing and 
potential challenges to national security and prosperity. To address 
these challenges, the strategy articulates six core capabilities our 
maritime Services provide: forward presence, deterrence, sea control, 
power projection, maritime security, and humanitarian assistance and 
disaster response (HA/DR). The first four capabilities are paramount 
because they enable the defense of our nation and its interests. 
Forward presence, deterrence, sea control, and power projection must 
remain the cornerstones of what makes our Navy a dominant global force.
    The Navy will continue to enhance cooperation with existing and 
emerging partners and build bridges of trust among the international 
community. Proactive global involvement is a strategic imperative for 
the Navy and our nation, since trust cannot be surged in times of 
crisis.
    Execution of the maritime strategy is already underway in current 
operations. As we plan and resource for the future, the maritime 
strategy will guide our efforts. The execution of our current readiness 
and force structure plans faces many challenges, but affordability is 
the most pressing. I refuse to cede our technological advantage to 
competitors; however current readiness, manpower, and escalating 
procurement costs make pacing the threat exceptionally difficult. We 
will continue to improve processes, work with industry, and maximize 
cost saving initiatives. Stable procurement plans must be affordable 
and realistic to deliver the balanced future Fleet. While I am 
satisfied that the force structure plans deliver required capabilities, 
the balance among capability, affordability, and executability in these 
plans is not optimal. This imbalance has the potential to increase 
significantly warfighting, personnel, and force structure risk in the 
future.
    Our operations, people, and equipment continue to serve our nation 
well, but it comes at a significant cost. It is my duty as CNO to 
ensure our Navy is always ready to answer our nation's call anytime, 
anywhere, now and in the future. This duty shapes my priorities and 
will influence the decisions and recommendations I will make regarding 
the future of our Navy.

                    PRIORITIES FOR FISCAL YEAR 2009

    My vision for the Navy is that we remain the preeminent maritime 
power, providing our country a naval expeditionary force committed to 
global security and prosperity. We will defend our homeland and our 
nation's vital interests around the world. We will prevent war, 
dominate any threat, and decisively defeat any adversary. The Navy will 
remain a powerful component of Joint warfare by exploiting cutting edge 
technology and cooperating closely with the other Services, the 
interagency community, allies, and international partners. We will 
remain a superbly trained and led team of diverse Sailors and 
civilians, who are grounded in our warfighting ethos, core values, and 
commitment to mission readiness and accomplishment.
    To achieve this vision, the Navy must address existing and emerging 
challenges and create new opportunities. My priorities are to: Build 
tomorrow's Navy, remain ready to fight today, and develop and support 
our Sailors and Navy civilians.
    I will demand that we accurately articulate requirements and remain 
disciplined in our processes. Achieving the right balance within and 
across these focus areas will provide dominant seapower for our nation, 
today and tomorrow.
Building Tomorrow's Navy
    Our Fleet must have the right balance of capability and the 
capacity. Three hundred thirteen ships represent the minimum force 
necessary to provide the global reach, persistent presence, and 
strategic, operational, and tactical effects. Our fiscal year 2009 
budget requests seven new ships: two LCS, one DDG 1000, one SSN, two T-
AKE, and one JHSV, and 47 new ships over the Future Years Defense Plan 
(FYDP) (fiscal year 2009-2013). I support a stable shipbuilding plan 
that provides an affordable, balanced force and preserves our nation's 
industrial base. I intend to develop further our Navy's relationship 
with industry to reinforce our commitment to a stable shipbuilding 
plan.
    As we pursue operational capability at reduced cost, we take into 
account several industrial factors. Level loading of ship and aircraft 
procurements help sustain appropriate employment levels, retain skills, 
and promote a healthy U.S. shipbuilding industrial base. Common hull 
forms, common components, and repeat builds of ships and aircraft that 
permit longer production runs also reduce construction costs. Our 
Navy's shipbuilding plans incorporate open architecture for hardware 
and software systems and they increase the use of system modularity. 
These initiatives reduce the cost of maintenance and system upgrades, 
and keep the Navy's Fleet in service longer.
    I seek your support for the following initiatives and programs:
            Aircraft Carrier Force Structure
    The Navy is committed fully to maintaining an aircraft carrier 
force of 11. During the 33-month period between the planned 2012 
decommissioning of USS ENTERPRISE and the 2015 delivery of USS GERALD 
FORD, however, legislative relief is requested to temporarily reduce 
the carrier force to 10. Extending ENTERPRISE to 2015 involves 
significant technical risk, challenges manpower and industrial bases, 
and requires expenditures in excess of two billion dollars. Extending 
ENTERPRISE would result in only a minor gain in carrier operational 
availability and adversely impact carrier maintenance periods and 
operational availability in future years. We are adjusting carrier 
maintenance schedules to support the Fleet Response Plan (FRP) and 
ensure a responsive carrier force for the nation during this proposed 
10-carrier period. I urge your support for this legislative proposal.
            Littoral Combat Ship (LCS)
    LCS fills critical warfighting requirements. It offers speed, 
draft, and modularity that no other ship offers. USS FREEDOM (LCS-1) 
and USS INDEPENDENCE (LCS-2) enter service soon and their performance 
at sea will enable us to decide on the appropriate acquisition strategy 
for the class. Controlling and reducing LCS costs are key to an 
affordable shipbuilding plan and we have already improved management 
oversight, implemented stricter cost controls, and incorporated 
selective contract restructuring to ensure delivery on a realistic 
schedule. Although recent changes to the LCS program resulted in the 
reduction of 13 ships across the FYDP, I remain committed to procuring 
55 LCS by fiscal year 2023. I appreciate your continued support for 
this important ship class, including our fiscal year 2009 request for 
$1.47 billion for procurement of two additional ships and associated 
modules and continued research and development (R&D).
            Joint Strike Fighter (JSF)
    The increased operational tempo (OPTEMPO) of our legacy aircraft is 
consuming service life at an accelerated rate. The recent groundings of 
high demand P-3 aircraft highlight the need to bring the next 
generation of aircraft in service and retire our aging aircraft. The 
JSF provides expanded capability that will meet the needs of our Navy, 
Joint Forces, and international partners. Because of the high OPTEMPO 
of the current strike aircraft fleet, and despite JSF's initial 
operational capability (IOC) and delivery in 2015, we anticipate a 
shortfall of strike aircraft from 2016-2025. Further delays in JSF will 
exacerbate this strike fighter gap. Navy's fiscal year 2009 investment 
of $3.4 billion includes procurement of eight aircraft and continued 
R&D for aircraft and engine development.
            CG(X)
    The next generation Guided Missile Cruiser CG(X) will be a highly 
capable major surface combatant tailored for Air and Missile Defense. 
CG(X) will provide maritime dominance, independent command and control, 
and forward presence. It will operate as an integral unit of Joint and 
Combined Forces. The CG(X) design and development program will feature 
revolutionary acquisition and spiral development practices that 
incorporate advanced technologies and next generation engineering 
systems. By replacing the TICONDEROGA (CG 47) class of ships at the end 
of its 35-year service life, CG(X) capitalizes on the developments made 
through DDG Modernization and DDG-1000. We are conducting a rigorous 
analysis to examine alternatives for CG(X) consistent with the National 
Defense Authorization Act requirement for nuclear power. Our fiscal 
year 2009 R&D request for $370 million will support CG(X) and 
associated radar development.
            DDG 1000
    Congressional approval of split funding for the dual lead DDG 1000 
ships supports an acquisition approach that motivates cooperative 
completion of detail design. Collaboration between Northrop Grumman 
Ship Systems and Bath Iron Works during the detail design process has 
enabled these shipyards to produce the two lead ships simultaneously. 
Consequently, the DDG 1000 detail design will be more mature prior to 
start of construction than any previous shipbuilding program. Our 
budget request in fiscal year 2009 will procure the third ship of the 
class.
            Ballistic Missile Defense (BMD)
    The increasing development and proliferation of ballistic missiles 
can threaten the homeland and our friends and allies. Ballistic 
missiles can also impede our military operations. Maritime ballistic 
missile defense provides protection for forward-deployed joint forces 
and regional allies while contributing to the larger defense of the 
United States through the Ballistic Missile Defense System (BMDS). 
Maritime ballistic missile defense directly contributes to the Navy's 
core capability of deterrence, and enables our core capabilities of 
power projection and sea control. The Aegis BMD directorate of the 
Missile Defense Agency has developed the Navy's BMD capability which is 
installed on 17 ships including three cruisers and 14 guided missile 
destroyers with installations continuing in 2008. These Navy surface 
ships support the BMDS by cueing ground-based sensors and intercepting 
Short to Intermediate Range Ballistic Missiles with ship-based 
interceptors (SM-3 missiles). The Near Term Sea-Based Terminal Program 
provides the ability to engage a limited set of Short Range Ballistic 
Missiles (SRBMs) with modified SM-2 Block IV missiles. The Navy will 
continue to work closely with the Missile Defense Agency to deliver 
improved capability and capacity to defend against this proliferating 
threat. While development and procurement funding is covered under the 
Missile Defense Agency budget, Navy has committed $16.5 million in 
fiscal year 2009 for operations and sustainment of Aegis BMD systems.
            Navy Networks
    Afloat and ashore networks enable warfighting command and control 
capability. Data, hardware, and applications must be arranged in a way 
that enables rapid upgrades to accommodate exponential increases in 
demand. Incorporation of open architecture and common computing 
environment in our networks will require us to redesign network 
architecture to free us from proprietary control. Open architecture 
will drive us to commonality and standardization, introduce 
efficiencies, promote better data protection, and network security. It 
will also allow our future war fighters to fight collaboratively and 
more effectively.
    The first step in achieving this new network architecture is 
putting it to sea. The Consolidated Afloat Networks and Enterprise 
Services (CANES) system achieves an open, agile, flexible and 
affordable network architecture that will move us forward. CANES 
embraces cross-domain solutions that enable enhanced movement of data. 
It is a revolutionary change in our information technology 
infrastructure and it is absolutely vital for us to excel in 21st 
century warfare. $21.6 million is aligned to CANES in the fiscal year 
2009 budget request, all of which is redirected from existing budget 
lines.
            Research and Development
    Science and Technology (S&T) give the Navy warfighting advantage. 
Last year the Secretary of the Navy, the Commandant of the Marine 
Corps, and my predecessor completed and published a combined Naval S&T 
strategy that ensures our investments accomplish the vision and goals 
of the Navy and Marine Corps. Selecting research for future Naval force 
capabilities must be balanced with fiscal realities. The S&T strategy 
identifies thirteen research focus areas and sets high-level objectives 
that guide investment decisions. S&T investments present a balance 
between applied science, focused on near term challenges, and basic 
research that advances the frontiers of science. We aggressively focus 
on transitioning S&T into programs of record and push these programs of 
record out to the Fleet through our Future Naval Capabilities program 
at the Office of Naval Research (ONR). The fiscal year 2009 budget 
requests $1.8 billion for Navy's S&T programs, an increase of 6 percent 
over the requested fiscal year 2008 level.
Ready to Fight Today
    Maintaining warfighting readiness demands a Navy that is agile, 
capable, and ready. As operational demands and Joint Force posture in 
the Middle East subside, I expect the Navy's posture, positioning, and 
OPTEMPO to increase, not decrease. OPTEMPO, as expressed in terms of 
steaming days, reflects the underway time of our conventionally powered 
ships. OEF/OIF and additional global commitments have caused a 
significant difference between budgeted and actual steaming days. The 
Navy has funded this difference with war supplemental funding. Trends 
indicate that anticipated operational requirements will continue to 
exceed peacetime levels in fiscal year 2009. Additionally, increased 
OPTEMPO drives accelerated force structure replacement and higher 
maintenance and manpower costs that must be funded.
    As the nation's strategic reserve, the Navy must be ready to 
generate persistent seapower anywhere in the world. The Navy must also 
establish and evolve international relationships to increase security 
and achieve common interests in the maritime domain.
    We generate forces for the current fight and employ our Navy much 
differently than in years past. We simultaneously provide ready naval 
forces and personnel for Joint Force Commanders, sustain forward 
presence, fulfill commitments to allies, and respond to increasing 
demands in regions where we have not routinely operated, specifically 
in South America and Africa.
    The Fleet Response Plan (FRP) has enhanced our ability to meet 
COCOM requests for forces for the last six years. FRP provides Naval 
forces that are well-maintained, properly manned, and appropriately 
trained to deploy for forward presence and surge missions. FRP 
increases operational availability and generates more forward presence 
and surge capability on short notice than was possible in the past. The 
unscheduled deployment of a second carrier to the Middle East in 
January 2007 is an example of how FRP provides the nation with options 
to defend its vital interests. FRP also allows the Navy to respond to 
global events more robustly while maintaining a structured, deliberate 
process that ensures continuous availability of trained, ready Navy 
forces.
    Balancing capacity and capability across the spectrum of warfare is 
essential. The challenge will be maintaining dominance in traditional 
roles while meeting existing and emerging threats in asymmetric and 
irregular warfare. My goal is to influence the entire range of military 
operations from large scale conflict to maritime security and HA/DR. 
Areas of particular interest to us are:
            Anti-Submarine Warfare (ASW): Sonar--The Key ASW Enabler
    Submarines remain an immediate threat and their roles and lethality 
are increasing. More countries are buying submarines; some are building 
anti-access strategies around them. Maintaining the ability to detect, 
locate, track, and destroy submarines is essential and our active sonar 
systems, particularly medium frequency active (MFA) sonar, are the key 
enablers.
    The Navy's use of sonar is being challenged in federal court by 
various lawsuits which seek to prohibit or severely limit it during 
vital combat certification exercises, such as those conducted in our 
Southern California operating areas. In more than 40 years of sonar use 
in Southern California waters, not a single injury to marine mammals 
has been linked to sonar. The Navy has worked closely with the National 
Marine Fisheries Service (NMFS) to establish effective, science-based 
mitigation measures. By implementing these measures NMFS does not 
expect adverse population level effects for any marine mammal 
populations during Fleet training exercises scheduled in Southern 
California in 2008. MFA sonar provides a robust and absolutely vital 
capability to detect submarine threats. Limiting our ability to train 
and exercise with MFA sonar will degrade operational readiness and 
place our forces at risk.
    Our measures provide an appropriate balance between good 
stewardship of the environment and preparing our forces for deployment 
and combat operations. Our Sailors must be trained to the best of their 
abilities with all of the technological tools available to fight and 
win. It is vital that our Navy be allowed to train and exercise with 
MFA sonar.
            Intelligence
    Our Navy provides a vital intelligence, surveillance, and 
reconnaissance capability around the globe. These capabilities produce 
warning and awareness in support of the planning and execution of 
maritime and joint operations. We are expanding our intelligence 
capability through development of trained human intelligence (HUMINT) 
personnel, investment in operational intelligence at our Maritime 
Operation Centers, and expanded synchronization with theater, joint, 
and national intelligence capabilities.
            Maritime Domain Awareness
    Maritime security supports the free flow of commerce for all 
nations. Maritime Domain Awareness is knowing what is moving below, on, 
and above the sea. Without a high level of Maritime Domain Awareness 
the free flow of commerce is jeopardized. The goal of Maritime Domain 
Awareness is to establish a level of security regarding vessels 
approaching our coastlines, while not infringing upon each nation's 
sovereignty or sharing inappropriate information.
    In partnership with the Coast Guard we established the Office of 
Global Maritime Situational Awareness (GMSA). GMSA works with the 
Office of Global Maritime Intelligence Integration in developing the 
national maritime picture. The first spiral of Maritime Domain 
Awareness capability arrives in the Central Command and Pacific Command 
in August 2008 with later spirals in the Atlantic and Caribbean.
            Seabasing
    Seabasing represents a critical warfighting capability. It will 
assure access to areas where U.S. military forces are denied basing or 
support facilities. In the near term, our amphibious and prepositioned 
ships (including MPF(F)) are the key ships in the seabase. They provide 
the required lift for the Marine Corps across the range of military 
operations. These ships and Marines, and the defensive and strike 
capabilities of our surface combatants and aircraft, provide 
operational maneuver and assured access for the force while 
significantly reducing our footprint ashore.
    The Navy is exploring innovative operational concepts combining 
seabasing with adaptive force packaging that will further support 
national security policy and the Combatant Commanders' objectives 
worldwide. Our 30-Year Shipbuilding Plan provides for seabasing that 
covers the spectrum of warfare from Joint Forcible Entry to persistent 
and cooperative Theater Security Cooperation.
    Future Joint Sea Basing requirements are still being defined but 
will be significantly greater than today's Navy and Marine Corps 
warfighting capabilities. The next generation long range heavy lift 
aircraft, joint logistics support system, intra-theater lift and sea 
connectors will provide these future capabilities.
            Shore Installations
    Our shore installations are extensions of our warfighting 
capabilities and among our most complex systems. Our installations must 
be ready to deliver scalable, agile, and adaptive capabilities to meet 
the requirements of our Fleet, Sailors, and families. We must reverse 
our historical trend of underinvestment in our shore establishment. I 
will leverage and expand upon the successes of our Navy Ashore Vision 
2030 and enhance the linkage between our installations, our 
warfighters, mission accomplishment, and quality of service.
    In the past, we accepted significant risk in our shore 
establishment to adequately fund Fleet readiness. As a result, the 
condition, capability, and current and future readiness of our shore 
installations degraded to an unacceptable level by industry standards. 
I directed the implementation of a systematic and consistent approach 
to assess the material condition of our shore establishments and 
develop a comprehensive investment strategy to arrest and reverse the 
decline of our shore establishment.
    We will take advantage of every opportunity to leverage the joint 
capabilities we share with other Services and the capabilities of the 
supporting communities where we work and live. The power of this 
leverage is highlighted in our new Public-Private Venture Bachelor 
Quarters at San Diego and Norfolk. With the authorities granted by 
Congress and very progressive private partners, we provide our Sailors 
the best housing I have seen during my naval career. These quarters 
will have a dramatic impact on Sailors' decisions to reenlist.
    We owe our Sailors, their families and our civilian workforce, who 
selflessly serve our Nation, world-class facilities and services to 
enhance their productivity and effectiveness and to motivate them to 
remain in the Navy. The decline in the shore infrastructure must be 
reversed by a prudent review of current capacity and a forward leaning 
investment strategy that defines our shore footprint for the 
foreseeable future. The shore establishment is a critical system for 
the Navy and provides the foundation for our training, manning, and 
equipping. It is imperative we invest and sustain our shore 
establishment at the right level to ensure a ready, mobile, and capable 
Navy.
            Depot Level Maintenance
    The increased OPTEMPO of our ships and aircraft in combat 
operations elevates the importance of performing timely depot level 
maintenance. Depot level maintenance ensures continued readiness and 
the safety of our men and women operating our ships and aircraft. 
Adequate funding for depot level maintenance ensures we do not incur 
unnecessary risk by extending our ships and aircraft well past their 
periodicity of maintenance. In addition to the challenges of 
maintaining our ships and aircraft, the capacity of the industrial base 
remains challenging. Consistent, long term agreements for the efficient 
use of shipyards are necessary to keep our ships and aircraft in the 
highest states of readiness.
            United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our armed forces. It directly supports our National 
Security Strategy. I believe strongly that the Convention furthers our 
national security interests. Our maritime security efforts necessitate 
that we become a party to the Law of the Sea Convention, the bedrock 
legal instrument in the maritime domain, to which 154 nations are 
party. Our current non-party status constrains our efforts to develop 
enduring maritime partnerships. It inhibits our efforts to expand the 
Proliferation Security Initiative and elevates the level of risk for 
our Sailors as they undertake operations to preserve navigation rights 
and freedoms, particularly in areas such as the Strait of Hormuz and 
Arabian Gulf, and the East and South China Seas. Accession to the Law 
of the Sea Convention is a priority for our Navy.
Developing and Supporting Our Sailors and Navy Civilians
    Our talented and dedicated Sailors and Navy civilians are 
absolutely essential to our maritime dominance. Attracting, recruiting, 
and retaining in a competitive workplace is increasingly more 
expensive. We must devote adequate resources and shape our policies to 
ensure our people are personally and professionally fulfilled in their 
service to our nation. We have identified a steady-state force level of 
322,000 AC/68,000 RC end strength as the optimum target for our 
projected force structure. It is critical that future funding sustains 
this level.
    Recruiting, developing, and retaining diverse and highly capable 
men and women are imperatives. The Navy must address the changing 
national demographic to remain competitive in today's employment 
market. Only three out of ten high school graduates meet the minimum 
criteria for military service. The propensity to serve is declining 
among youth and more often influencers of these youth, such as parents 
and teachers, are advising against military service.
    ``Millennials'' are the generation of youth currently entering the 
workplace and they comprise 43 percent of our Navy. Born into a 
globalized world saturated with information and technology, Millennials 
are more accomplished for their age than previous generations. They are 
a technology-savvy and cyber-connected group who may find the 
military's hierarchical command and control structure contradictory to 
the flat social networks they are used to navigating. The different 
paradigm under which this generation views the world and the workplace 
has implications for how the Navy attracts, recruits, and retains top 
talent. Additionally, to better meet the needs of the U.S. Marine 
Corps, we must increase the through-put at the U.S. Naval Academy. I 
urge your support of our legislative proposal to increase the number of 
Midshipmen at the Naval Academy.
    The Strategy for Our People ensures we have the best and brightest 
on our team. The strategy outlines six goals for achieving a total Navy 
force of Sailors and civilians that is the right size and possesses the 
right skills to best meet the needs of the Navy. These goals are: 
capability-driven manpower, a competency-based workforce, effective 
total force, diversity, being competitive in the marketplace, and being 
agile, effective, and cost-efficient. Many of the efforts currently 
underway in support of the strategy are discussed in further detail 
below.
            Recruiting Initiatives
    The Navy Recruiting Command is relentless in its pursuit of 
attracting the best young men and women in America to serve in our 
Navy. Recruiting priorities are currently focused on attracting 
personnel for the Naval Special Warfare/Naval Special Operations, 
nuclear power, medical, and chaplain communities. Recruiting Command is 
constantly searching for new ways to recruit America's talent. For 
example, the Medical Leads Assistance Program employs Navy officers as 
ambassadors for generating interest in Navy Medicine. In the NSW and 
Naval Special Operations communities, we provide mentors for recruits 
before enlistment and during training with the two-fold goal of 
improving recruiting results and ensuring applicant success at Recruit 
Training Center (RTC) and Basic Underwater Demolition/SEAL training 
(BUD/S).
    To recruit nuclear-trained officers and chaplains, we encourage our 
personnel to share their story with the American public. Through visits 
to college campuses and career fairs, nuclear-trained officers share 
their experiences of operating nuclear reactors on board carriers and 
submarines. These visits have improved short-term Nuclear Propulsion 
Officer Candidate recruiting and our officers will continue to 
cultivate personal relationships with faculty and university 
representatives to ensure long-term program health. Through the Reserve 
Officer Goals Enhance Recruitment (ROGER) program, Reserve chaplains 
use their network of ministerial relationships to share their 
experiences as Navy chaplains and provide information on how to become 
active or Reserve chaplain candidates.
    Over the past five years, Navy Reserve Junior Officer recruitment 
has declined. To encourage young officers to stay Navy, we authorized a 
mobilization deferment policy for officers who affiliate with the Navy 
Reserve within the first year after leaving active duty. Combined with 
a $10,000 affiliation bonus, we have had some success in improving the 
recruitment of Reserve officers, but this market remains a challenge. 
We established a Reserve Retention and Recruiting Working Group to 
identify near-term and long-term solutions that will achieve 
sustainable success.
            Development Initiatives
    Our people deserve personally and professionally fulfilling careers 
that provide continuous opportunities for development. We offer 
multiple programs and we partner with outside organizations so that 
Sailors and Navy civilians can pursue job-relevant training, continuing 
education, and personal enrichment. One such program is a pilot called 
``Accelerate to Excellence.'' This program provides enlisted recruits 
in specific ratings the opportunity to earn an Associate's Degree at a 
community college while undergoing specialized training after boot 
camp.
    The Navy also provides developmental opportunities for officers and 
enlisted personnel through Professional Military Education (PME). PME 
is designed to prepare leaders for challenges at the tactical, 
operational, and strategic levels of war. The PME continuum integrates 
advanced education, Navy-specific PME, Joint PME (JPME) and leadership 
development in a holistic manner. The competencies, professional 
knowledge, and critical thinking skills Sailors obtain from PME prepare 
them for leadership and the effective execution of naval missions. PME 
graduates are 21st century leaders who possess the capacity to think 
through uncertainty; develop innovative concepts, capabilities, and 
strategies; fully exploit advanced technologies, systems, and 
platforms; understand cultural/regional issues; and conduct operations 
as part of the Joint force.
    Enrollment in JPME courses is up: JPME Phase I in-residence 
enrollment is up 5 percent; JPME Phase I non-residence enrollment is up 
15 percent; JPME Phase II enrollment is up 50 percent. Congressional 
support to allow Phase II JPME to be taught in a non-residency status 
would enable Sailors to pursue professional development while 
continuing their current assignments.
    In addition to JPME courses, the Navy supports Joint training 
through the Navy Continuous Training Environment (NCTE). NCTE is a 
distributed and simulated Joint and coalition training environment that 
replicates real-life operations. NCTE integrates into the Joint 
National Training Capability (JNTC) training architecture and satisfies 
COCOM requirements at the operational and tactical level.
            Retention Initiatives
    As the Navy approaches a steady-state force level of 322,000 AC/
68,000 RC end strength, attracting and retaining Sailors with the right 
skills is critical. In fiscal year 2008, the goal is to shift our focus 
beyond numbers to ensure we have the right skill sets in the right 
billets at the right time. This approach increases opportunities for 
advancement and promotion by assigning personnel to positions that 
utilize and enhance their talents, and emphasizes continued 
professional growth and development in stages that align to career 
milestones.
    The Navy is also addressing retention through Active Component to 
Reserve Component (AC2RC) transition. This program is changing the 
existing paradigm under which a Sailor leaves the Navy at the end of 
their obligated service and is instead promoting service in the Reserve 
Component as an alternative to complete detachment. The Perform to 
Serve (PTS) program screens Zone A Sailors, who are at the end of a 
four to six year enlistment for reenlistment within their rating or for 
rating conversion. The Manpower, Personnel, Training, and Education 
(MPTE) enterprise is adding RC affiliation to Sailors' PTS options at 
the end of Zone A enlistment. Additionally, RC affiliation will become 
increasingly seamless as we shift responsibility from Navy Recruiting 
Command to Navy Personnel Command.
            Taking Care of Families
    When a Sailor or civilian joins the Navy team our commitment 
extends to their family. Mission success depends upon the individual 
readiness of our people and on the preparedness of their families. 
Supporting Navy families is critical to mission success.
    Keeping families ready and prepared alleviates some of the stress 
associated with deployments. Our continued commitment to programs and 
resources that maximize family readiness remains high. We continue to 
improve and expand child care programs and centers. Crisis management 
and response procedures coupled with enhanced ombudsman programs 
demonstrate our commitment to give deployed Sailors confidence that 
their families are in good hands.
    In 2007, Navy programs cared for 45,780 children ages six months to 
12 years and served over 70,000 youth, ages 13 to 18, in 124 child 
development centers, 103 youth centers, and 3,115 on and off-base 
licensed child development homes. In response to the needs of Navy 
families, we have launched an aggressive child care expansion plan that 
adds 4,000 child care spaces within the next 18 months and reduces 
waiting lists in most places below the current six-month average.
    At the end of fiscal year 2007, we successfully privatized 95 
percent of the continental U.S. (CONUS) and Hawaii family housing. We 
aggressively monitor the ratification of Navy housing residents and our 
Public Private Venture (PPV) efforts are clearly resulting in 
continuous improvement in the housing and services provided to our 
Sailors and their families. The ability of the private partner to 
renovate and replace family housing units at a much quicker pace than 
MILCON has positively impacted the quality of Navy housing.
    Taking care of our families includes proactively reducing financial 
stresses placed on Sailors and families. We are focused on family 
counseling in response to increased OPTEMPO as a result of OEF/OIF. We 
provided one-on-one job search coaching services to 21,730 Navy family 
members and made 10,830 military spouse employment ready referrals to 
employers. Fleet and Family Support Center (FFSC) financial educators 
provided more than 186,000 Sailors and family members seminars/
workshops focusing on financial fitness, increased our financial 
counseling services to military spouses by more than 50 percent, and 
launched a robust campaign to encourage wealth building and debt 
reduction.
            Health Care
    We have some of the best medical professionals in the world serving 
in the Navy. Health care options the Navy offers its people are 
valuable recruitment and retention incentives. Still, health care costs 
are rising faster than inflation. Operations in OEF and OIF increased 
the demand for medical services in combat and casualty care. Part of 
this demand is straight forward: our wounded need traditional medical 
care and rehabilitation services. The other part of this demand is more 
complex and addresses the increased occurrences of mental health 
disorders resulting from combat operations. Medical professionals are 
rapidly learning more about assessing and treating the effects of 
mental health issues associated with war such as post traumatic stress 
disorder (PTSD) and traumatic brain injury. We are implementing these 
lessons to more effectively treat these Sailors.
            Wounded Warrior/Safe Harbor Program
    Care for combat wounded does not end at the Military Treatment 
Facility (MTF). The Navy has established the Safe Harbor Program to 
ensure seamless transition for the seriously wounded from arrival at a 
CONUS MTF to subsequent rehabilitation and recovery through DOD or the 
Department of Veterans Affairs (VA). Since its inception, 162 Sailors 
including 143 Active and 19 Reserve members have joined the program and 
are being actively tracked and monitored, including 126 personnel 
severely injured in OEF/OIF. Senior medical staffs personally visit and 
assist seriously injured Sailors and their families to ensure their 
needs are being met.

                               CONCLUSION

    We are truly a ready, agile, and global Navy. To ensure that we 
maintain our naval dominance, we must achieve the optimal balance of 
building the Navy of tomorrow as we remain engaged and ready to fight 
today while fully supporting our people.
    I will continue to work closely with the Secretary of the Navy, the 
Commandant of the Marine Corps, Congress, and industry to build the 
levels of trust and collaboration necessary to resource, acquire, and 
effectively manage a Fleet of the right size and balance for our 
nation.
    Despite the challenges, I am very optimistic about our future and 
the many opportunities ahead. The dedication of our Sailors and Navy 
civilians is inspiring. They are truly making a difference and it is an 
honor to serve alongside them. I thank you for your continued support 
and commitment to our Navy and for all you do to make the United States 

Navy a force for good today and in the future.

                     ANNEX I--2007--YEAR IN REVIEW

Operations
    In 2007, the U.S. Navy deployed the USS ENTERPRISE, DWIGHT D. 
EISENHOWER, JOHN C. STENNIS, RONALD REAGAN, and NIMITZ Carrier Strike 
Groups (CSGs) as well as the USS IWO JIMA, BOXER, BATAAN, BONHOMME 
RICHARD, and KEARSARGE Expeditionary Strike Groups (ESGs) with their 
embarked Marine Expeditionary Units (MEUs). In January 2007, when the 
President called for the surge of two carriers to the Central Command 
(CENTCOM) area of responsibility, we responded. Within weeks we 
positioned two CSGs in the North Arabian Sea and deployed a third CSG 
to fulfill our Western Pacific commitments while our forward deployed 
carrier in Japan completed a maintenance availability. Throughout 2007, 
our globally postured seapower kept the homeland and our citizens 
secure from direct attack and advanced our interests around the world.
    Our expeditionary forces gave our leaders options for responding 
not only to emerging threats but to natural disasters as well. Our 
forward-deployed posture enabled the Navy and Marine Corps to rapidly 
respond and provide aid following three natural disasters last year. 
USNS GYSGT FRED W. STOCKHAM provided relief to the victims of the 
tsunami that struck the Solomon Islands in April 2007. In September 
2007, USS WASP and USS SAMUEL B. ROBERTS participated in Central 
American relief efforts following Hurricane Felix. USS KERSARGE/22nd 
MEU and USS TARAWA/11th MEU responded to the cyclone that devastated 
Bangladesh in November 2007.
    In 2007 we contributed to the Joint Force with expert planning and 
execution across the spectrum of operations. When the Air Force 
grounded its F-15 aircraft, Navy F/A-18 aircraft from USS ENTERPRISE 
assumed Air Force missions in Afghanistan. This flexibility and 
continuity allowed our NATO forces and the International Security 
Assistance Force to continue their missions without degradation in air 
cover.
    Our Navy also contributed high-demand, highly-qualified 
expeditionary units to OEF and OIF through accelerated deployments of 
SEABEES, Explosive Ordinance Disposal teams, and SEALs. The Naval 
Expeditionary Combat Command (NECC), established in 2006, has already 
deployed RIVRON ONE (March 07) and RIVRON TWO (October 07) in support 
of OIF. Our riverine capability is growing; RIVRON THREE has been 
organized, trained and equipped, and will deploy in the spring of 2008. 
NECC's mission enables our Navy to better balance its force across the 
blue, green, and brown-water environments, ensuring effective Navy 
expeditionary warfighting, closing capability gaps, and aligning seams 
in global maritime security operations. Combatant Commander (COCOM) 
demand for NECC capabilities remains high. New and evolving 
expeditionary capabilities are becoming operational and supporting 
ongoing operations.
    Last year the Navy deployed Coast Guard Law Enforcement Detachments 
(LEDETs) on board our ships and together we disrupted illegal 
trafficking of more than 188,907 pounds of cocaine. This accounted for 
more than 53 percent of the total cocaine removed by the Coast Guard in 
fiscal year 2007 (a record year at 355,755 total pounds). These LEDETs 
also detained 68 suspected smugglers, seized five vessels, and sunk 13 
vessels engaged in illicit traffic.
    Our Navy and Coast Guard also worked together in CENTCOM maritime 
security operations. In the Northern Arabian Gulf we are protecting 
Iraqi oil platforms, maintaining Iraqi territorial sea integrity, 
assisting in local policing of the offshore waters, and training Iraqi 
naval forces. We are working together in OIF, conducting Maritime 
Interception Operations, high-value asset escorts, and coastal security 
patrols with coalition and Iraqi naval forces. LEDETs deployed aboard 
Navy ships have trained hundreds of Iraqi navy and marine personnel in 
security and law enforcement, boarding procedures, self-defense, small 
boat tactics, and small boat maintenance. The Navy's African 
Partnership Station (APS) ship, USS FORT MCHENRY, has coordinated 
training sessions with the Coast Guard and has embarked Coast Guard 
Auxiliary members as interpreters for country visits.
    In 2007, USNS COMFORT and USS PELELIU conducted two proactive 
humanitarian assistance missions in South America and the Western 
Pacific, respectively. The results were extraordinary. Navy personnel 
embarked on COMFORT and PELELIU, together with Joint, NGO, and foreign 
medical officers, visited 20 countries; treated more than 130,000 
medical patients, 29,000 dental patients, and 20,000 animals; conducted 
more than 1,400 surgeries; completed more than 60 engineering 
endeavors; and spent over 3,000 man-days in community relations 
projects. These missions of support, compassion, and commitment are 
enduring and they are codified in our maritime strategy.
    We continue to meet COCOM Theater Security Cooperation (TSC) 
objectives with well-trained, combat ready forces. We are developing 
the concept of Global Fleet Stations (GFS), which will allow the Navy 
to coordinate and employ adaptive force packages within a regional area 
of interest. The pilot GFS, carried out by the High Speed Vessel SWIFT 
and closely coordinated with the State Department, conducted bilateral 
engagement activities in seven Latin American nations. This effort 
enhanced cooperative partnerships with regional maritime services and 
improved operational readiness for the participating partner nations. 
We conducted bi-lateral and multi-lateral exercises with navies in the 
Gulf of Guinea, the Mediterranean Sea, the Arabian Gulf, and waters in 
Latin America, and the Atlantic, Pacific, and Indian Oceans. The most 
notable exercises include MALABAR 07-2 with Indian, Japanese, 
Australian, and Singaporean navies; FRUKUS with French, Russian, and 
British navies; and PHOENIX EXPRESS with European and North African 
navies. Meanwhile, Exercise VALIANT SHIELD 2007 brought together three 
CSGs, six submarines, and many Navy and Joint capabilities to validate 
our effectiveness in multi-dimensional, full-spectrum, joint warfare. 
We remain the most dominant and influential Navy, globally and across 
all maritime missions.
    Our engagement with other nations last year included cooperation 
through our foreign military sales (FMS) program. FMS is an important 
aspect of our security cooperation program which improves 
interoperability, military-to-military relations, and global security. 
The Navy's FMS program builds partner nation maritime security 
capabilities through transfers of ships, weapon systems, communication 
equipment, and associated training programs. The sale of USS TRENTON to 
India, USS HERON and USS PELICAN to Greece, and USS CARDINAL and USS 
RAVEN to Egypt are recent examples of our FMS program. Other countries 
remain interested in our mine sweepers, our frigates, and newer 
technologies coming online in the near future. We pursue these 
opportunities but never at the expense of our own needs.
Manpower
    The men and women of the United States Navy are the core of every 
successful operation we conduct. I am impressed and inspired by our 
Sailors' ability to perform exceptionally well under all circumstances. 
Our Sailors are engaged globally: in special operations and combat 
support in Iraq; in flying combat sorties in support of OEF and OIF; in 
providing security protection for oil platforms; in conducting civil 
affairs missions; in participating in TSC activities in the Horn of 
Africa; and in ships and submarines deployed worldwide. Additionally, 
over 17,000 individual augmentees (IAs) were trained and deployed to 
support OEF and OIF missions.
    Last year we met recruiting and retention goals and exceeded our 
active enlisted accession goal for the ninth consecutive year. We 
achieved 100 percent of our reserve enlisted accession goal. We met 
97.9 percent of our active officer goal, with shortfalls residing 
primarily in medical and chaplain accessions. New and enhanced special 
and incentive pay authorities enacted in both the fiscal year 2006 and 
fiscal year 2007 National Defense Authorization Acts helped our Navy 
attain its goals in key mission areas and improve performance in 
others. Our Navy continues to aggressively recruit the best talent our 
nation has to offer. This is a demanding task considering an 
increasingly challenging recruiting environment.
    Our AC and RC remain aligned through Active Reserve Integration 
(ARI). As demonstrated through force generation, deployment and 
redeployment, it is clear that RC forces meet two significant needs of 
our Navy. First, reservists deliver capability and capacity in support 
of major combat operations, and second, reservists provide operational 
augmentation to meet routine military missions. To use the full 
potential of our RC effectively, we continue to capitalize on RC 
involvement in operational support missions. This builds on ARI 
successes to date and will lead to the institutionalization of our 
operational Navy Reserve. We continue to monitor AC strength reductions 
and evaluate the impact of our force shaping programs with respect to 
the RC.
    Our Navy continues to pursue diversity. We are in the final phase 
of a three-phase diversity campaign. In Phase III, we hold senior Navy 
leadership personally accountable for ensuring that we build the most 
diverse organization possible. We also instituted a mentoring regimen 
focused on developing and retaining top talent from all demographics.
Equipment
    Our Navy's mission in projecting power and presence overseas 
depends upon a modern, technologically advanced Fleet. The quality, 
condition, and capabilities of our ships and aircraft are critical.
    In 2007, we christened six ships: the aircraft carrier GEORGE H. W. 
BUSH, the guided missile destroyers STERETT and TRUXTUN, the dry cargo/
ammunition ships ALAN SHEPARD and RICHARD E. BYRD, and the fast attack 
submarine NORTH CAROLINA. We also commissioned four ships: the guided 
missile destroyers KIDD and GRIDLEY, the amphibious transport dock NEW 
ORLEANS, and the fast attack submarine HAWAII.
    Despite these accomplishments, decommissionings resulted in a net 
gain of only two ships in 2007. We reluctantly, but prudently, 
cancelled construction of the third and fourth LCS due to challenges in 
controlling cost and schedule. The rate at which we are growing our 
Fleet will challenge our ability to fulfill the core capabilities of 
the maritime strategy. I am committed to taking the steps necessary to 
build the future Fleet and re-establish the vital trust needed among 
the Department, Congress, and industry to get our Navy above a 313-ship 
floor.
    Building the future Fleet is also about aircraft. In 2007, we 
rolled out the first E-2D Advanced Hawkeye. Despite several successes 
in aircraft delivery, the high demand for air assets in OEF and OIF 
expended a significant portion of the limited service life remaining on 
our EA-6B electronic attack aircraft, MH-60 multi-mission helicopters, 
F/A-18 C/D strike-fighter aircraft, and P-3 maritime patrol aircraft. 
The accelerated depletion of service life could translate into aircraft 
shortfalls if the expended aircraft are not replaced.
     annex ii--programs and initiatives to achieve navy priorities
Surface Warfare
            LCS
    Designed to be fast and agile, LCS will be a networked surface 
combatant with capabilities optimized to assure naval and Joint force 
access into contested littoral regions. No other ship can deliver what 
LCS offers in terms of flexibility. LCS will operate with focused-
mission packages that deploy manned and unmanned vehicles to execute a 
variety of missions, including littoral anti-submarine warfare (ASW), 
surface warfare (SUW) and mine countermeasures (MCM). LCS will employ a 
Blue-Gold multi-crewing concept for the early ships. The crews will be 
at a ``trained to qualify'' level before reporting to the ship, 
reducing qualification time compared to other ships.
    The LCS program has experienced significant cost overruns for the 
lead ships in the class. After a series of increases in contractor-
estimated costs of completion, the Navy and industry initiated a 
thorough analysis of the program. The Navy revalidated the warfighting 
requirement and developed a restructured program plan for LCS that 
improves management oversight, implements more strict cost controls, 
incorporates selective contract restructuring, and ensures delivery 
within a realistic schedule.
    Construction progress on LCS #1 and LCS #2 is on track to support 
delivery of these ships in 2008. By exercising active oversight and 
strict cost controls in the early years, the Navy will ensure delivery 
of LCS to the Fleet over the long term. Our fiscal year 2009 request 
for $1.47 billion will continue R&D and construction of LCS and 
associated modules.
            DDG 1000
    DDG 1000 introduces valuable technological advances that will 
provide essential risk reduction. This multi-mission surface combatant 
will provide independent forward presence and deterrence and it will 
operate as an integral part of joint and combined expeditionary forces. 
DDG 1000 will capitalize on reduced signatures and enhanced 
survivability to maintain persistent presence in the littorals. Our 
fiscal year 2009 request for DDG 1000 is for $3.0 billion in 
shipbuilding and research funds.
            CG(X)
    CG(X) will be a highly capable major surface combatant tailored for 
joint air and missile defense and joint air control operations. CG(X) 
will provide airspace dominance and protection to Joint forces 
operating in the Seabase. CG(X) will replace the CG-47 Aegis class and 
improve the Fleet's air and missile defense capabilities against 
advancing threats, particularly ballistic missiles. IOC will be in 
2019. $370 million in research and development for fiscal year 2009 
supports CG(X) development to include radar development. The Navy is 
conducting a rigorous analysis to examine alternatives for CG(X), 
understanding that the National Defense Authorization Act requirement 
for nuclear power applies to CG(X).
            Aegis Ballistic Missile Defense (BMD)
    Aegis BMD is the seabase component of the Missile Defense Agency's 
(MDA) Ballistic Missile Defense System (BMDS). It enables surface 
combatants to support ground-based sensors and provides a capability to 
intercept short and medium-range ballistic missiles with ship-based 
interceptors (SM-3 missiles). The Gap Filler Sea-Based Terminal Program 
provides the ability to engage a limited set of short range ballistic 
missiles with modified SM-2 Block IV missiles from Aegis BMD capable 
ships. While development and procurement funding is covered under the 
MDA budget, the Navy has committed $16.5 million in fiscal year 2009 
for operations and sustainment of Aegis BMD systems.
    Since 2002, Navy and MDA have executed twelve successful intercepts 
in fourteen flight tests (11 Exo-atmospheric SM-3 engagements and one 
Endo-atmospheric SM-2 Block IV engagement). Operational ships have 
capability today with Aegis BMD program and components installed on 17 
ships, including three cruisers (engagement capable) and 14 DDGs (nine 
engagement capable and five Long Range Surveillance and Track (LRS&T) 
capable). Additional installations are planned for 2008 to provide a 
total of 18 engagement-capable ships. In addition to these hardkill 
capabilities, the Navy is focused on delivering a robust capability 
against ballistic missiles across the enemy kill chain to include 
softkill and counters to Intelligence, Surveillance, and Reconnaissance 
(ISR), detection, cueing, and tracking prior to the launch of anti-ship 
ballistic missiles. The development of future capability will be 
informed through robust modeling and simulation to evaluate trade-offs 
among capabilities across the kill chain as well as the BMD capacity 
required to prevail in various geographic areas of concern.
            Aegis Cruiser Modernization
    AEGIS cruiser modernization is vital to achieving the 313 ship 
force structure. A large portion of total surface force modernization 
(including industrial base stability) is resident in this program, 
which includes both Combat System and Hull, Mechanical, and Engineering 
(HM&E) upgrades. $426.5 million in fiscal year 2009 supports this 
program.
            DDG 51 Modernization
    The DDG 51 modernization program is a comprehensive 62 ship program 
that will upgrade hull, mechanical, electrical, and combat systems. 
These upgrades support reductions in manpower and operating costs, 
achieve 35+ year service life, and allow the class to pace the 
projected threat well into the 21st century. Our fiscal year 2009 
budget request includes $325.7 million for this effort.
            Surface Ship Torpedo Defense (SSTD)
    Torpedo defense must keep pace with the increasing torpedo threat 
to our ships. The AN/SLQ-25A ``Nixie'' is the Navy's fielded SSTD 
system. We will counter the future torpedo threat with an Anti-Torpedo 
Torpedo (ATT) System now in development. Increment I will deliver 
improved Torpedo Detection, Classification, and Localization (TDCL) and 
ATT salvo capability to cruisers and destroyers. Increment II will 
expand this capability beyond surface combatants. Increment I IOC is 
planned for fiscal year 2017. We are currently assessing these plans to 
deliver Increment II. The fiscal year 2009 budget provides $59.3 
million to support this program.
            Standard Missile-6 (SM-6)
    The Navy's next-generation Extended Range, Anti-Air Warfare 
interceptor is the SM-6. It will be used by legacy and future ships, 
and with its active-seeker technology it will defeat anticipated 
theater air and missile threats well into the next decade. The fiscal 
year 2009 budget of $345.4 million in research, development, and 
procurement will support an IOC in fiscal year 2010.
            Long Range Land Attack Projectile (LRLAP)
    Long Range Land Attack Projectile (LRLAP) is the primary munition 
for the DDG 1000 Advanced Gun System (AGS). AGS and LRLAP will provide 
Naval Surface Fire Support (NSFS) to forces ashore during all phases of 
the land battle. All program flight test objectives have been met 
including demonstration of threshold range (63nm), in-flight guidance, 
gun launch survival, and repeatability. $97 million in fiscal year 2009 
supports continued development.
            Harpoon Block III Missile
    Harpoon Block III meets requirements for an all weather, precision, 
ship and air launched, anti-ship missile capability. $68 million in 
fiscal year 2009 supports development of an upgrade to existing Harpoon 
Block IC missiles that will add data link and GPS capability to improve 
accuracy and target selectivity.
            Extended Range Munition (ERM)
    The Extended Range Munition (ERM) is a five-inch, rocket-assisted, 
guided projectile providing range and accuracy superior to that of 
conventional ammunition. The program includes modifications to existing 
five-inch guns and fire-control systems. The projectile uses a coupled 
GPS/INS guidance system and unitary warhead with a height-of-burst 
fuse. A 20-round reliability demonstration in September 2008 is planned 
prior to land-based flight and qualification testing. $39 million in 
fiscal year 2009 supports this program.
            Cooperative Engagement Capability (CEC)
    CEC is an advanced sensor netting system enabling real-time 
exchange of fire-control quality data between battle force units. CEC 
provides the integrated, precision air defense picture required to 
counter the increased agility, speed, maneuverability, and advanced 
design of cruise missiles, manned aircraft, and (in the future) 
tactical ballistic missiles. $123.3 million in fiscal year 2009 
supports this program.
    CEC's acquisition strategy implements open architecture based 
hardware with re-hosted existing software. A critical element is the 
P3I hardware that reduces cost, weight, cooling, and power 
requirements. The Integrated Architecture Behavior Model (IABM) will be 
implemented as a host combat system software upgrade. IABM will replace 
the cooperative engagement processor functionality and enable joint 
interoperability with common track management across the Services.
            Tomahawk/Tactical Tomahawk (TACTOM)
    TACTOM provides precision, all-weather, and deep-strike capability. 
TACTOM provides more flexibility and responsiveness at a significantly 
reduced life cycle cost compared to previous versions. Additionally, it 
includes flex-targeting, in-flight retargeting, and two-way 
communications. Tomahawk Block IV is in a full-rate, multi-year 
procurement for fiscal year 2004-2008. The fiscal year 2009 budget 
provides $357 million which will support a new sole-source firm fixed-
price contract to continue TACTOM development and procurement.
Submarine Warfare
            VIRGINIA Class Fast Attack Nuclear Submarine (SSN)
    We must maintain an SSN force structure to meet current operational 
requirements and face potential future threats. The VIRGINIA class 
emphasizes affordability and optimizes performance for undersea 
superiority in littoral and open ocean missions.
    The fiscal year 2009 budget requests $3.6 billion for submarine 
construction, technical insertions, and cost reduction developments. 
Navy has worked closely with industry to reduce the cost per submarine 
and increase the build rate to two submarines per year starting in 
fiscal year 2011. The Multi-Year Procurement (MYP) authority received 
in the fiscal year 2008 NDAA supports an fiscal year 2009-2013 MYP 
contract that will mitigate future force level deficiencies and achieve 
cost reduction goals through Economic Order Quantity savings and better 
distributed overhead costs.
            ASW Programs
    The Navy continues to pursue research and development of 
Distributed Netted Sensors (DNS); these are rapidly deployable, 
autonomous sensors that provide the cueing and detection of adversary 
submarines. Examples of technologies included in our fiscal year 2009 
request of $46 million are:
  --Reliable Acoustic Path, Vertical Line Array (RAP VLA).--A passive-
        only distributed system exploiting the deep water propagation 
        phenomena. In essence, a towed array vertically suspended in 
        the water column.
  --Deep Water Active Distributed System (DWADS).--An active sonar 
        distributed system optimized for use in deep water.
  --Deployable Autonomous Distributed System (DADS).--A shallow water 
        array, using both acoustic and non-acoustic sensors to detect 
        passing submarines. DADS will test at sea in fiscal year 2008.
  --Littoral ASW Multi-static Project (LAMP).--A shallow water 
        distributed buoy system employing the advanced principles of 
        multi-static (many receivers, one/few active sources) sonar 
        propagation.
    Further developing the Undersea Warfare Decision Support System 
(USW-DSS) will leverage existing data-links, networks, and sensor data 
from air, surface, and sub-surface platforms and integrate them into a 
common ASW operating picture. This networked approach will allow our 
forces to plan, conduct, and coordinate ASW operations in near real 
time. We are requesting $19.75 million in fiscal year 2009 for USW-DSS.
    To effectively attack the threat, the Navy has continued a robust 
weapons development investment plan that includes $127 million 
requested in the fiscal year 2009 for capabilities, such as:
  --High-Altitude ASW Weapons Concept (HAAWC).--Since current maritime 
        patrol aircraft must descend to low altitudes to deliver ASW 
        weapons on target, they often lose communications with 
        sonobuoys or distributed sensor fields. HAAWC will allow the 
        aircraft to remain at high altitude and conduct effective 
        attacks while simultaneously enabling the crew to maintain and 
        exploit the full sensor field. This capability supports the P-
        8A Multi-mission Maritime Aircraft.
  --Common Very Lightweight Torpedo (CVLWT).--The Navy is developing a 
        6.75-inch torpedo suitable for use in surface ship and 
        submarine anti-torpedo torpedo defense.
    Platform Sensor Improvements.--To counter the threat of quieter, 
modern diesel-electric submarines, we are continuing to work on both 
towed array and hull-mounted sonar systems. Our $512 million request in 
fiscal year 2009 includes the following:
  --TB-33 thin-line towed array upgrades to forward-deployed SSNs 
        provide near-term improvement in submarine towed array 
        reliability over existing TB-29 arrays. TB-33 upgrades are 
        being accelerated to Guam-based SSNs.
  --Continued development of twin-line thin-line (TLTL) and vector-
        sensor towed arrays (VSTA) are under development for mid to 
        far-term capability gaps. TLTL enables longer detection ranges/
        contact holding times and it improves localization and 
        classification of contacts. VSTA is an Office of Naval Research 
        project that would provide TLTL capability on a single array 
        while still obviating the bearing ambiguity issue inherent in 
        traditional single line arrays.
            21'' Mission Reconfigurable Unmanned Underwater Vehicle 
                    System (MRUUVS)
    21'' MRUUVS is a submarine launched and recovered, reconfigurable 
UUV system that will provide robust, clandestine minefield 
reconnaissance and general ISR in denied or inaccessible areas. The 
MRUUVS program has been restructured, moving IOC from fiscal year 2013 
to 2016, when clandestine mine countermeasure capability from LOS 
ANGLES class submarines will be delivered. ISR capability and VIRGINIA 
class host compatibility could occur in follow-on increments 
approximately two years after IOC. Fiscal year 2009 funds $30.1 million 
to support the MRUUVS program.
Expeditionary Warfare
            Maritime Prepositioning Force (MPF) (Future)
    MPF(F) provides a scalable, joint-seabased capability for the 
closure, arrival, assembly, and employment of up to a Year-2015-sized 
Marine Expeditionary Brigade force. MPF(F) will support the sustainment 
and reconstitution of forces when required. MPF(F) is envisioned for 
frequent utility in Lesser Contingency Operations, and when coupled 
with Carrier or Expeditionary Strike Groups, MPF(F) will provide the 
nation a rapid response capability in anti-access environments.
    The MPF(F) program was shifted one year to allow the Navy and 
Marine Corps to better define requirements prior to awarding the 
initial Mobile Landing Platform contract. The fiscal year 2009 budget 
provides $42 million in research and development and $348 million in 
advanced procurement for MPF(F) LHA(R).
            LEWIS & CLARK Dry Cargo/Ammunition Ship (T-AKE)
    T-AKE will replace aging combat stores (T-AFS) and ammunition (T-
AE) ships. Operating with an oiler (T-AO), they can substitute as a 
station ship, which would allow us to retire four fast combat support 
ships (AOE 1 Class). $962 million in fiscal year 2009 funds the 11th 
and 12th T-AKE. The lead T-AKE ship was delivered in June 2006 and has 
completed operational evaluation (OPEVAL).
            LPD 17
    LPD 17 functionally replaces LPD 4, LSD 36, LKA 113, and LST 1179 
classes of amphibious ships for embarking, transporting and landing 
elements of a Marine landing force in an assault by helicopters, 
landing craft, and amphibious vehicles. $103 million in the fiscal year 
2009 budget request supports the LPD 17 program.
            Joint High Speed Vessel (JHSV)
    The Joint High Speed Vessel (JHSV) program is an Army and Navy 
joint program to deliver a high-speed, shallow draft surface ship 
capable of rapid transport of medium payloads of cargo and personnel 
within a theater to austere ports without reliance on port 
infrastructure for load/offload. The fiscal year 2009 budget provides 
$175 million to procure the first JHSV vessel.
            Remote Minehunting System (RMS)
    RMS uses a diesel-powered, high-endurance, off-board, semi-
submersible vehicle to tow the Navy's most advanced mine hunting sonar, 
the AN/AQS-20A. The system will be launched, operated, and recovered 
from surface ships. RMS will provide mine reconnaissance, detection, 
classification, localization, and identification of moored and bottom 
mines. $49.86 million in fiscal year 2009 supports this program.
Air Warfare
            CVN 21
    The CVN 21 program is designing the next generation aircraft 
carrier to replace USS ENTERPRISE (CVN 65) and NIMITZ-class aircraft 
carriers. The lead ship has been designated as the USS GERALD R. FORD 
(CVN 78). These ships will provide improved warfighting capability and 
increased quality of life for our Sailors at reduced acquisition and 
life cycle costs. $2.8 billion in shipbuilding funds for fiscal year 
2009 supports acquisition of CVN-78 scheduled for delivery in late 
fiscal year 2015.
            F-35 Joint Strike Fighter (JSF)
    JSF program will develop and field a family of multi-mission strike 
fighter aircraft using mature/demonstrated 21st century technology to 
meet warfighter needs of the Navy, Marine Corps, Air Force, and 
international partners, including the United Kingdom, Italy, 
Netherlands, Denmark, Turkey, Norway, Australia, and Canada (with 
ongoing foreign military sales discussions with Israel, Singapore, and 
Spain). Navy's fiscal year 2009 investment of $3.4 billion includes 
procurement of eight aircraft and continued research and development 
for aircraft and engine development.
            P-8A Multi-mission Maritime Aircraft (MMA)
    The P-8A will replace the P-3C Orion aircraft and will recapitalize 
the Maritime Patrol ASW, Anti-Surface Warfare, and armed ISR 
capabilities that currently reside in P-3 squadrons. The P-8A is the 
only aircraft with this operationally agile capability set. It will 
fulfill COCOM requirements for combat and theater security operations, 
and homeland defense. IOC is planned in fiscal year 2013. $1.1 billion 
in funding is included in the fiscal year 2009 budget.
            EA-18G Growler
    The EA-18G Growler will replace the EA-6B aircraft and provide 
carrier-based Airborne Electronic Attack (AEA). The inventory objective 
of 85 aircraft will support 10 operational carrier air wing squadrons 
and a Fleet Replacement Squadron. IOC will be in fiscal year 2009. $1.8 
billion supports development and procurement of 22 aircraft in fiscal 
year 2009.
            MV-22B Osprey
    MV-22 Osprey is the Marine Corps medium-lift assault support 
aircraft that will replace legacy CH-46Es and CH-53Ds. Current 
operational projections hold CH-46Es in service through fiscal year 
2018, and CH-53Ds through fiscal year 2013. The CH-46Es are playing a 
critical role in the War on Terror, flying more than four times their 
peacetime utilization rate making delivery of the MV-22 more critical. 
The MV-22's improved readiness, survivability, and transformational 
capability (twice the speed, three times the payload, and six times the 
range of the airframes it is replacing) will vastly improve operational 
reach and capability of deployed forces. The aircraft is approved for 
Full Rate Production and entered a Congressionally-approved, Joint, 
five-year, multi-year procurement in fiscal year 2008. The fiscal year 
2009 budget of $2.2 billion procures 30 aircraft. The total requirement 
is 360 MV-22s for the Marines, 48 MV-22s for the Navy, and 50 CV-22s 
for Special Operations Command.
            F/A-18E/F Super Hornet
    The Navy's next generation, multi-mission Strike Fighter provides a 
40 percent increase in combat radius, a 50 percent increase in 
endurance, a 25 percent increase in weapons payload, three times more 
ordnance bring-back, and five times more survivability than F/A-18C 
models. Approximately 65 percent of the total procurement objective has 
been delivered (317 of 493). F/A-18E/F is in full rate production under 
a second five-year multi-year contract (fiscal years 2005-2009). $1.9 
billion in fiscal year 2009 procures 23 aircraft as part of that 
contract.
            F/A-18A/B/C/D Hornet
    The F/A-18 Hornet is naval aviation's principal strike-fighter. It 
serves the U.S. Navy and Marine Corps, as well as the armed forces of 
seven countries. This multi-mission aircraft has maintained its combat 
relevance through improvements and upgrades to weapons, communications, 
navigation, and defensive electronic countermeasure systems. Although 
the F/A-18A/B/C/D are out of production, the existing inventory of 667 
Navy and Marine Corps aircraft will continue to comprise half of the 
carrier strike force until 2013. These aircraft are scheduled to remain 
in the inventory through 2022. $322 million in fiscal year 2009 
supports improvements to the F/A-18 A/B/C/D variants.
            E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye (AHE) program will modernize the current 
E-2C weapons system by replacing its radar and other aircraft system 
components to improve nearly every facet of tactical air operations. 
The modernized weapons system will maintain open ocean capability while 
adding transformational littoral surveillance and Theater Air and 
Missile Defense capabilities against emerging air threats in the high 
clutter, electro-magnetic interference, and jamming environments. AHE 
is one of four pillars of the Naval Integrated Fire Control-Counter Air 
capability. The fiscal year 2009 budget of $1.1 billion procures three 
aircraft and funds continued research and development.
            MH-60R/S Multi-Mission Helicopter
    The MH-60R multi-mission helicopter program will replace the 
surface combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. The MH-60R provides 
forward-deployed capabilities, including mine sweeping, surface warfare 
(SUW), and ASW, to defeat area-denial strategies, which will enhance 
the ability of the Joint force to project and sustain power. Full Rate 
Production was approved in March 2006. $1.2 billion in fiscal year 2009 
procures 31 aircraft.
    The MH-60S supports: Carrier and Expeditionary Strike Groups in 
Combat Logistics, Search and Rescue, Vertical Replenishment, Anti-
Surface Warfare, Airborne Mine Countermeasures, Combat Search and 
Rescue, and Naval Special Warfare mission areas. Armed Helicopter 
capability achieved IOC in fiscal year 2007. The Airborne Mine 
Countermeasures capability will achieve IOC with the AWS-20 Sonar in 
fiscal year 2008. $550 million in fiscal year 2009 procures 18 
aircraft.
            C-40A Clipper
    The C-40A Clipper is a replacement for legacy DC-9/C-9B and C-20G 
aircraft. It provides flexible, time-critical, and intra-theater 
logistical support. It will serve as a connector between strategic 
airlift points of delivery to Carrier Onboard Delivery and Vertical 
Onboard Delivery locations. The inventory objective is 17 aircraft, and 
nine have been purchased. $155 million in fiscal year 2009 procures two 
aircraft.
            CH-53K
    The CH-53K Heavy Lift Replacement (HLR) is the follow on to the 
Marine Corps CH-53E Heavy Lift Helicopter. The CH-53K will more than 
double the CH-53E lift capability under the same environmental 
conditions. The CH-53K's increased capabilities are essential to 
meeting the Marine Expeditionary Brigade of 2015 Ship-to-Objective 
Maneuver vision. Major systems improvements of the new helicopter 
include larger and more capable engines, expanded gross weight 
airframe, better drive train, advanced composite rotor blades, modern 
interoperable cockpit, external and internal cargo handling systems, 
and survivability enhancements. The procurement objective of 156 
aircraft has increased to 200 due to Marine Corps end strength growth 
to 202,000. fiscal year 2009 provides $571 million for research and 
development.
            EPX (EP-3E Replacement)
    EPX will replace the EP-3E as a transformational multi-intelligence 
platform capable of providing strike targeting to warfighters. Fiscal 
year 2009 provides $75 million in research and development to 
recapitalize the EP-3 airborne electronic surveillance aircraft. The 
Navy had originally partnered with Army's Aerial Common Sensor (ACS) 
program on this aircraft until the contract was terminated in fiscal 
year 2006. After conducting further mission analysis, the Navy 
recognized it required significantly higher performance than that of 
the Army ACS program. The Navy developed the EPX program to respond to 
its requirement.
            Broad Area Maritime Surveillance (BAMS)
    BAMS is an unmanned aircraft designed to enhance Maritime Domain 
Awareness. It will be forward deployed, land-based, autonomously 
operated, and unarmed. Along with P-8A, BAMS is integral to the Navy's 
airborne ISR recapitalization strategy. $480 million in research and 
development funding in fiscal year 2009 continues the Navy's commitment 
to provide a persistent multi-sensor (radar, Electro-Optical/Infra Red, 
Electronic Support), maritime intelligence, surveillance, and 
reconnaissance capability with worldwide access.
            Navy Unmanned Combat Air System (UCAS)
    The Navy UCAS will develop and demonstrate low observable (LO), 
unmanned, air vehicle suitability to operate from aircraft carriers in 
support of persistent, penetrating surveillance and strike in high 
threat areas. $276 million in fiscal year 2009 research and development 
funds advance UCAS objectives.
            MQ-8B Fire Scout Vertical Takeoff UAV (VTUAV)
    The Navy's Vertical Takeoff and Landing Tactical UAV (VTUAV) is 
designed to operate from all air capable ships, carry modular mission 
payloads, and operate using the Tactical Control System (TCS) and 
Tactical Common Data Link (TCDL). VTUAV will provide day/night real 
time reconnaissance, surveillance and target acquisition capabilities, 
communications relay, and battlefield management to support the LCS 
core mission areas of ASW, Mine Warfare, and SUW. In May 2007, the 
program successfully completed a Milestone C review and was approved 
for Low Rate Initial Production. IOC moved from the fourth quarter of 
fiscal year 2008 to the first quarter of fiscal year 2009 due to a 
combination of software development delays and the availability of LCS 
to complete Fire Scout OPEVAL on schedule. $65 million in development 
and procurement funding in fiscal year 2009 supports engineering 
manufacturing development, operational testing and achievement of IOC.
            Joint Standoff Weapon (JSOW)
    JSOW is a low-cost, survivable, air-to-ground glide weapon designed 
to attack a variety of targets in day/night and adverse weather 
conditions at ranges up to 63 nautical miles. All variants employ a 
kinematically efficient, low-signature airframe with GPS/INS guidance 
capability. A Block III improvement effort will add anti-ship and 
moving target capability in fiscal year 2009. The $172 million in 
fiscal year 2009 funding supports this development and continues 
production to build to our inventory objectives.
Decision Superiority/Networks
            Consolidated Afloat Networks Enterprise Services (CANES)
    CANES is evolving from the existing Integrated Shipboard Networking 
System (ISNS) program of record. It consolidates and enhances the 
requirements for five existing afloat network programs into a single 
support framework for all C4I applications that currently require 
dedicated infrastructure. The operational need for CANES has been well 
defined in existing network requirements documents and in the Global 
Information Grid Enterprise Services/Mission Area Initial Capability 
Documents. CANES will capitalize on industry best practices of common 
hardware, unified fielding, and ``plug and play'' software capability 
to produce fiscal savings, operational flexibility, and enhanced 
agility to warfighting applications. $21.6 million is aligned to CANES 
in the fiscal year 2009 budget, all of which was redirected from 
existing budget lines.
            Next Generation Enterprise Network (NGEN)
    NGEN Block 1 is the follow-on to the Navy Marine Corps Intranet 
(NMCI) and replaces the services currently provided by NMCI. Future 
NGEN Blocks will upgrade services provided by NMCI and the OCONUS Navy 
Enterprise Network. NGEN will also integrate with shipboard and Marine 
Corps networks to form a globally integrated, Naval Network Environment 
to support network operations. NGEN will leverage the Global 
Information Grid (GIG) and, where possible, utilize DOD enterprise 
services. The fiscal year 2009 budget provides $60 million to support 
the NGEN program.
            Information Assurance (IA)
    We are tailoring our approach to IA to concentrate our personnel 
and resources on protecting the Navy information battlespace. Navy 
Information Systems Security Program (ISSP)/Computer Network Defense 
(CND) are the Navy's IA programs that procure secure communications 
equipment for Navy ships, shore sites, aircraft, the Marine Corps, and 
U.S. Coast Guard. ISSP and CND will defend our Navy networks in depth. 
This will enhance the warfighter confidence in using the network as a 
weapons system. Navy Information Assurance uses a layered protection 
strategy, using Commercial Off-The-Shelf (COTS) and Government Off-The-
Shelf (GOTS) hardware and software that collectively provides an 
effective network security infrastructure. Our fiscal year 2009 Budget 
request includes $101 million for these IA efforts.
            Mobile User Objective System (MUOS)
    MUOS is the next generation Ultra High Frequency (UHF) narrowband 
satellite communications (SATCOM) system, replacing UHF Follow-On. MUOS 
supports Communications-On-The-Move (COTM) to small and less stable 
platforms (handhelds, aircraft, missiles, UAVs, remote sensors) in 
stressed environments (foliage, urban environment, high sea state). 
MUOS will provide the communications infrastructure to facilitate 
command and control of a netted, distributed force with delivery of IOC 
in 2010. $1.03 billion in the fiscal year 2009 budget funds the MUOS 
program.
            COBRA JUDY Replacement (CJR)
    $101.4 million funds the acquisition of a single ship-based radar 
suite for world-wide technical data collection against ballistic 
missiles. This replaces the current COBRA JUDY/USNS OBSERVATION ISLAND, 
which is scheduled to be removed from service in 2012. Upon achieving 
IOC in 2012, the Navy will transfer the CJR to the U.S. Air Force for 
operation and maintenance. The CJR program has entered the production 
stage.
            Distributed Common Ground/Surface Systems (DCGS)
    DCGS-N is the Navy's Intelligence, Surveillance, Reconnaissance, 
and Targeting (ISR&T) system. Funded at $124 million in fiscal year 
2009, DCGS-N will receive and process multiple data streams from 
various ISR sources to provide time-critical aim points and 
intelligence products. This program will enhance the warfighter's 
Common Operational Picture (COP) and is being fielded afloat and 
ashore.
            Deployable Joint Command and Control (DJC2)
    DJC2 is a Secretary of Defense and Chairman of the Joint Chiefs of 
Staff priority transformation initiative providing Combatant Commanders 
(COCOM) with a standardized, deployable, and scalable Joint C2 
headquarters capability tailored to support Joint Task Force (JTF) 
operations. DJC2 enables a COCOM to rapidly deploy and activate a JTF 
headquarters equipped with a common C2 package with which to plan, 
control, coordinate, execute, and assess operations across the spectrum 
of conflict and disaster relief missions. This budget request of $35 
million provides for operations and sustainment for the six existing 
systems, as well as continued research and development.
            Maritime Headquarters with a Maritime Operations Center 
                    (MHQ/MOC)
    The MHQ/MOC program creates a network of Navy headquarters that are 
trained and accredited to command Navy and Joint forces at the 
operational level of war. It transforms Navy operational headquarters 
into fully functional and scalable Command and Control Joint Task 
Force-capable Headquarters. It also automates and links key Navy and 
Joint planning processes in a globally networked environment.
    Since the initiative began in fiscal year 2008, we have validated 
the MHQ/MOC concept and developed architectures, processes and tasks to 
support its implementation. U.S. Fleet Forces Command is establishing 
an accreditation process and metrics. The 5th Fleet Prototype is 
providing operational verification of common tasks, processes and 
systems. The fiscal year 2009 budget provides $35 million to support 
MHQ/MOC.
            Cyber Asset Reduction and Security (CARS)
    The Cyber Asset Reduction and Security (CARS) initiative improves 
network security and optimizes resources by reducing legacy networks, 
applications, and systems to the minimum necessary for the Navy to 
conduct its business. CARS has reduced the Navy's total network 
inventory. From January 2006 until December 2007, the Navy has reduced 
its networks from 1,200 to 625, a 43 percent reduction. We intend to 
reduce them to approximately 200 by September 2010, an 83 percent 
reduction. Network reduction, in conjunction with efforts for data 
center, web site, and portal consolidation, will reduce the Navy's 
physical IT servers, external circuits, and applications.
            TRIDENT
    TRIDENT is a maritime intelligence production capability within the 
Office of Naval Intelligence that provides tailored, focused, timely 
intelligence support to Naval Special Warfare (NSW) and Joint special 
operations forces operating in the maritime domain. For $9.7 million in 
fiscal year 2009, TRIDENT production directly supports OEF/OIF and 
responds to ongoing initiatives to improve intelligence support to NSW. 
TRIDENT has deployed four Tactical Intelligence Support Teams (TIST) in 
Iraq since April 2006.
            Automatic Identification System (AIS)
    AIS leverages commercially available technology to provide a 
shipboard Very High Frequency (VHF) maritime band transponder system 
capable of sending and receiving ship information, including 
navigation, identification, and cargo data. AIS improves significantly 
the Navy's ability to distinguish between legitimate and suspicious 
merchant ships. Navy warships using AIS have dramatically increased 
situational awareness, safety of ship, and intelligence gathering. $16 
million in fiscal year 2009 will support continued fielding of AIS to 
the Fleet.
            Navy Enterprise Resource Planning System (Navy ERP)
    Navy ERP is an integrated business management system that 
modernizes and standardizes Navy business operations, provides 
management visibility across the enterprise, and increases 
effectiveness and efficiency. The program will align Navy to DOD's 
business enterprise architecture and provide real-time, end-to-end data 
to enable informed decisions. The current program of record delivers 
functionality in three releases: financial management and acquisition, 
wholesale and retail supply chain management, and intermediate-level 
maintenance support. The fiscal year 2009 budget provides $145 million 
for the Navy ERP program.
Infrastructure/Environment
            Undersea Warfare Training Range (USWTR)
    The proposed USWTR is a 500-square nautical mile instrumented 
underwater training range in shallow littoral waters on each coast. 
USWTR will support undersea warfare (USW) training exercises for the 
Atlantic and Pacific Fleet. Undersea hydrophones will provide real time 
tracking and a record of participants' activities to evaluate tactics, 
proficiency, and undersea warfare combat readiness. The instrumented 
area will be connected to shore via a single trunk cable.
    Pending signature of the environmental Record of Decision (ROD) for 
the East Coast USWTR in May 2009, the Navy will commence hardware 
procurement in fiscal year 2010. The west Coast Shallow Water Range is 
being analyzed as part of the Environmental Impact Statement for the 
Southern California Range Complex and the ROD is scheduled for 
signature in January 2009. The shallow water ranges for both coasts 
will be completed in fiscal year 2015. The Navy has requested $17.6 
million in fiscal year 2009 for the program.
            Facilities Recapitalization and Sustainment
    Facilities Recapitalization is comprised of modernization and 
restoration. Modernization counters obsolescence by renewing a facility 
to new standards or functions without changing the facility size. 
Restoration includes efforts to restore degraded facilities to working 
condition beyond design service life or to fix damage from natural 
disaster, fire, etc. While MILCON is the major contributor to the 
Navy's recapitalization program, O&M Restoration and Modernization (RM) 
remains a critical contributor to recapitalizing our existing 
infrastructure. The fiscal year 2009 Restoration and Modernization 
funding request of $300 million provides targeted investment in 
critical facilities.
    Facilities sustainment includes those maintenance and repair 
activities necessary to keep facilities in working order through their 
design service life. The fiscal year 2009 funding request of $1.7 
billion is a funding level that maintains our facilities and retains 
mission capability in the short term. While the Navy has historically 
taken significant risk in shore infrastructure investment, we intend to 
reduce this risk by aggressively validating requirements through an 
enterprise approach based on capacity, configuration, and condition of 
the infrastructure and by identifying and demolishing excess 
infrastructure.
            Marine Mammal Research/Sound in Water Effects
    The Navy is committed to proactive compliance strategies to meet 
legal requirements. The Navy also identifies and funds marine mammal 
research, especially research related to mid-frequency active sonar. 
The Navy has requested $18.1 million for its proactive compliance 
efforts in fiscal year 2009. Filling in gaps in scientific data through 
continued acoustic research, enhances Navy compliance with the Marine 
Mammal Protection Act (MMPA), Endangered Species Act (ESA), Coastal 
Zone Management Act (CZMA), and National Environmental Policy Act 
(NEPA). This research is especially important considering the 
increasing pressure placed on the Navy to restrict its use of active 
sonar, even when it adversely impacts training and readiness. In 
addition to MMPA standards, the Navy firmly believes that science must 
both define the effects of active sonar on marine mammals and also 
serve as the appropriate basis for mitigation measures that ensure a 
proper balance between national security and protection of natural 
resources.
            NIMITZ-Class Refueling Complex Overhaul (RCOH)
    RCOH subjects NIMITZ-class aircraft carriers to comprehensive 
modernization upgrades, maintenance, and nuclear refueling to extend 
the service life of NIMITZ-class carriers to approximately 50 years. 
This is nearly 20 years longer than the originally planned service 
life. Execution of RCOH is required to maintain an 11 aircraft carrier 
force. A notional RCOH consists of 3.2 million man-days and a 36-month 
industrial period conducted at Northrop Grumman Newport News, Virginia. 
USS CARL VINSON (CVN 70) is on track to complete RCOH in March 2009. 
Fiscal year 2009 funding of $628 million primarily supports RCOH for 
USS THEODORE ROOSEVELT.
            Utilities Privatization (UP)
    The Navy and Marine Corps have 645 utilities systems that are 
eligible for privatization on 135 activities/installations worldwide. 
Five hundred and seventeen (80 percent) of these systems have reached 
Source Selection Authority (SSA) decisions. Of the 517 systems, 410 
have been determined to be exempt, 28 have been awarded for 
privatization and 79 are being processed for exemption or award. 128 
systems are still being reviewed for an SSA decision. $1.3 million 
requested in our fiscal year 2009 budget supports these ongoing 
initiatives.
            BRAC 2005
    The DON BRAC Program Management Office (BRAC PMO) manages and 
oversees the DoN prior BRAC and BRAC 2005 actions and budget. The BRAC 
PMO oversees the efforts of Commander, Navy Installation Command (CNIC) 
and Commandant of the Marine Corps (CMC) realignment and closure 
efforts, and is responsible for completing property disposal and 
environmental remediation actions. The Navy is coordinating with other 
Services and agencies to support implementation of Joint actions.
    The DoN BRAC program provides $871 million in fiscal year 2009 to 
continue implementation of BRAC actions. The fiscal year 2009 program 
finances construction (including planning and design), operational 
movements at key closure and realignment locations, and the necessary 
environmental studies at receiving locations to fulfill National 
Environmental Policy Act (NEPA) requirements.
            U.S.-Japan Realignment Roadmap on Guam
    On May 1, 2006, the U.S. Japan Security Consultative Committee 
(SCC) approved the relocation of approximately 8,000 personnel for 3rd 
Marine Expeditionary Force and their 9,000 dependents from Okinawa 
Japan to Guam by 2014 as outlined in the U.S.-Japan Realignment 
Roadmap. The Roadmap stipulates that Japan will pay up to $6.09 billion 
of the estimated $10.3 billion cost for Guam facilities. The Secretary 
of Defense directed the Secretary of the Navy to work with the 
Secretaries of the Air Force, Army, Chairman of the Joint Chiefs of 
Staff, and PACOM, to establish a Joint Guam Program Office (JGPO) to 
facilitate, manage, and execute requirements for rebasing the Marines 
from Okinawa to Guam. The fiscal year 2009 budget request of $33.8 
million continues planning and development for a National Environmental 
Policy Act (NEPA)-required Environmental Impact Statement (EIS).
            Family Housing
    Family housing supports readiness by providing Sailors and their 
families suitable, affordable, and safe housing. The Navy's housing 
strategy includes reliance on private sector housing, public/private 
ventures, and military construction. By the end of fiscal year 2007, 95 
percent of CONUS family housing had been privatized. Eighteen 
privatization projects have been awarded for 40,355 homes. To date, 
Navy has secured $4.9 billion in private sector investment from $277 
million of Navy funds; a leverage ratio of 18:1. The agreements now in 
place will result in the elimination of the last inadequate house by 
2011. The fiscal year 2009 budget provides $462 million to support 
family housing.
            Global Force Posture Review
    As part of the Navy's ongoing contribution to the Defense 
Department's initiative to transform the U.S. global defense posture, 
the Navy conducted its own agility assessment of the strategic 
placement of its aircraft carrier force. This assessment is aligned 
with the Quadrennial Defense Review (QDR) decision to build a Fleet 
that includes 11 CSGs. It is also consistent with the movement of other 
Service capabilities away from an Atlantic focus. As indicated in the 
2006 QDR, the principle move for the Navy will be to assure the 
availability of six operational nuclear-powered aircraft carriers in 
the Pacific theater ``to support engagement, presence, and 
deterrence.'' The Navy continues to review current and alternate 
carrier ports to ensure the strategic Navy force disposition will 
promote a forward-leaning nuclear-powered carrier force that will 
strengthen our engagement and shaping capabilities, reassure our 
allies, and deter potential conflicts.
            Child Development Centers
    Navy Child Development and Youth Programs provide quality care for 
over 98,000 children through 131 Child Development Centers, 103 Youth 
Development Programs, 3,021 Child Development Homes, and 86 School Age 
Care Programs. The average waiting time for childcare is six months in 
non-Fleet concentration areas and up to 12 months in Fleet 
concentration areas. Fiscal year 2009 budget request increases the 
number of child care spaces by 5,270 to provide service to 80 percent 
of potential need. The fiscal year 2009 funding supports the 
construction of new Child Development Centers, the use of interim 
modular classrooms, the expansion of Child Development Home program, 
and additional contract civilian spaces.
Manpower
            Human Intelligence (HUMINT)
    The Navy continues to revitalize its HUMINT capability. The Navy's 
goal is to field a professional cadre of HUMINT collectors and to 
support personnel capable of executing the full range of HUMINT source 
operations in support of naval and national requirements. In 
conjunction with the Naval Criminal Investigative Service, the Navy 
continues to move forward with establishing a world-wide HUMINT program 
capable of successfully meeting the emerging threats in the 21st 
century. In the past year, Navy has successfully deployed its first 
tactical HUMINT teams into Iraq and experienced a very high success 
rate in the Al-Anbar province. Meanwhile, elements of the Office of 
Naval Intelligence continue to facilitate the exchange of Maritime 
Domain Awareness information between U.S. Navy and regional security 
partners. These elements provide maritime-focused collection capability 
that can capitalize on regional opportunities to further prosecute OEF/
OIF and carry out other important missions. Naval Maritime Interdiction 
Operations Intelligence Exploitation Teams (MIO-IET) continue to 
increase on-scene intelligence collection and exploitation during MIO 
boardings. The fiscal year 2009 budget provides $17 million to support 
HUMINT and MIO-IET efforts.
            AFRICOM
    On December 15, 2006, the President directed the establishment of a 
Unified Command for Africa no later than October 1, 2008. The Secretary 
of Defense issued follow-on AFRICOM Implementation Guidance (AIG) 
outlining the necessary requirements and details to include stand up of 
a Sub-Unified Command under USEUCOM by October 1, 2007. The primary 
roles of the command are non-kinetic missions for security cooperation; 
humanitarian relief; stability, security, transition, and 
reconstruction activities (SSTR); partnership capacity; and MIL-to-MIL 
activities.
    The Navy has filled the IOC requirement of 33 Navy billets. We also 
intend to fill our portion of the FOC manpower requirements for 
USAFRICOM in addition to approximately 100 billets for the associated 
Naval Component Command.
            Language, Regional Expertise & Culture (LREC)
    Achieving Navy's maritime strategy depends in part on our ability 
to communicate with and comprehend adversaries, allies, and partners. 
Consistent with the Defense Language Transformation Roadmap and the 
Navy Strategic Plan (NSP), the program incentivizes language 
proficiency, increases regional content in Navy Professional Military 
Education (NPME), and provides non-resident language instruction to all 
Sailors and delivers in-residence training to more officers. $51.1 
million requested in fiscal year 2009 continues existing efforts and 
begins new initiatives of enhanced non-resident and resident language 
training.
            Navy Education
                Professional Military Education (PME)
    Our fully fielded PME continuum provides career-long educational 
opportunities for professional and personal development that support 
mission capabilities. It contributes significantly to the development 
of 21st century leaders who have the capacity to think through 
uncertainty; develop innovative concepts, capabilities, and strategies; 
fully exploit advanced technologies, systems, and platforms; understand 
cultural/regional issues; and conduct joint operations.
    Navy PME (NPME), with Joint PME embedded at every level, provides a 
common core of knowledge for all Sailors. A primary level program was 
implemented via distance learning in June 2006. The initial targeted 
audience is junior unrestricted line officers and senior enlisted 
Sailors. Introductory and basic level PME courses for more junior 
Sailors were fielded in January 2008. Our fiscal year 2009 request of 
$180.2 million allows the continuation of career-long educational 
opportunities for our Sailors.
                Joint Professional Military Education (JPME)
    JPME teaches the principles of Joint warfare and prepares leaders 
to conduct operations as a coherent Joint force. Our path enhances our 
belief in the value of jointness and systematically develops Navy 
leaders who are strategically minded, capable of critical thinking, and 
skilled in naval and Joint warfare. PME completion is linked with 
career progression. For example, intermediate-level PME with JPME Phase 
I is required for screening unrestricted line officers for command 
beginning in fiscal year 2009. In August 2006, the Naval War College 
implemented in-residence instruction of JPME Phase II into the senior-
level course. To support Maritime Component Commanders, the Naval War 
College has also implemented the Maritime Staff Operations Course to 
strengthen maritime and joint planning and war fighting.
                The Naval Reserve Officers Training Corps (NROTC)
    The NROTC program comprises 59 active units at 71 host institutions 
of higher learning across the nation. With $178 million requested in 
fiscal year 2009, the program is adequately funded to provide four and 
two year scholarships to qualified young men and women to help prepare 
them for leading increasingly technical Navy and Marine Corps 
organizations as commissioned officers. The program continues to be a 
key source of nuclear power candidates and nurses and it increases 
officer corps diversity. We are increasing strategic foreign language 
skills and expanding cultural awareness among NROTC Midshipmen as well.
                The United States Naval Academy
    The Naval Academy is our naval college and it prepares young men 
and women morally, mentally, and physically to become professional 
officers of competence and character in the U.S. Navy and Marine Corps. 
Midshipmen attend the academy for four years. They graduate with a 
Bachelor of Science degree from one of 21 subject areas and are 
commissioned as Ensigns in the Navy or Second Lieutenants in the Marine 
Corps. The Naval Academy offers one of the most socially diverse 
educational experiences in America. Midshipmen come from all fifty 
states, forty-eight countries, and represent a mix of races, socio-
economic groups, and religions. Naval Academy graduates serve at least 
five years in the Navy or Marine Corps. Renowned for producing officers 
with solid technical and analytical foundations, the Naval Academy is 
expanding its capabilities in strategic languages and regional studies. 
The $128.6 million requested in the fiscal year 2009 budget supports 
the Naval Academy mission.
                The Naval Postgraduate School (NPS)
    NPS is the Navy's principal source for graduate education. It 
provides Navy and defense-relevant, degree and non-degree, resident and 
nonresident, programs to enhance combat effectiveness. NPS provides 
essential flexibility for students to satisfy Navy and DOD emergent 
research needs. The flexibility also helps develop warfighters whose 
demanding career paths and deployment cycles can make graduate 
education opportunities difficult to achieve. NPS supports Navy 
operations through naval and maritime research and maintains an expert 
faculty capable of working in, or serving as, advisors to operational 
commands, labs, systems commands, and headquarters. The $92.3 million 
requested in fiscal year 2009 sustains this unique national asset, 
provides lab upgrades, and increases opportunities for distance 
learning.
                The Naval War College (NWC)
    The Naval War College provides professional maritime and joint 
military education, advanced research, analysis, and gaming to educate 
future leaders. Its mission is to enhance the professional capabilities 
of U.S. and international students to make sound decisions in command, 
staff and management positions in naval, joint, and multinational 
environments. The College also contributes to the evolution and 
establishment of international relationships and building Global 
Maritime Partners. The faculty, staff, and students support combat 
readiness through developing expertise at the operational level of war. 
The $63 million requested in fiscal year 2009 supports increased 
support of Joint Forces Maritime Component Command/Coalition Forces 
Maritime Component Command analysis and gaming capability, the China 
Maritime Studies Institute, initial investment for MHQ/MOC, support for 
JPME I and JPME II accreditation, funding for JPME I at the Naval 
Postgraduate School, and for NWC Maritime Staff Operations curriculum 
development.
            Enlisted Retention (Selective Reenlistment Bonus)
    Sailors are the Navy, and retaining the best and brightest Sailors 
has always been a Navy core objective and key to success. We retain the 
right people by offering rewarding opportunities for professional 
growth, development, and leadership. With reenlistment rates returning 
to historic levels after peaking in fiscal year 2003, current 
reenlistment efforts are focused on shaping and stabilizing the force. 
Selective Reenlistment Bonuses (SRBs) are a key tool enabling us to 
offer attractive incentives to selected Sailors we want to retain. 
$359.6 million requested in fiscal year 2009 will provide for over 
76,000 new and anniversary payments and ensure the Navy will remain 
selective in fiscal year 2009.
            Sexual Assault Victim Intervention (SAVI)
    SAVI has three major components: awareness and prevention 
education, victim advocacy and intervention services, and collection of 
reliable data on sexual assault. Per the fiscal year 2005 National 
Defense Authorization Act requirements, the Navy SAVI Program was 
transitioned from a program management to case management focus. 
Existing installation program coordinator positions were increased and 
became Sexual Assault Response Coordinators (SARCs), which is a 
standard title and position across the Department of Defense. SARCs are 
accountable for coordinating victim care/support and for tracking each 
unrestricted sexual assault incident from initial report to final 
disposition. Navy also provides 24/7 response capability for sexual 
assaults, on or off an installation, and during deployment through the 
use of Victim Advocates who report to installation SARCs. The $6.2 
million requested in the fiscal year 2009 budget enables us to maintain 
this expanded SAVI program fleet-wide.
            Family Advocacy Program (FAP)
    The FAP addresses prevention, identification, reporting, 
evaluation, intervention, and follow-up with respect to allegations of 
child abuse/neglect and domestic abuse involving active duty and their 
family members or intimate partners. Maintaining abuse-free and 
adaptive family relationships is critical to Navy mission readiness, 
maintenance of good order and discipline, and quality of service for 
our active duty members and their families.
    RC Sailors, when activated or in a drill status, fall under the 
guidelines of DON Family Advocacy Program policy and have access to 
Navy programs until 18 months after deactivation. They also have access 
to Fleet and Family Support programs, which include new parent support 
and other prevention programs. FAP ensures proper balance for our 
Sailors' physical and mental health.
            Sea Warrior Spiral 1
    Sea Warrior comprises the Navy's training, education, and career 
management systems that provide for the growth and development of our 
people. The first increment, or ``Spiral 1'', of Sea Warrior is 
Interactive Detailing. This system allows Sailors to have greater 
insight and involvement in identifying and applying for Navy positions 
of interest to them professionally and personally. Spiral 1 Sea Warrior 
is a funded Navy program and its development follows a standard, 
rigorous acquisition engineering and program management processes. 
Additional Sea Warrior spirals will be developed in accordance with 
future capability needs and as clear requirements are defined.
    In 2007 we fielded the first version of the Career Management 
System (CMS) with Interactive Detailing. This new system allows Sailors 
ashore to review their personal and professional information, view 
available jobs, and submit their detailing preferences through their 
career counselors. The next step is to provide the same to Sailors on 
ships. This portion of the system has been tested in the laboratory and 
is in the process of being installed and tested on selected ships.
    The successful development and testing of these increments of 
additional functionality to the CMS system are the first steps in 
achieving our vision of enabling all Sailors to review available jobs 
and submit their own applications for their next assignment (consistent 
with policy and access) by June of 2009.
Health Care
            Combat Casualty Care
    Combat casualty care is provided by Navy medical personnel assigned 
to and serving with Marine Corps units in Expeditionary Medical 
Facilities, aboard casualty receiving/treatment ships and hospital 
ships, and in military and VA hospitals. A full range of health 
services to support the war fighter is provided in this integrated 
continuum of care, from the battlefield to our CONUS hospitals. We are 
redesigning Expeditionary Medical Facilities to become lighter, more 
mobile, and interoperable in a Joint environment.
    Recent advances in force protection, battlefield medicine, combat/
operational stress control, and medical evacuation have led to improved 
survival rates and enhanced combat effectiveness. Since the start of 
OEF/OIF the Marine Corps has fielded new combat casualty care 
capabilities, including: updated individual first aid kits with 
QuikClot and advanced tourniquets, robust vehicle first-aid kits for 
convoy use, and Combat Lifesaver training. Navy Medicine leads advanced 
technology research for the development of new systems to provide 
forward resuscitative surgery, en route care, and the use of innovative 
technologies.
            Post Traumatic Stress Disorder (PTSD)
    Though there has been a slight increase in new cases since fiscal 
year 2003, the prevalence of PTSD remains about one percent of the 
total Navy active duty population. The number of cases of PTSD in 
active duty Sailors was 1,046 in fiscal year 2003, 964 in fiscal year 
2004, 1,221 in fiscal year 2005 1,280 in fiscal year 2006, and 1,399 
thru September 12, 2007. To reflect recent advancements in prevention 
and treatment of stress reactions, injuries, and disorders, the Navy/
Marine Corps Combat/Operational Stress Control (COSC) doctrine is under 
revision and becomes effective in April 2009.
            Quality Medical Care
    Navy Medicine provides high quality, compassionate, cost-effective 
care. This care is a worldwide continuum from those wounded in battle 
to those operationally deployed, to those in garrison support, and to 
those who have retired from the uniformed service. Navy Medicine is 
continuously assessing its medical capabilities to improve and has 
adjusted to ensure the right health care capabilities are deployed as 
far forward as possible. These improvements are based on experience, 
lessons learned, and on requirements mandated by the warfighter. 
Changes have been made in the training of the physicians, nurses, and 
corpsmen who first encounter injured service members and in treatment 
methods. Recruitment and retention of health professionals remains a 
major focus.
            Post-Deployment Health Care
    Navy Medicine has developed new delivery models for deployment-
related concerns and is working with the Office of Seamless Transition 
to improve coordination with the VA. Navy Medicine has established 17 
Deployment Health Centers (DHC) as non-stigmatizing portals of care for 
service members and their families in areas of Fleet and Marine 
concentration. These centers support operational commands in ensuring 
medical care for those returning from deployment.

    Senator Inouye. Commandant.
STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            UNITED STATES MARINE CORPS
    General Conway. Mr. Chairman, Senator Stevens, and 
distinguished members of the subcommittee, I pledge to always 
provide you with forthright and honest assessments of your 
Marine Corps, and I bear that in mind today as I report to you 
on the posture of our service.
    In a written statement, I provided you a list of priorities 
that would enable your Corps to best serve our Nation's 
security interests, both today and in the uncertain future. But 
in brief, our young warriors in combat are my number one 
priority. Those magnificent patriots have been extremely 
effective in disrupting insurgents and the al Qaeda in the al-
Anbar province. In the spirit of jointness, I must note that it 
hasn't been just marines, rather marines, sailors, and 
soldiers, a composite effort over time, that has brought 
success to the al-Anbar.
    Quiet in their duty and determined in their approach, your 
marines are telling us loud and clear that wherever there is a 
job to be done, they'll shoulder that mission with enthusiasm. 
They're tough, and they'll do what it takes to win.
    We are still supporting the surge in Iraq and have already 
shifted from population protection to transitioning security 
responsibilities to Iraqi security forces. They're actively 
stepping up to the task. What may not be our core competency, 
marines have addressed the nation-building aspect of our duties 
with enthusiasm and determination.
    And as to the most recent call from the Secretary of 
Defense, we are also deploying more than 3,400 marines to 
Afghanistan. Your marines will assist a joint force in either 
gaining or maintaining momentum there. We fall on our 
expeditionary ethos of living hard and fighting well, as part 
of an air-ground team.
    I just returned from a visit to Iraq and Afghanistan and, 
ladies and gentlemen, I'm pleased to report to you that your 
marines are demonstrating an amazing resiliency in the face of 
multiple deployments to dangerous lands. In spite of a one-to-
one deployment to dwell regimen, that has virtually no chance 
of getting better until the fall, the factors that we track 
monthly to determine health of the force, those include 
desertion and UA rates, suicide, divorce, child and spousal 
abuse, retention and re-enlistment rates, are all as good or 
better than they were in 2001.
    We do have a significant issue with our families, simply 
put, they're proud of their contributions to this war, but 
they're tired. We owe it to those families to put our family 
service programs on to a war time footing. For too long our 
programs have been born on the backs of volunteers, acceptable 
perhaps during peace time, but untellable during a protracted 
conflict. The Congress has been exceptionally supportive in 
enabling us to make good on our promises to do more.
    Of course, we look beyond today in our obligation to the 
Nation, and we have learned lessons in trying to build the 
force as we fight. In response to a clear need, we are growing 
the Corps to 202,000 marines. We do this without lowering our 
standards, and we're ahead of our goals. During the last fiscal 
year we need to bring aboard or retain 5,000 additional 
marines. We actually grew 7,000 additional troops, over 96 
percent of them, high school graduates.
    But more than just manpower, this growth requires training, 
infrastructure, and equipment to meet the needs of the country. 
You've helped us meet those requirements with steady support 
and encouragement, and for that, we certainly thank you.
    The Marine Corps retains the mission to provide a multi-
capable force for our Nation, a two-fisted fighter, if you 
will, able to destroy enemy formations with our air-ground 
teams and major contingencies, but equally able to fall back on 
our hard earned, irregular warfare skills, honed over decades 
of conflict. By far, the most complex of our congressionally 
mandated missions, amphibious operations, require deliberate 
training and long-term resourcing to achieve high levels of 
proficiency. The operational expertise, special equipment sets, 
and amphibious lift are not capabilities that we can rapidly 
create in the face of a threat.

                           PREPARED STATEMENT

    Finally, on behalf of your marines, I extend a great 
appreciation for your support thus far, and I thank you in 
advance for your efforts on behalf of your brave servicemen and 
women in harms way. I assure you, that the Marine Corps 
appreciates the increasing competitions for the Nation's 
discretionary resources and will continue to provide a tangible 
return for every dollar spent.
    Thank you, Mr. Chairman.
    [The statement follows:]

             Prepared Statement of General James T. Conway

                           EXECUTIVE SUMMARY

    Chairman Inouye, Senator Stevens, and Distinguished Members of the 
Subcommittee; I have pledged to always provide you forthright and 
honest assessments of your Corps. I bear that in mind today as I report 
to you on the posture of your Corps.
    Your Marine Corps is fully engaged in what we believe is a 
generational struggle against fanatical extremists; the challenges we 
face are of global scale and scope. This Long War is multi-faceted and 
will not be won in one battle, in one country, or by one method. Your 
Marines are a tough breed and will do what it takes to win--not only in 
these opening battles of Iraq and Afghanistan, but also in the 
subsequent conflicts which we endeavor to prepare for today.
    In the face of great hardship, your Marines have made a positive 
and selfless decision to stay resolved. More than 332,000 Marines have 
either enlisted or re-enlisted since September 11, 2001; more than 
208,000 have deployed to Iraq or Afghanistan--a telling number for a 
force of less than 200,000 Marines. Make no mistake, they joined or 
decided to re-enlist knowing they would go into harm's way.
    They have answered the Nation's call and are fully engaged in this 
fight--serving with distinction as the professionals they are. It falls 
on us, then, to fully support them--we owe them the full resources 
required to complete the tasks ahead. Now more than ever, they need the 
sustained support of the American people and the Congress to provide 
them the help they need to fight today's conflict, prepare for 
tomorrow's, and fulfill our commitment to our Marine families.
    Without question, Marines in combat are our number one priority. 
Taken as a whole, combat operations are indeed stressing our forces and 
families. That said, the Marine Corps will not fail her country when 
called. In fact, in answer to the most recent call to provide ready 
forces to serve our Nation, the Marine Corps is deploying more than 
3,200 Marines to Afghanistan in addition to supporting ongoing surge 
operations in Iraq and other force requirements worldwide.
    It is with these great men and women in mind that the Marine Corps 
has shaped its priorities--which are enduring and serve not only the 
conflict of today, but also the inevitable crises that will arise in 
our Nation's future. Through this budget request, we seek to:
    Right-size the Marine Corps for today's conflict and tomorrow's 
uncertainty.--To fulfill our obligations to the Nation, the Marine 
Corps will grow its personnel end strength to 202,000 Active Component 
Marines by the end of fiscal year 2011. This increase will enable your 
Corps to train to the full spectrum of military operations and improve 
the ability of the Marine Corps to address future challenges of an 
uncertain environment. Our growth will enable us to recover our ability 
to respond in accordance with timelines outlined in Combatant Commander 
war plans--thereby, reducing operational risk. More than just manpower, 
this growth will require training, infrastructure, and equipment to 
meet the needs of our Nation.
    Reset the force and prepare for the next contingency.--To meet the 
demands of this war, we must reset the force so that we can 
simultaneously fight, train, and sustain our Corps. The Long War is 
taking a considerable toll on our equipment, and we continue to make 
tough choices on how best to apply the resources we are provided. 
Congress has responded rapidly and generously to our requests for 
equipment and increased protection for our Marines and Sailors. We are 
committed to fulfilling our responsibility to manage these resources 
prudently as we modernize our force.
    Modernize for tomorrow to be ``the most ready when the Nation is 
least ready''.--Congressionally-mandated to be ``the most ready when 
the Nation is least ready,'' your multi-capable Corps is committed to 
fulfilling this responsibility. We remain focused and steadfast in our 
responsibility to be the Nation's premiere expeditionary Force-in-
Readiness. To do so, we continue to adapt our organization and 
equipment to provide our country the best Marine Corps in the world.
    Provide our Nation a naval force that is fully prepared for 
employment as a Marine Air Ground Task Force across the spectrum of 
conflict.--The newly published Maritime Strategy reaffirms our naval 
character and reemphasized our enduring relationship with the Navy and, 
now, Coast Guard. Current operations limit our ability to aggressively 
commit forces to strategy implementation at this time. However, as we 
increase our end-strength to 202,000 Marines and as security conditions 
continue to improve in Iraq, the Marine Corps will transition our 
forces to other battles in the Long War. The most complex mission in 
the Maritime Strategy is the Congressionally-mandated mission of 
amphibious forcible entry. Such an operation requires a high level of 
proficiency and long-term resourcing and is not a capability that we 
can create on short notice.
    Take care of our Marines and their families.--Our most precious 
asset is the individual Marine. Our Marines and families have been 
steadfast and faithful in their service to our country, and we have an 
equally enduring obligation to them. As such, we are committed to 
putting our family programs on a wartime footing--our Marines and 
families deserve no less.
    Posture the Marine Corps for the future beyond the horizon.--The 
United States faces a complex mix of states who sponsor terrorism, 
regional and rising peer competitors, failing states that undermine 
regional stability, and a variety of violent non-state actors--all 
serving to destabilize legitimate governments and undermine security 
and stability of the greater global community. We see this global 
security context as a persistent condition for the foreseeable future.
    The Marine Corps continues to create a multi-capable force for our 
Nation--not only for the current operations in Iraq and Afghanistan, 
but also for subsequent campaigns of the Long War. We are committed to 
ensuring we remain where our country needs us, when she needs us, and 
to prevail over whatever challenges we face.
    On behalf of your Marines, I extend great appreciation for your 
support thus far and thank you in advance for your ongoing efforts to 
support our brave service men and women in harm's way. I promise you 
that the Corps understands the value of each dollar provided and will 
continue to provide maximum return for every dollar spent.
       marines and sailors in combat are our number one priority
    Marines in the operating forces have been pushed hard by the tempo 
and frequency of operational deployments; yet, their morale has never 
been higher--because they believe they are making a difference. Thanks 
to the Congress, your Marines know that the people of the United States 
and their Government are behind them. Your support has been 
exceptional--from the rapid fielding of life-saving equipment to the 
increase of Marine Corps end strength. With your continued support, 
your Marines will continue to make progress in their mission.
USMC Commitments in the Long War
    Over the past year, your Marines deployed to all corners of the 
globe in support of our Nation. With more than 24,000 Marines deployed 
throughout the U.S. Central Command's Area of Responsibility, 
Operations IRAQI FREEDOM (OIF) and ENDURING FREEDOM (OEF) remain our 
largest commitment. The Marine Corps continues to support surge 
operations in Iraq in the form of two additional infantry battalions 
and the enabling forces that accompany them. As part of the Marine Air 
Ground Task Force in Iraq, these forces have proven extremely effective 
in the disruption of insurgent activities in the Al Anbar province.
    As part of these forces, Marine Corps provides more than 250 
personnel to OEF--Afghanistan. Approximately 100 of these Marines are 
members of a Marine Special Operations Company that routinely engages 
in combat operations with partnered Afghan and U.S. Special Forces 
units. The remaining Marine complement to Afghanistan forms the nucleus 
of seven Embedded Training Teams (ETTs); these detachments provide 
strong mentorship to Afghan National Army units in the continuing fight 
against the Taliban.
    Taken as a whole, these recurring commitments of Marine forces in 
support of combat operations is indeed a stressing challenge on our 
forces and families. That said, the Marine Corps is fully cognizant of 
the regional and global effects of progress in Iraq, Afghanistan, and 
the Middle East. In fact, in answer to the most recent call to provide 
ready forces to serve our Nation, the Marine Corps is deploying a 
Marine Expeditionary Unit (MEU)-sized Marine Air Ground Task Force and 
an additional Battalion to conduct combat operations in Afghanistan. 
These 3,200 Marines are in addition to surge operations in Iraq and 
other force requirements worldwide.
    The Marine Corps also deployed forces to participate in over sixty 
Theater Security Cooperation events, which ranged from small Mobile 
Training Teams in Central America to Marine Expeditionary Unit 
exercises in Africa, the Middle East, and the Pacific. The Marine Corps 
also took part in civil-military and humanitarian assistance operations 
such as New Horizons events in Nicaragua, land mine removal training in 
Azerbaijan, and disaster relief in Bangladesh after a devastating 
cyclone.

    RIGHT-SIZE THE MARINE CORPS FOR TODAY'S CONFLICT AND TOMORROW'S 
                              UNCERTAINTY

    To meet the demands of the Long War, as well as the unforeseen 
crises that will inevitably arise, our Corps must be sufficiently 
manned, well trained, and properly equipped. Like the Cold War, the 
Long War is a long-term struggle that will not be measured by the 
number of near-term deployments or rotations; it is this long-term view 
that informs our priorities and plan for growth.
    To fulfill our obligations to the Nation, the Marine Corps will 
grow its personnel end strength to 202,000 Active Component Marines. 
This increase will enable your Corps to train to the full spectrum of 
military operations and improve the ability of the Marine Corps to 
address future challenges of an uncertain environment. Our growth will 
enable us to recover our ability to respond in accordance with 
timelines outlined in Combatant Commander war plans--thereby, reducing 
operational risk.
    Current wartime deployment rates dictate an almost singular focus 
to prepare units for their next rotation and counterinsurgency 
operations. This focus and the deployment rate of many units threaten 
to erode the skills needed for Marine Corps missions such as combined-
arms maneuver, mountain warfare, and amphibious operations. Our 
deployment cycles must not only support training for irregular warfare, 
but also provide sufficient time for recovery and maintenance as well 
as training for other contingency missions. By increasing dwell time 
for our units, we can accomplish the more comprehensive training needed 
for the sophisticated skill sets that have enabled Marine Air Ground 
Task Forces to consistently achieve success in all types of operations.
    Just as importantly, this growth will relieve strain on those 
superb Americans who have volunteered to fight the Nation's battles. We 
must ensure that our personnel policies, organizational construct, and 
training enable our Marines to operate at the ``sustained rate of 
fire.'' This means that we must have sufficient dwell time, equipment 
for training, and resources for our Marines and their families to 
sustain their efforts over time. Our recently begun growth to 202,000 
Marines will significantly enhance our ability to operate at the 
``sustained rate of fire.''
    Our goal, during the Long War, is to achieve a 1:2 deployment-to-
dwell ratio for all of our active forces; for every seven months a 
Marine is deployed, he or she will be back at home station for fourteen 
months. Right now, many of our forces are at a 1:1 deployment-to-dwell 
ratio or less--which cannot be sustained in the long-term. We also aim 
to implement a 1:5 deployment to dwell ratio for our reserve forces 
and, eventually, achieve a peacetime deployment-to-dwell ratio goal is 
1:3 for our active forces.
    As we grow, we will develop all the elements of our Marine Air 
Ground Task Force in a balanced manner to meet the diverse challenges 
of an uncertain future. This growth includes:
  --An increase in our end strength to 202,000 Marines;
  --Adequate expansions of our infrastructure to provide for our 
        Marines, their families, and their equipment; and
  --The right mix of equipment for the current and future fight.
    This additional end strength will result in three Marine 
Expeditionary Forces--balanced in capacity and capability. The 
development of Marine Corps force structure has been the result of a 
thorough and ongoing process that supports the Combatant Commanders and 
accomplishes our Title 10 responsibilities. The process addresses all 
pillars of combat development (Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, and Facilities) and 
identifies our required capabilities and the issues associated with 
fielding them. The most recent assessment revealed a requirement to 
front-load structure for recruiters and trainers to support our 
personnel growth and a phased introduction of units balanced across the 
Marine Air Ground Task Force.
    In fiscal year 2007, we stood up two infantry battalions: 1st 
Battalion, 9th Marines and 2nd Battalion, 9th Marines. We also added 
capacity to our combat engineer battalions and air naval gunfire 
liaison companies. Our plan will gradually improve the deployment-to-
dwell ratio of some of our other habitually high operational tempo 
units--such as military police, unmanned aerial vehicle, helicopter, 
air command and control, combat service support, and explosive ordnance 
disposal units.
    Growing the Marine Corps as we simultaneously fight the Long War is 
a challenge, but we are committed to being the best stewards of the 
Nation's resources and working with the Congress to achieve these 
important goals.
Growing to 202,000 Marines
    The Marine Corps surpassed its fiscal year 2007 authorized end 
strength goal of 184,000 and is on track to meet the goal of 189,000 
Marines for fiscal year 2008 as well as our target end strength of 
202,000 Marines by fiscal year 2011.
    Recruiting.--A vital factor in sustaining our force and meeting end 
strength goals is continuing to recruit qualified young men and women 
with the right character, commitment, and drive to become Marines. With 
over 70 percent of our end strength increase comprised of Marines on 
their first enlistment, our recruiting efforts are a critical part of 
our overall growth.
    While exceeding Department of Defense quality standards, we 
continue to recruit the best of America into our ranks. In fiscal year 
2007, the Marine Corps achieved over 100 percent of the Active 
Component accession goal necessary to grow the force as well as 100 
percent of our reserve recruiting goals. We reached this goal without 
compromising the high quality standards the American people expect of 
their Marines.
    We forecast that both active and reserve recruiting will remain 
challenging in fiscal year 2008, particularly given the increased 
accession missions needed to meet our end strength growth. We will need 
the continued indispensable support of Congress to sustain our existing 
programs and other incentives essential to achieving our recruiting 
mission.
    Retention.--Retention is the other important part of building and 
sustaining the Marine Corps. As a strong indicator of our force's 
morale, the Marine Corps has achieved unprecedented numbers of 
reenlistments in both the First Term and Career Force. The expanded 
reenlistment goal, in which we sought to reenlist over 3,700 additional 
Marines, resulted in the reenlistment of 31 percent of our eligible 
First Term force and 70 percent of our eligible Career Force--compared 
to the 22 percent first term and 65 percent career force reenlistments 
in fiscal year 2006. This achievement was key to reaching the first 
milestone in our end strength increase--184,000 Marines by the end of 
fiscal year 2007--without sacrificing our high quality standards. In 
fact, a recent Center for Naval Analyses study concluded that the 
quality of our First Term force who reenlist has improved steadily 
since fiscal year 2000.
    For fiscal year 2008, our retention goals are even more aggressive, 
but we fully expect to meet them. Our continuing success will be 
largely attributable to several important enduring themes. First, 
Marines are motivated to ``stay Marine'' because they are doing what 
they signed up to do--fighting for and protecting our Nation. Second, 
they understand our culture is one that rewards proven performance; our 
Selective Reenlistment Bonuses are designed to retain top quality 
Marines with the most relevant skill sets.
    There is no doubt that your Marines' leadership and technical 
skills have rendered them extremely marketable to lucrative civilian 
employment opportunities. To retain the most qualified Marines, we must 
maintain Selective Reenlistment Bonus (SRB) funding. In fiscal year 
2007, the Marine Corps spent approximately $460 million in SRB and 
Assignment Incentive Pay (AIP) to help achieve our end strength goal. 
With a reenlistment mission of 17,631 in fiscal year 2008--compared to 
an historical average of 12,000--the Marine Corps expects to spend 
approximately $500 million in reenlistment incentives during fiscal 
year 2008.
    This aggressive SRB plan will allow us to retain the right grade 
and skill sets for our growing force--particularly among key military 
occupational specialties. The continued support of the Congress will 
ensure we have the necessary combat-trained Marines for the Long War 
and other contingency operations.
    Reserve Component End Strength.--Our fights thus far in Iraq and 
Afghanistan have been a Total Force effort--our Reserve forces continue 
to perform with grit and determination. Our goal is to obtain a 1:5 
deployment-to-dwell ratio within our Reserve Component. As our active 
force increases in size, our reliance on our Reserve forces should 
decrease--helping us achieve the desired deployment-to-dwell ratio. We 
believe our current authorized end strength of 39,600 Selected Marine 
Corps Reserves is appropriate. As with every organization within the 
Marine Corps, we continue to review the make-up and structure of our 
Reserve in order to ensure the right capabilities reside within the 
Marine Forces Reserve units and our Individual Mobilization Augmentee 
program.
    Military-to-Civilian Conversions.--Military-to-civilian conversions 
replace Marines in nonmilitary-specific billets with qualified 
civilians, enabling the Corps to return those Marines to the operating 
forces. Since 2004, the Marine Corps has returned 3,096 Marines to the 
operating force through military-to-civilian conversions. We will 
continue to pursue sensible conversions as this will aid in our 
deployment-to-dwell ratio goals for the force.
Growing to 202,000: Infrastructure
    Military Construction is one of our keys to success in increasing 
the Marine Corps to 202,000 Marines by 2011. We have determined the 
optimal permanent locations for these new units and have generated 
estimates for the types and sizes of facilities needed to support these 
forces. Because our end strength will increase before final 
construction is complete, we are providing interim support facilities 
that will include lease, rental, and purchase of temporary facilities. 
Our plan will ensure adequate facilities are available to support the 
phase-in and Final Operating Capability of a 202,000 Marine Corps while 
meeting our environmental stewardship responsibilities.
    Military Construction--Bachelor Enlisted Quarters Initiative.--
Housing for our single Marines continues to be our top military 
construction focus. Barracks are a significant quality of life element 
in taking care of our single Marines. We have put ourselves in extremis 
with regards to new barracks as we have degraded their priority for 
decades in lieu of operational requirements. We are now committed to 
providing adequate billeting for all of our existing unmarried junior 
enlisted Marines and non-commissioned officers by 2012--and for our 
increased end strength by 2014. To do that, we doubled the amount of 
our bachelor housing funding request from fiscal year 2007 to 2008; we 
will more than triple the 2008 amount in fiscal year 2009. We are also 
committed to funding replacement of barracks' furnishings on a seven-
year cycle and prioritizing barracks repair projects to preempt a 
backlog of repairs.
    Public Private Venture (PPV) Housing.--Our efforts to improve 
housing for Marines and their families continue. The housing 
privatization authorities are integral to our efforts to accommodate 
both current housing requirements and those resulting from our planned 
force increases. Thanks to Congressional support, the Marine Corps had 
business agreements in place at the end of fiscal year 2007 to 
eliminate all of our inadequate family housing. However, we need to 
continue our PPV efforts to address the current insufficient number of 
adequate housing units as well as the deficit being created by the 
increase in end strength to 202,000 Marines.
    Training Capacity.--Marine Corps Training & Education Command is 
increasing its training capacity and reinvigorating our pre-deployment 
training program to provide support to all elements of the Marine Air 
Ground Task Force (MAGTF) across the full spectrum of potential 
missions. In accordance with the Secretary of Defense's Security 
Cooperation guidance, we are developing and coordinating training and 
education programs to build the capacity of allied and partner nations. 
We are also developing the capability to conduct large-scale MAGTF 
exercises within a joint, coalition, and interagency context to 
maintain proficiency in core warfighting functions such as combined 
arms maneuver, amphibious operations, and maritime prepositioning 
operations. Finally, we are ensuring our training and education 
programs and training ranges accommodate the 27,000 Marine Corps end 
strength increase.
Growing to 202,000: Equipment
    Our assessment of the materiel requirements for our growth has been 
significantly enhanced through cooperation between the Marine Corps and 
industry partners. Through this effort, the units we created in fiscal 
year 2007 were provided the equipment necessary to enter their pre-
deployment training cycle. By prioritizing Marines in combat and 
redistribution of some of our strategic stocks, these new units were 
able to meet training and deployment requirements for combat. With the 
Congress' continued support, the numerous equipment contracts required 
to support our growth were met during fiscal year 2007 and will be met 
through fiscal year 2008 and beyond.
       resetting the force and preparing for the next contingency
    To meet the demands of this war, we must reset the force so that we 
can simultaneously fight, train, and sustain our Corps. The Long War is 
taking a considerable toll on our equipment, and we continue to make 
tough choices on how best to apply the resources we are provided--
either to replace our rapidly aging equipment with similar platforms or 
to modernize with next generation equipment. Additionally, we have 
routinely drawn additional equipment from strategic stocks, which need 
to be replenished in order for us to remain responsive to emerging 
threats. The Congress has responded rapidly and generously to our 
requests for equipment and increased protection for our Marines and 
Sailors. We are committed to fulfilling our responsibility to manage 
these resources prudently as we modernize our force.
Costs of Resetting the Force
    Reset funds replenish the equipment necessary to keep the Marine 
Corps responsive to emerging threats. Costs categorized as ``reset'' 
meet one of the following criteria: maintenance and supply activities 
to restore and enhance combat capability to unit and pre-positioned 
equipment; replace or repair equipment destroyed, damaged, stressed, or 
worn out beyond economic repair; and enhance capabilities, where 
applicable, with the most up-to-date technology.
    Our current reset estimate is $15.6 billion. To date, Congress has 
appropriated a total of $10.9 billion for Marine Corps GWOT reset 
costs. As the nature of the Long War evolves, ``reset the force'' cost 
estimates evolve as well. We not only need to ``Reset'' the force to 
support current readiness, but we also need to ``Reconstitute and 
Revitalize'' the force in preparation for future challenges. We are 
coordinating with other Services and the Joint Staff to refine 
estimates, and we are aggressively executing funding to ensure the 
Marines in the fight have the proper equipment in a timely manner.
Equipment Readiness
    While the vast majority of our equipment has passed the test of 
sustained combat operations, it has been subjected to more than a 
lifetime's worth of wear stemming from increased vehicle mileage and 
operating hours as well as harsh environmental conditions--resulting in 
an escalated maintenance effort. This maintenance requirement is a 
consequence of not only operational tempo and operating environments, 
but also the sheer amount of equipment employed in operations. 
Approximately 26 percent of all Marine Corps ground equipment is 
currently engaged overseas. Most of this equipment is not rotating out 
of theater at the conclusion of each force rotation; it remains in 
combat, used on a near-continuous basis at a pace that far exceeds 
normal peacetime usage.
    For example, in Operation IRAQI FREEDOM, crews are driving Light 
Armored Vehicles in excess of 8,700 miles per year--3.5 times more than 
the programmed annual usage rates of 2,480 miles per year. Our tactical 
vehicle fleet is experiencing some of the most dramatic effects of 
excessive wear, operating at five to six times the programmed rates. 
Many weapon systems have been modified during this conflict; some of 
these modifications have led to further wear and tear due to additional 
weight--for example, armor plating has been added for protection 
against improvised explosive devices. These factors, coupled with the 
operational requirement to keep equipment in theater without 
significant depot repair, has tremendously decreased the projected 
lifespan of this equipment. As a result, we can expect higher than 
anticipated reset costs and more replacements than repair of equipment. 
The depot level maintenance requirements for the equipment that is 
repairable will continue beyond the conclusion of hostilities in Iraq 
and Afghanistan.
    Our priority for equipment is to support Marines serving in harm's 
way. Therefore, we have drawn additional equipment from the Maritime 
Prepositioning Ships and prepositioned stores in Norway; we have also 
retained equipment in theater from units that are rotating back to the 
United States. The operational results of these efforts have been 
outstanding--the average mission capable rates of our deployed forces' 
ground equipment remain above 90 percent--but there is a price.
    The cost of this success is a decrease in non-deployed unit 
readiness as well as an increase in the maintenance required per hour 
of operating time. Equipment across the Marine Corps is continuously 
cross-leveled to ensure that units preparing to deploy have sufficient 
equipment to conduct our rigorous pre-deployment training programs. 
Because the stateside priority of equipment distribution and readiness 
is to units preparing to deploy, there has been a trade-off in unit 
training for other types of contingencies. The timely delivery of 
replacement equipment is crucial to sustaining the high readiness rates 
for the Marines in theater, as well as improving the rates for the 
forces here at home. While additional equipment has been purchased, 
long lead times and production rates mean that, although funded, much 
of this equipment is still many months from delivery.
Aviation Equipment & Readiness
    The operationally demanding and harsh environments of Iraq, 
Afghanistan, and the Horn of Africa have highlighted the limitations of 
our aging fleet of aircraft. In order to support our Marines, sister 
Services, and coalition partners successfully, our aircraft have been 
flying at two to three times their designed utilization rates.
    Despite this unprecedented use, our maintenance and support 
personnel have sustained a 79 percent aviation mission-capable rate for 
deployed Marine aircraft over the past twelve months. Maintaining the 
readiness of our aviation assets while preparing our aircrew for their 
next deployment is and will continue to be an enormous effort and 
constant challenge for our Marines. To maintain sufficient numbers of 
aircraft in deployed squadrons, our non-deployed squadrons have taken 
significant cuts in available aircraft and parts as they prepare for 
deployment--resulting in a 30 percent decrease in the number of non-
deployed units reporting ``deployment capable'' over the last five 
years. Reset funding has partially alleviated this strain, but 
continued funding is needed as we are simply running short of aircraft 
on our flight lines due to age, attrition, and wartime losses.
    Reset programs have helped us mitigate degradation of our aircraft 
materiel readiness through aircraft modifications, proactive 
inspections, and additional maintenance actions. These efforts have 
successfully bolstered aircraft reliability, sustainability, and 
survivability; nevertheless, additional requirements for depot level 
maintenance on airframes, engines, weapons, and support equipment will 
continue well beyond the conclusion of hostilities.
Prepositioning Programs
    Comprised of three Maritime Prepositioning Ships Squadrons (MPSRON) 
and other strategic reserves, the Marine Corps' prepositioning programs 
are a critical part of our ability to respond to current and future 
contingency operations and mitigate risk for the Nation. Targeted 
withdrawal of equipment from our strategic stocks has been a key 
element in supporting combat operations, growth of the Marine Corps, 
and other operational priorities; these withdrawals provided necessary 
equipment from the existing inventory while industry catches up to our 
new requirements in the long-term. Generous support from the Congress 
has enabled the long-term solution, and as a result, shortfalls within 
our strategic programs will be reset as equipment becomes available 
from the manufacturer.
    Maritime Prepositioning Ships Squadrons (MPSRON).--Our MPSRONs will 
be reset with the most capable equipment possible, and we have begun 
loading them with capabilities that support lower spectrum operations 
while still maintaining the ability to generate Marine Expeditionary 
Brigades capable of conducting major combat operations. Since 2007's 
report, all three squadrons have completed the Maritime Prepositioning 
Force (MPF) Maintenance Cycle eight (MMC-8). MPSRONs 1 and 3 were 
reconstituted to 91 percent and 100 percent respectively. The near-term 
reduction of MPSRON-1 was required to outfit new units standing up in 
fiscal year 2007 and fiscal year 2008 as part of our end strength 
increase. MPSRON-1 will complete MPF Maintenance Cycle-nine (MMC-9) in 
June 2008, and we anticipate it will be loaded with roughly 80 percent 
of its full equipment set as a result of our requirement to support end 
strength increase to 202,000 Marines. MPSRON-2 was loaded to 54 percent 
of its equipment requirements; much of MPSRON-2's equipment remains 
committed to Operation IRAQI FREEDOM. With projected deliveries from 
industry, our intent is to fully reset and modernize MPSRON-2 and 
MPSRON-3 when they return for maintenance beginning in May 2008 and 
April 2009 respectively.
    We are actively working with the Navy and Transportation Command to 
incorporate newer, more flexible ship platforms from the existing 
Military Sealift Command fleet into our aging legacy Maritime 
Prepositioning Force program. As we reset MPF, these changes are 
necessary to ensure we incorporate hard fought lessons from recent 
combat operations. Two decades of equipment growth and recent armor 
initiatives have strained the capability and capacity of our present 
fleet--that was designed to lift a Naval Force developed in the early 
1980s.
    We plan to incorporate three of Military Sealift Command's nineteen 
large, medium-speed, roll-on/roll-off ships (LMSR) as replacements for 
five of our older leased platforms. The LMSR significantly expands MPF 
flexibility and will allow us to reset and optimize MPF to meet current 
and emerging requirements.
    Marine Corps Prepositioning Program--Norway.--The Marine Corps 
Prepositioning Program--Norway (MCPP-N) was also used in support of 
current operations, growth of the Marine Corps, and resetting other 
Marine Corps shortfalls with a higher operational priority. The Marine 
Corps continues to reset MCPP-N in concert with our operational 
priorities while also exploring other locations for geographic 
prepositioning that will enable combat and theater security cooperation 
operations for forward deployed Naval Forces.
Depot Maintenance
    The Marine Corps has aggressively worked to stabilize the 
conditions that affect our depot maintenance. These conditions include: 
the uncertainty of the timing of reset, asset availability, timing of 
funding, equipment condition, and evolving skill requirements. One area 
we focus on is the in-theater identification of equipment and scope of 
work to be performed; this effort enables better planning for parts, 
manpower resources, funding requirements, and depot capacity. Triage 
assessments made in theater and relayed back to the sources of repair 
have helped to ensure efficient repair preparation time. These efforts 
reduce the repair cycle time, returning the mission capable equipment 
to the warfighter as soon as possible--improving materiel readiness.
    Depot capacity is elastic; productivity is not constrained by money 
or capacity; the limiting factor is asset (carcass) availability. We 
increase capacity to support surge requirements through a variety of 
means--overtime, additional shifts, and additional personnel. 
Performing work on over 260 product lines, our depot workforce 
currently has multiple trade skills ranging from laborers to engineers. 
Much of the equipment in theater today includes items not previously 
repaired by any depot facility--organic or non-organic. As a result, 
the existing workforce may require additional training. New personnel 
and continued supplementation through contractor support may also be 
required. We continue to leverage state and local institutions, such as 
the technical colleges and universities, which can provide valuable 
assistance in training our workforce in skills such as welding, 
environmental science, and engineering.
    Future challenges to meeting the increasing workload requirements 
include leveraging depot capacity, lessening the impact on our labor 
force, and ensuring parts are available. Continuing to partner with 
other Services and industry, we will enhance execution of reset using 
organic and non-organic sources of repair. We will continue to work 
with the Congress to anticipate the evolving depot maintenance funding 
requirements.
Equipment Retrograde Operations from Central Command Area of Operations
    During 2006, in a continued effort to support the Commander, United 
States Marine Forces, Central Command, Marine Corps Logistics Command 
took the lead as the Service Executive Agent for the retrograde of 
equipment in theater determined to be excess. In addition to receiving, 
preparing, and shipping excess equipment within theater, Marine Corps 
Logistics Command (Forward) coordinates strategic lift requirements and 
manages the redistribution of principle end items in accordance with 
the Commandant of the Marine Corps' sourcing priorities. Since June 
2006, over 15,731 principle end items have been processed at the 
retrograde lot in Al Taqaddum and approximately 11,799 items have been 
shipped back to Blount Island Command for disposition. Once disposition 
is received, assets are sent to Marine Corps Logistics Command for 
induction into the Master Work schedule, placed In-Stores, used to fill 
requisitions, or sent to the Defense Reutilization Marketing Office if 
deemed uneconomical to repair. The repair and return of items to In-
Stores will enable us to better address the many demands for equipment. 
This, in turn, will keep us moving forward towards our goal of 
continued readiness improvement.
    Operation IRAQI FREEDOM has led to a conceptual change in the way 
we provide operational-level logistics to the warfighter. Due to 
changing operational and mission requirements, Marine Corps Logistics 
Command is implementing capabilities extending beyond traditional 
boundaries, creating a more mobile and agile organization. The Marine 
Corps Logistics Command (Forward) was established to satisfy 
operational logistics requirements using competitive, comprehensive, 
and integrated solutions obtained from ``the best'' strategic 
Department of Defense and commercial providers. While continuing to 
execute its strategic-level responsibilities, Marine Corps Logistics 
Command has transformed from a garrison-centric organization to one 
capable of deploying operational-level logistics solutions to augment 
the sustainment requirements of Marine Forces in combat.

MODERNIZE FOR TOMORROW TO BE ``THE MOST READY WHEN THE NATION IS LEAST 
                                READY''

    We know we have tough choices ahead of us to meet equipment demands 
across the Corps. As we reset, we are making prudent assessments on 
when it is more effective to replace aging and worn out equipment with 
similar equipment or to buy new equipment. We remain focused and 
steadfast on our responsibility to be the Nation's premiere 
expeditionary Force-in-Readiness.
Experimentation
    Our Marine Corps Warfighting Laboratory conducts experiments to 
support operating force requirements and combat development. We 
continually seek to improve the capabilities of the operating forces by 
focusing on the needs of our lower-level ground combat and ground 
combat support units engaged in current and potential near-term 
contingencies. Some examples of current projects include:
  --``Combat Hunter,'' a project aimed at enhancing observation and 
        hunting skills of individual Marines operating in a combat 
        environment;
  --Company Level Intelligence Cell experiment, designed to provide us 
        with a ``best practices'' model and to standardize infantry 
        battalion intelligence processes;
  --Squad Fires experiment, enhancing close air support to squad-level 
        units;
  --Combat Conditioning project, examining advances in physical fitness 
        training to best prepare Marines for the demands of combat; and
  --Lighten the Load initiative, an effort to decrease the amount of 
        weight carried by Marines in the field.
Enhancing Individual Survivability
    The Marine Corps continues to pursue technological advancements in 
personal protective equipment--our Marines in combat deserve nothing 
less. Fully recognizing the limiting factors associated with weight, 
fatigue, and movement restriction, we are providing Marines the latest 
in personal protective equipment--such as the Modular Tactical Vest, 
QuadGard, Lightweight Helmet, and Flame Resistant Organizational Gear.
    Body Armor.--Combat operations in Iraq and Afghanistan have 
highlighted the need to evolve our personal protective vest system. In 
February 2007, we began transitioning to a newly-designed Modular 
Tactical Vest (MTV). This vest is close to the same weight as its 
predecessor, the Outer Tactical Vest, but it integrates more easily 
with our other personal protection systems. It provides greater comfort 
through incorporation of state-of-the-art load carriage techniques, 
which better distributes a combat load over the torso and onto the hips 
of the Marine. The MTV also incorporates our combat-proven Enhanced 
Small Arms Protective Inserts (E-SAPI) and Side SAPI plates. These 
plates are provided to every Marine in the Central Command theater of 
operations. The E-SAPI provides the best protection available against a 
wide variety of small arms threats--to include protection against 7.62 
mm ammunition. The initial acquisition objective for the MTV was 60,000 
systems, with deliveries completed in October 2007. We are procuring 
additional MTVs during this fiscal year to ensure our Marines continue 
to deploy with the best body armor system available.
    QuadGard.--The QuadGard system is designed to provide ballistic 
protection for a Marine's arms and legs when serving as a turret gunner 
on convoy duty. This system, which integrates with other personal 
ballistic protection equipment, such as the MTV ESAPI and Lightweight 
Helmet, provides additional protection against ballistic threats--
particularly improvised explosive device fragmentation.
    Lightweight Helmet.--We are committed to providing the best head 
protection available to our warfighters. The Lightweight Helmet (LWH) 
weighs less than its predecessor and provides a high level of 
protection against fragmentation threats and 9 mm bullets. We now 
require use of a pad system inside the helmet as multiple independent 
studies and tests demonstrated that it provides greater protection 
against non-ballistic blunt trauma than the sling suspension system. We 
are retrofitting more than 150,000 helmets with the pad system and have 
already fielded enough helmet pads for every deployed Marine. Since 
January 2007, all LWHs produced by the manufacturer are delivered with 
the approved pad system installed. In October 2007, we began fielding 
the Nape Protection Pad (NAPP), which provides additional ballistic 
protection to the occipital region of the head--where critical nervous 
system components, such as the cerebellum, brain stem, occipital lobe, 
and spinal cord are located. The NAPP is attached to the back of the 
LWH or the Modular Integrated Communications Helmet (MICH), which is 
worn by our reconnaissance Marines. Final delivery of the initial 
69,300 NAPPs is scheduled for April 2008. That said, we continue to 
challenge industry to build a lightweight helmet that will stop the 
7.62 mm round fired from an AK-47.
    Flame Resistant Organizational Gear (FROG).--In February 2007, we 
began fielding FROG to all deployed and deploying Marines. This 
lifesaving ensemble of flame resistant clothing items--gloves, 
balaclava, long-sleeved under shirt, combat shirt, and combat trouser--
is designed to mitigate potential injuries to our Marines from flame 
exposure. These clothing items provide protection that is comparable to 
that of the NOMEX combat vehicle crewman suit/flight suit, while adding 
durability, comfort, and functionality. We have recently begun fielding 
flame resistant fleece pullovers to our Marines for use in cooler 
conditions, and we are developing flame resistant varieties of cool/
cold weather outer garments and expect to begin fielding these to 
Marines in late fiscal year 2008. With the mix of body armor, 
undergarments, and outerwear, operational commanders can determine what 
equipment their Marines will employ based on mission requirements and 
environmental conditions. Through ongoing development and partnerships 
with other Services, we continue to seek the best available flame 
resistant protection for our Marines.
    Sustained funding for the development and procurement of individual 
protective equipment has had a direct impact on our ability to reduce 
or mitigate combat injuries. Continued Congressional support is needed 
to ensure that our Marines and Sailors receive the best equipment 
available in the coming years.
    Counter Improvised Explosive Devices (CIED).--Responding to urgent 
warfighter needs, we are providing the most capable force protection 
systems available. We are upgrading our Counter Remote-controlled IED 
Electronic Warfare Chameleon systems to meet rapidly evolving threats 
while remaining engaged with the Joint Program Board to develop a joint 
solution. We are enhancing our ability to combat the effects of weapons 
of mass destruction as well as protecting our Marines worldwide by 
fielding eighteen consequence management sets using the best available 
commercial off-the-shelf technologies. These sets complement the 
capabilities of our Family of Incident Response Systems and the 
Chemical Biological Incident Response Force. Our Family of Explosive 
Ordnance Disposal Equipment has undergone significant modernization 
through enhancement of technician tool kits and greater counter IED 
robotics capability and availability.
Marine Aviation Plan
    Resetting Marine Aviation means getting more capable and reliable 
aircraft into the operational deployment cycle sooner--not merely 
repairing and replacing damaged or destroyed aircraft. Daily, your 
Marines rely on these aircraft to execute a wide array of missions 
including casualty evacuation for our wounded and timely close air 
support for troops in contact with the enemy. Legacy aircraft 
production lines are no longer active--exacerbating the impact of 
combat losses and increasing the urgency for the Marine Aviation Plan 
to remain fully funded and on schedule.
    The 2007 Marine Aviation Plan (AvPlan) provides the way ahead for 
Marine Aviation over the next 10 years as it transitions 39 of 71 
squadrons from 13 legacy aircraft to 6 new aircraft; it incorporates 
individual program changes and synchronizes support of our end strength 
growth to 202,000 Marines.
    Joint Strike Fighter (JSF).--F-35B Lightning II development is on 
track with the first flight of BF-1 Short Take-Off/Vertical Landing 
(STOVL) variant scheduled for 2008. The F-35B STOVL variant is a fifth 
generation aircraft that will provide a quantum leap in capability, 
basing flexibility, and mission execution across the full spectrum of 
warfare. The JSF will act as an integrated combat system in support of 
ground forces and will be the centerpiece of Marine Aviation. The 
manufacture of the first nineteen test aircraft is well underway, with 
assembly times better than planned and exceptional quality demonstrated 
in fabrication and assembly. The first Conventional Take-Off/Landing 
(CTOL) aircraft flew in December of 2006 and accumulated nineteen 
flights prior to a planned technical refresh. The JSF acquisition 
strategy, including software development, reflects a block approach. 
The Marine Corps remains committed to an all-STOVL tactical aircraft 
force--which will enable future Marine Air Ground Task Forces (MAGTFs) 
to best fulfill its expeditionary warfighting responsibilities in 
support of the Nation and Combatant Commanders.
    MV-22 Osprey.--The MV-22 brings revolutionary assault support 
capability to our forces in harm's way; they deserve the best assault 
support aircraft in the world--without question, the MV-22 is that 
aircraft. The MV-22 is replacing the CH-46E aircraft. The CH-46E is 
over forty years old, with limited lift and mission capabilities to 
support the MAGTF. In September 2005, the V-22 Defense Acquisition 
Board approved Full Rate Production. Twenty-nine Block A and twenty-
four Block B aircraft have been delivered and are based at Marine Corps 
Air Station New River, North Carolina; Patuxent River, Maryland; and Al 
Asad Air Base, Iraq.
    Much like the F-35, the MV-22 program uses a block strategy in its 
procurement. Block A aircraft are training aircraft, Block B are 
operational aircraft, and Block C aircraft are operational aircraft 
with mission enhancements that will be procured in fiscal year 2010 and 
delivered in fiscal year 2012. One V-22 Fleet Replacement Training 
Squadron, one test squadron, and three tactical VMM squadrons have 
stood up. MV-22 Initial Operational Capability was declared on June 1, 
2007 with a planned transition of two CH-46E squadrons per year 
thereafter.
    VMM-263 is deployed to Al Asad Air Base, Iraq, and the significant 
capabilities of the Osprey have already been proven in combat. A brief 
examination of the daily tasking of the MV-22 squadron in Iraq tells a 
compelling story: a flight of MV-22s are doing in six hours what would 
have taken twelve hours in CH-46s. In addition, the aircraft easily 
ranges the entire area of operations and flies a majority of the time 
at altitudes beyond the range of our enemy's weapons. The Marine Corps 
asked for an aircraft that could take us farther, faster, and safer; 
and Congress answered.
    KC-130J.--KC-130Js have been continuously deployed in support of 
Operation IRAQI FREEDOM since February 2005--providing state-of-the-
art, multi-mission, tactical aerial refueling, and fixed-wing assault 
support. The KC-130J is the workhorse of the MAGTF; its theater 
logistical support reduces the requirement for resupply via ground, 
limiting the exposure of our convoys to IEDs and other attacks.
    The introduction of the aerial refuelable MV-22 combined with the 
forced retirement of the legacy KC-130F/R aircraft due to corrosion, 
fatigue life, and parts obsolescence requires an accelerated 
procurement of the KC-130J. In addition, the Marine Corps will replace 
its twenty-eight reserve component KC-130T aircraft with KC-130Js, 
simplifying the force to one Type/Model/Series. The Marine Corps is 
contracted to procure a total of forty-six aircraft by the end of 
fiscal year 2013; twenty-nine new aircraft have been delivered and four 
KC-130J aircraft requested in the fiscal year 2008 budget.
    H-1 Upgrade.--The H-1 Upgrade Program (UH-1Y/AH-1Z) resolves 
existing operational UH-1N power margin and AH-1W aircrew workload 
issues--while significantly enhancing the tactical capability, 
operational effectiveness, and sustainability of our attack and utility 
helicopter fleet. The Corps' Vietnam-era UH-1N Hueys are reaching the 
end of their useful life. Due to airframe and engine fatigue, Hueys 
routinely take off at their maximum gross weight with no margin for 
error. Rapidly fielding the UH-1Y remains a Marine Corps aviation 
priority, with the first deployment of UH-1Ys to Operation IRAQI 
FREEDOM scheduled for the spring of 2009.
    Due to significant operational demands and aircraft attrition in 
the existing attack and utility helicopter fleet, the Marine Corps 
adopted a ``build new'' strategy for the UH-1Y in fiscal year 2006. 
Similarly, the Marine Corps began investing in Non-Recurring 
Engineering (NRE) in fiscal year 2007 for the production of a limited 
number of AH-1Z ``build new'' aircraft; these AH-1Zs will augment those 
existing AH-1Ws that will be remanufactured. This combined ``build 
new'' and remanufacture strategy will enable the Marine Corps to 
rapidly increase the number of AH-1s available, support the Marine 
Corps' growth to 202,000 Marines, and alleviate inventory shortfalls 
caused by aircraft attrition. Ten production aircraft have been 
delivered. Operation and Evaluation (OPEVAL) Phase II commenced in 
February 2008, and as expected, showcased the strengths of the upgraded 
aircraft. Full rate production of the H-1 Upgrade (and the contract 
award of Lot 5 aircraft) is scheduled to take place during the fourth 
quarter fiscal year 2008.
    CH-53K.--In operation since 1981, the CH-53E is becoming 
increasingly expensive to operate and faces reliability and 
obsolescence issues. Its replacement, the CH-53K, will be capable of 
externally transporting 27,000 lbs to a range of 110 nautical miles, 
more than doubling the current CH-53E lift capability. Maintainability 
and reliability enhancements of the CH-53K will significantly decrease 
recurring operating costs and will radically improve aircraft 
efficiency and operational effectiveness over the current CH-53E. The 
program passed Milestone B (System Development & Demonstration [SDD] 
initiation) in December 2005. The SDD Contract was awarded to Sikorsky 
Aircraft Corporation in April 2006. Initial Operational Capability 
(IOC) is scheduled for fiscal year 2015, and is defined as a detachment 
of four aircraft, ready to deploy.
Unmanned Aerial Systems (UAS)
    The Marine Corps is taking aggressive action to modernize and 
improve organic UAS capabilities. The Marine Corps' UAS are organized 
into three echelons, appropriate to the level of commander they 
support. Tier III UAS serve at the Marine Expeditionary Force (MEF) 
level. Tier II UAS support Regimental Combat Team and Marine 
Expeditionary Unit operations, and Tier I UAS support battalion and 
below operations. At the Tier III level, we have simultaneously 
transitioned Unmanned Aerial Vehicle Squadrons (VMU) to the RQ-7B 
Shadow; started reorganizing the squadrons' force structure to support 
detachment-based flexibility (operating three systems versus one for 
each squadron); and initiated the stand up of a third active component 
VMU squadron.
    With the significant support of the Army, the Marine Corps has 
completed the transition to the RQ-7B Shadow in less than nine months. 
The transition to the Shadow provides a mature and modern--yet basic 
and readily available--Tier III platform upon which to baseline Marine 
VMU reorganization. A detachment-based concept of operations for the 
VMU will give Marine Expeditionary Force commanders flexibility to 
task-organize based on mission requirements. The addition of a third 
VMU squadron is critical to sustaining current operations by decreasing 
our current operational deployment-to-dwell ratio--currently at 1:1--to 
a sustainable 1:2 ratio. This rapid transition and reorganization, 
begun in January 2007, will be complete by the fourth quarter fiscal 
year 2009, significantly improving organic Marine Corps UAS capability 
while increasing joint interoperability and commonality.
    The Marine Corps is using an ISR Services contract to provide Scan 
Eagle systems to Multi-National Forces--West, Iraq to fill the Tier II 
void until future fielding of the Tier II/Small Tactical UAS (STUAS), a 
combined Marine Corps and Navy program beginning in fiscal year 2008 
with planned fielding in 2011. At the Tier I level, the Marine Corps is 
transitioning from the Dragon Eye to the joint Raven-B program, also 
common with the U.S. Army.
    When fully fielded, the Corps' Unmanned Aerial Systems will be 
networked through a robust and interoperable command and control system 
that provides commanders an enhanced capability applicable across the 
spectrum of military operations.
Ground Mobility
    The Army and Marine Corps are leading the Services in developing 
tactical wheeled vehicle requirements for the joint force. Our efforts 
will provide the joint force an appropriate balance of survivability, 
mobility, payload, networking, transportability, and sustainability. 
The Army/Marine Corps Board has proven a valuable forum for 
coordination of development and fielding strategies; production of 
armoring kits and up-armored HMMWVs; and response to requests for Mine 
Resistant Ambush Protected vehicles. The Ground Mobility Suite 
includes:
    Expeditionary Fighting Vehicle (EFV).--The Marine Corps provides 
the Nation's joint forces with a unique and flexible forcible entry 
capability from the sea. The EFV is specifically suited to maneuver 
operations conducted from the sea and sustained operations in the 
world's littoral regions. Its inherent capabilities provide utility 
across the spectrum of conflict. As the Corps' largest ground combat 
system acquisition program, the EFV is the sole sea-based, surface-
oriented vehicle that enables projection of combat power from a seabase 
to an objective. It will replace the aging Assault Amphibious Vehicle--
in service since 1972. Complementary to our modernized fleet of 
tactical vehicles, the EFV's amphibious mobility, day and night 
lethality, enhanced force protection capabilities, and robust 
communications will substantially improve joint force capabilities. Its 
over-the-horizon capability will enable amphibious ships to increase 
their standoff distance from the shore--protecting them from enemy 
anti-access weapons.
    The Marine Corps recently conducted a demanding operational 
assessment of the EFV. It successfully demonstrated the most critical 
performance requirements, but the design complexities are still 
providing challenges to system reliability. To that end, we conducted a 
comprehensive requirements review to ensure delivery of the required 
capability while reducing complexity where possible. For example, the 
human stresses encountered during operations in some high sea states 
required us to reevaluate the operational necessity of exposing Marines 
to those conditions. Based upon this assessment, along with subsequent 
engineering design review, we will tailor final requirements and system 
design to support forcible entry concepts while ensuring the EFV is a 
safe, reliable, and effective combat vehicle.
    Joint Light Tactical Vehicle (JLTV).--The Army/Marine Corps Board 
has been the focal point for development of joint requirements for a 
Joint Light Tactical Vehicle--which will provide protected, sustained, 
networked, and expeditionary mobility in the light tactical vehicle 
weight class. Throughout 2007, Army and Marine Corps combat and 
materiel developers coordinated with the Joint Staff, defining 
requirements and acquisition planning for the replacement for the up-
armored HMMWV. In December, the Defense Acquisition Board approved JLTV 
entry into the acquisition process at Milestone A, designating the Army 
as lead Service and initiating competitive prototyping during the 
technology development phase. Prototypes will be evaluated to 
demonstrate industry's ability to balance survivability, mobility, 
payload, network enabling, transportability, and sustainability. The 
program is on track for a Milestone B in early 2010.
    Marine Personnel Carrier (MPC).--The MPC is an expeditionary 
armored personnel carrier--ideal for irregular warfare--yet effective 
across the full range of military operations. Increasing armor-
protected mobility for infantry battalion task forces, the MPC program 
balances vehicle performance, protection, and payload attributes. 
Through 2007, we completed both joint staffing of an Initial 
Capabilities Document and, a draft concept of employment. Additionally, 
the Analysis of Alternatives final report was published in December 
2007. The program is on track for a Milestone B decision in the second 
quarter of fiscal year 2010 and an Initial Operational Capability in 
the 2015 timeframe.
    Internally Transported Vehicle (ITV).--The ITV is a family of 
vehicles that will provide deployed Marine Air Ground Task Forces with 
ground vehicles that are transportable inside the MV-22 and CV-22 tilt-
rotor aircraft, as well as CH-53 and MH-47 aircraft. There are three 
variants of the ITV, the Light Strike, the Prime Mover-Weapon, and the 
Prime Mover-Trailer. Both prime mover variants are components of the 
Expeditionary Fire Support System designed to support the M327 120 mm 
mortar. In conjunction with testing of our Expeditionary Fire Support 
System, we conducted an operational assessment of the ITV Light Strike 
variant during which it met all key performance parameters. We expect 
to begin fielding this variant the Light Strike Variant of the ITV in 
June 2008.
Vehicle Armoring
    Our goal is to provide the best level of available protection to 
100 percent of in-theater vehicles that go ``outside the wire.'' Our 
tactical wheeled vehicle strategy pursues this goal through the 
coordination of product improvement, technology insertion, and new 
procurement in partnership with industry. The Marine Corps, working 
with the other Services, is fielding armored vehicles such as: the Mine 
Resistant Ambush Protected Vehicle (MRAP), the Medium Tactical Vehicle 
Replacement Armor System, the Logistics Vehicle System (LVS) Marine 
Armor Kit, and the Up-armored HMMWV.
    Medium Tactical Vehicle Replacement (MTVR) Armor System (MAS).--MAS 
provides an integrated, armor enclosed, climate-controlled cab 
compartment and an armored troop carrier for our MTVR variants. These 
vehicles are also being upgraded with an improved blast protection 
package consisting of blast attenuating seats, five-point restraint 
harnesses, and improved belly and fender-well blast deflectors. Basic 
MAS has been installed in all of the Marine Corps' MTVRs in the Central 
Command's theater of operation. Additionally, we are installing blast 
upgrade, fuel tank fire protection kits, and 300 AMP alternators; 
target completion for in-theater vehicles is Fourth Quarter fiscal year 
2008.
    Logistics Vehicle System (LVS) Marine Armor Kit (MAK) II.--The LVS 
MAK II provides blast, improvised explosive device, and small arms 
protection. It has a completely redesigned cab assembly that consists 
of a new frame with armor attachment points and integrated 360-degree 
protection. The new cab will also have an air conditioning system that 
cools from 134 degrees Fahrenheit to 89 degrees Fahrenheit in twenty 
minutes. Additional protection includes overhead and underbody armor 
using high, hard steel, rolled homogenous armor, and 2.75 inch 
ballistic windows. The suspension system has been upgraded to 
accommodate the extra weight of the vehicle. We estimate the LVS MAK II 
armoring effort will complete fielding by February 2009.
    M1114 Highly-Mobile Multi-Wheeled Vehicle (HMMWV)--Upgrade--
Fragmentation Kit 2 and Kit 5.--Fragmentation Kit 2 enhances ballistic 
protection in the front driver and assistant driver wheel-well of 
HMMWVs. Fragmentation Kit 5 reduces injuries from improvised explosive 
devices as well as armor debris and fragmentation. Installation of both 
fragmentation kits was completed in fiscal year 2007. We are continuing 
to evaluate the U.S. Army's objective kit development and work with the 
Army and Office of Naval Research to assess new protection-level 
capabilities and share information. The Marine Corps has adopted a 
strategy of a 60 percent fully up-armored HMMWV fleet. All new Expanded 
Capacity Vehicles will have the Integrated Armor Package. Of those, 60 
percent will be fully up-armored to include the appropriate ``B'' kit 
and Fragmentation kits during production. The Marine Corps will 
continue to work with the Army to pursue the development of true bolt-
on/bolt-off ``B'' kits and fragmentation kits to apply as needed to 
post-production vehicles.
    Mine Resistant Ambush Protected (MRAP) Vehicles.--MRAP vehicles 
have a V-shaped armored hull and protect against the three primary kill 
mechanisms of mines and improvised explosive devices (IED)--
fragmentation, blast overpressure, and acceleration. These vehicles 
provide the best currently-available protection against IEDs. 
Experience in theater shows that a Marine is four to five times less 
likely to be killed or injured in a MRAP vehicle than in an up-armored 
HMMWV--which is why Secretary Gates made the MRAP program the number 
one acquisition priority for the Defense Department. MRAP vehicles come 
in three categories: Category I designed for use in urban environments 
and carries by up to six personnel; Category II for convoy escort, 
troop transport, and ambulance evacuation, which transports up to ten 
personnel; and Category III for route clearance/explosive ordnance 
disposal vehicles.
    The total Department of Defense requirement for MRAP vehicles is 
15,374--of which 3,700 are allocated for the Marine Corps. However, the 
Marine Corps requirement has been revalidated to 2,225, pending Joint 
Requirements Oversight Council approval. The Navy is the Executive 
Agent for the program and the Commander, Marine Corps Systems Command 
is the Joint Program Executive Officer. As an example of our adaptation 
to evolving threats, the Joint MRAP Vehicle Program Office has recently 
selected qualified producers of a new MRAP II vehicle for the Marine 
Corps and other forces. Vehicles procured through this second 
solicitation will meet enhanced survivability and performance 
capability required by field commanders.
    The Marine Corps is very pleased with the overwhelming support of 
Congress on the MRAP program, both financially and programmatically. We 
ask that Congress continue their support for these life-saving vehicles 
and support us as we transition to the sustainment of these vehicles in 
future years.
MAGTF Fires
    In 2007, we initiated a study entitled ``The Major Combat 
Operations Analysis for fiscal years 2014 and 2024.'' This study 
scrutinized the current organic fire support of the Marine Air Ground 
Task Force (MAGTF) to determine the adequacy, integration, and 
modernization requirements for ground, aviation, and naval surface 
fires. The study concluded that the MAGTF/Amphibious Task Force was 
unable to adequately address moving and armored targets 24/7 and in all 
weather conditions. This deficiency is especially acute during the 
Joint Forcible Entry Operation phase of combat operations. The study 
also reinforced the critical importance of both the Joint Strike 
Fighter and AH1Z in minimizing the fires gap. With this information, we 
then developed a set of alternatives for filling these gaps--using 
either MAGTF reinforcing or joint fires. We also performed a 
supplemental historical study using Operation IRAQI FREEDOM data to 
examine MAGTF Fires in the full spectrum of warfare. These studies 
reconfirmed the requirement for a mix of air, naval surface, and 
ground-based fires as well as the development of the Triad of Ground 
Indirect Fires.
    Our Triad of Ground Indirect Fires provides for complementary, 
discriminating, and nondiscriminating fires that facilitate maneuver 
during combat operations. The Triad requires a medium-caliber cannon 
artillery capability; an extended range, ground-based rocket 
capability; and a mortar capability with greater lethality than current 
models and greater tactical mobility than current artillery systems. 
The concept validates the capabilities provided by the M777 lightweight 
155 mm towed howitzer, the High Mobility Artillery Rocket System, and 
the Expeditionary Fire Support System, a 120 mm rifled towed mortar.
    M777 Lightweight Howitzer.--The new M777 lightweight howitzer 
replaces our M198 howitzers. It can be lifted by the MV-22 Osprey and 
the CH-53E helicopter and is paired with the Medium Tactical Vehicle 
Replacement truck for improved cross-country mobility. Through design 
innovation, navigation, positioning aides, and digital fire control, 
the M777 offers significant improvements in lethality, survivability, 
mobility, and durability over the M198 howitzer. The Marine Corps began 
fielding the first of 511 new howitzers to the operating forces in 
April 2005 and expects to complete fielding in fiscal year 2011.
    High Mobility Artillery Rocket System (HIMARS).--HIMARS fills a 
critical range and volume gap in Marine Corps fire support assets by 
providing twenty-four hour, all weather, ground-based, indirect 
precision and volume fires throughout all phases of combat operations 
ashore. We will field forty-six HIMARS--eighteen to the Active 
Component, eighteen to the Reserve Component, four to the Supporting 
Establishment, and six to the War Reserve Material Readiness--Forward. 
When paired with Guided Multiple Launch Rocket System rockets, HIMARS 
will provide a highly responsive, precision fire capability to our 
forces. We will reach Initial Operational Capability this August and 
expect to be at Full Operational Capability by fiscal year 2010.
    Expeditionary Fire Support System (EFSS).--The EFSS, a towed 120 mm 
mortar, will be the principal indirect fire support system for heli- 
and tiltrotor-borne forces executing Ship-to-Objective Maneuver as part 
of a Marine Air Ground Task Force. When paired with an Internally 
Transportable Vehicle, EFSS can be transported aboard MV-22 and CH-53E 
aircraft. EFSS-equipped units will have immediately responsive, organic 
indirect fires at ranges beyond current infantry battalion mortars. 
Initial operational capability is planned during fiscal year 2008, and 
full operational capability is planned for fiscal year 2010.
Infantry Weapons
    Based on combat experience and numerous studies, we are developing 
infantry weapons systems with the following goals: increased 
effectiveness, lighter weight, improved modularity, and integration 
with other infantry equipment. The Marine Corps and Army are co-leading 
joint service capabilities analysis for future developments.
    Individual Weapons.--The M16A4 is our current service rifle and 
makes up the majority of our assigned individual weapons. It is 
supplemented by the M4 Carbine, which is assigned to Marines based on 
billet and mission requirements. We are participating in several Army 
tests which will evaluate the capabilities and limitations of our small 
arms inventory. In conjunction with the Army and Air Force, we will use 
these results to determine priorities for a future service rifle with 
focus on modularity, ergonomics, balance, and lethality. We also have 
executed a two-pronged strategy for a larger caliber pistol: supporting 
the Air Force's effort to analyze and develop joint capabilities 
documents for a new pistol and examining the Army's recent 
consideration of personal defense weapons.
    Multi-Purpose Weapons.--The Shoulder-Launched Multipurpose Assault 
Weapon (SMAW) is an aging, heavy weapon that is nearing the end of its 
service life. We are seeking ways to reduce weight, increase 
reliability, and improve target identification as well as develop a 
``fire from enclosure'' capability that will enable Marines to fire the 
weapon from within an enclosed space.
    Scout Sniper Capability.--We are conducting a holistic assessment 
of our Scout Sniper capability to identify shortfalls and develop 
recommended solutions--concurrently integrating the doctrine, training, 
weapons, equipment, and identified tasks with a Marine sniper's 
professional development and career.
    Non-lethal Weapons Technology.--The complexities of the modern 
battlespace often place our Service men and women in challenging 
situations where sometimes, lethal force is not the preferred response. 
In these environments, our warfighters need options for a graduated 
escalation of force. As the Executive Agent for the Department of 
Defense Non-Lethal Weapons Program, we see the need for long-range, 
directed-energy systems. Marines and Soldiers in Iraq are already using 
non-lethal directed energy weapons; green laser warning devices have 
reduced the requirement to use lethal force at checkpoints against 
wayward, but otherwise innocent, Iraqi civilians. We continue to pursue 
joint research and development of promising non-lethal weapon 
technologies, such as the millimeter wave Active Denial System. We 
thank the Committee for its support of these vital capabilities for 
modern warfare.
    Counter-Sniper Technology.--We are leveraging the work of the 
Defense Advanced Research Projects Agency, our sister Services, the 
Marine Corps Intelligence Activity, and the National Ground 
Intelligence Center in an effort to increase our ability to counter 
enemy snipers. We are examining different obscurant technologies as 
well as various infrared detection/location sense and warn 
capabilities. We are experimenting with advanced equipment and improved 
tactics, techniques, and procedures. The ability to detect enemy optics 
will provide our Marines warning of impending sniper or improvised 
explosive device attacks and the ability to avoid or engage the sniper 
before he can fire. Ongoing joint and interagency cooperation, coupled 
with industry collaboration, will shape our future experiments.
    Infantry Battalion Enhancement Period Program (IBEPP).--We are 
fielding additional equipment to infantry battalions to better enable 
Marines to fight and win on the distributed and non-linear battlefield. 
This equipment encompasses communications, optics, weapons, and 
vehicles, at a cost of approximately $19 million per battalion. Key 
elements of the IBEPP include a formal squad leader course for every 
rifle battalion squad leader, a tactical small unit leaders' course for 
prospective fire team leaders, and a ``Train the Trainer'' mobile 
training team to teach junior tactical leaders the skills required to 
more effectively train their own Marines.
Command and Control (C2) Harmonization
    The Marine Corps' Command and Control Harmonization Strategy 
articulates our goal of delivering an end-to-end, fully-integrated, 
cross-functional capability to include forward-deployed and reach-back 
functions. We envision seamless support to Marines in garrison and in 
combat--taking the best of emerging capabilities to build a single 
solution that includes the Common Aviation Command and Control System 
(CAC2S), Tactical Communications Modernization (TCM) program, Very 
Small Aperture Terminal (VSAT), and training.
    The CAC2S fuses data from sensors, weapon systems, and command and 
control systems into an integrated display, assisting commanders in 
controlling organic, joint, and coalition efforts while operating as a 
joint task force. Delivered in a common, modular, and scalable design, 
CAC2S reduces the current systems into one hardware solution. The TCM 
and VSAT programs fuse data on enemy forces into the Common Operating 
Picture and increase our ability to track friendly forces. Lastly, our 
C2 Harmonization Strategy increases capability to train our staffs 
through Marine Air Ground Task Force Integrated System Training 
Centers.
Information Operations
    The ability to influence an adversary through information 
operations has been a critical capability our current operations and 
will be of even more importance as we continue to engage in security 
cooperation efforts around the globe. To better support our Information 
Operations (IO), we are standing up the Marine Corps Information 
Operations Center at Quantico, VA--our primary organization to 
integrate and deliver IO effects throughout the Marine Corps.
Marine Corps Intelligence, Surveillance, and Reconnaissance Enterprise
    We are increasing the quality of our Intelligence, Surveillance, 
and Reconnaissance (ISR) capabilities through the use of an enterprise 
approach known as the Marine Corps ISR Enterprise (MCISR-E)--resulting 
in a fully-integrated architecture compliant with joint standards for 
data interoperability. MCISR-E will provide networked combat 
information and intelligence down to the squad level across the range 
of military operations. To ensure Marines have access to these new 
capabilities, our MAGTF Command and Control systems feed combat 
operation centers with information from wide field of view persistent 
surveillance systems such as Angel Fire, traditional ISR systems such 
as our family of Unmanned Aircraft Systems (UAS), and non-traditional 
collection assets such as Ground Based Operational Surveillance System 
(GBOSS). Intelligence sections down to the company level are equipped 
with ISR fusion systems as well as applications such as MarineLink that 
enable rapid discovery, data mining, analysis, and most importantly 
incorporation of Intelligence into tactical planning for operations and 
intelligence reporting down to squad level and up to higher 
headquarters.
Marine Corps Operational Logistics
    Operating Force Sustainment Initiatives.--We have aggressively 
moved forward on several forward-deployed initiatives that have 
improved our support to our Marines in combat. Our Marine Corps 
Logistics Command is working with our Marine Expeditionary Forces on 
extending heavy intermediate maintenance support within the continental 
United States. Maintenance Center contact teams at Camp Lejeune and 
Camp Pendleton are extending the service life of equipment through 
corrosion control and maintenance programs that enhance pre-deployment 
readiness.
    Improving Combat Readiness Through Innovation.--To assure optimum 
use of the resources provided by Congress and the American taxpayers, 
we are making innovations in how we equip, sustain, house, and move our 
war-fighters. We are aggressively applying the principles of continuous 
process improvement to these enabling business processes across the 
Corps. In just the past year we have cut costs and repair cycle time at 
both aviation and ground maintenance depots, revamped and speeded up 
the urgent universal needs statements process, and instituted regional 
contracting for materiel and services that is proving more cost 
effective. Such improvements are expected to increase as training and 
experience proliferate.
Urgent Universal Needs Statement (UUNS) Process
    The UUNS process enables deployed commanders to request equipment 
based on their recent experience. Designed to procure equipment more 
expediently than if submitted in the regular budgeting process, the 
Marine Corps' UUNS process uses a secure, web-based system that 
provides full stakeholder visibility from submission through 
resolution. Through continuous process improvement, we have reduced our 
average processing time by 58.8 days. Our goal is responsive support to 
commanders in the field by providing a rational, disciplined, and time-
sensitive process that fulfills their validated urgent requirements in 
the fastest, most logical way. We continue to review the system for 
opportunities to increase efficiency and timeliness. For example, as a 
result of a February 2006 Lean Six Sigma review, several improvements 
were implemented including standardization, on-line tracking, and 
streamlined approval. Typically, UUNS are funded by reprogramming funds 
from approved programs or through Congressional supplemental funding. 
They are funded with regard for current law, their effects on 
established programs of record, or other initiatives in the combat 
capability development process.
Information Technology Enablers/Global Combat Support System--Marine 
        Corps
    Global Combat Support System--Marine Corps continues to make 
strides toward delivering a modernized information technology system 
that will enhance logistics support to the warfighter. As the primary 
information technology enabler for the Marine Corps' Logistics 
Modernization efforts, the system's primary design focus is to enable 
the warfighter to operate while deployed and provide reach back 
capability from the battlefield. At the core is modern, commercial-off-
the-shelf enterprise resource planning software that will replace our 
aging legacy systems. The Global Combat Support System--Marine Corps 
Block 1 focuses on providing the operating forces with an integrated 
supply/maintenance capability and enhanced logistics-chain-management 
planning tools. Field User Evaluations and Initial Operational Test & 
Evaluations are scheduled for 1st Quarter fiscal year 2009, followed by 
fielding of the system and Initial Operating Capability during fiscal 
year 2009. Future blocks will focus on enhancing capabilities in the 
areas of warehousing, distribution, logistics planning, decision 
support, depot maintenance, and integration with emerging technologies 
to improve asset visibility.
Secure Internet Routing Protocol Network (SIPRNET)
    The Secure Internet Routing Protocol Network (SIPRNET) is our 
primary warfighting command and control network. The asymmetric nature 
of current attacks combined with future threats to our networks demand 
a greater reliance on the SIPRNET to ensure the security of Marine 
Corps warfighting and business operations. The Marine Corps is 
aggressively upgrading our existing SIPRNET capabilities and an 
expansion of our SIPRNET in the future will be necessary to meet 
operational demands. The resources required for this expansion will 
enable wider use of the SIPRNET across the Marine Corps as we 
transition more warfighting and business operations into a highly 
secure and trusted network.
Infrastructure Energy Considerations
    The purchase of electricity, natural gas, petroleum fuels, and 
potable water to operate our facilities is a significant expense. 
Through proactive Facilities Energy & Water Management and 
Transportation Programs to reduce consumption, we are achieving 
substantial cost avoidance and environmental benefits including 
reduction of greenhouse gas emissions and other pollutants. Our program 
provides the direction, actions, and metrics necessary for commands to:
  --Reduce rate of energy use in existing facilities;
  --Improve facility energy efficiency of new construction and 
        renovations;
  --Expand use of renewable resources;
  --Reduce water usage rates on our installations;
  --Improve security and reliability of energy and water systems; and
  --Decrease petroleum use through increased efficiency and alternative 
        fuel use.
    Marine Corps conservation efforts have been substantial, but 
installation energy and water requirements continue to increase as we 
increase our end strength and adjust to rising energy prices.

  PROVIDE OUR NATION A NAVAL FORCE FULLY PREPARED FOR EMPLOYMENT AS A 
                 MAGTF ACROSS THE SPECTRUM OF CONFLICT

    The enduring value of naval expeditionary forces in protecting our 
homeland, preventing crises, and winning our Nation's wars is a key 
theme of the recently signed maritime strategy entitled ``A Cooperative 
Strategy for 21st Century Seapower,'' the Naval Operations Concept, and 
the Marine Corps Operating Concepts for a Changing Security 
Environment. These documents acknowledge the uncertainty of the 
strategic environment and that winning the battle for influence--and 
thus preventing wars--is as important as our Nation winning wars. 
Influenced by a variety of geographic, diplomatic, and geographic 
factors, our country's access to strategic basing is in decline. Our 
strategies address the requirement to maintain a robust forcible entry 
capability: the ability to maneuver from the sea, gain and maintain 
access anywhere in the littorals as well as transition to operations 
ashore and sustain the force from the seabase. They provide a template 
for Maritime Service capability and capacity and underscore our Marine 
Corps-Navy warfighting interdependence.
    These concepts and strategies also incorporate hard-fought lessons 
from our current battles in Iraq and Afghanistan. Combat casualties 
have in a very real sense become a center of gravity for America--no 
matter what the cause or conflict. Therefore, ``increased risk'' and 
``slower response times'' must always be calculated in terms of their 
real costs--loss of life and materiel on the battlefield and then, 
potentially, the loss of support of the American people.
    Seapower is a distinct asymmetric advantage of the United States. 
For Marines, that asymmetric advantage includes Joint Seabasing, which 
allows us to maximize forward presence and engagement while ``stepping 
lightly'' on local sensitivities, avoiding the unintended political, 
social, and economic disruptions that often result from a large 
American presence ashore. It allows us to conduct a broad range of 
operations in areas where access is challenged, without operational 
commanders being forced to immediately secure ports and airfields. 
Given diplomatic, geographic, and infrastructure constraints, Seabasing 
is absolutely critical to overcoming area denial and anti-access 
weapons in uncertain or openly hostile situations. The combination of 
capabilities that allows us to influence events ashore from over the 
horizon--amphibious warfare ships, innovative Maritime Prepositioning 
Force (Future) ships, Joint High Speed Vessels, surface connectors, MV-
22s, and Expeditionary Fighting Vehicles--play a key role in 
surmounting access challenges.
    Seabasing is not exclusive to the Navy and Marine Corps--it will be 
a national capability. In fact, we view Joint Seabasing as a national 
strategic imperative. Just as the amphibious innovations championed by 
the Navy-Marine Corps team during the 1920s and 1930s were employed by 
all U.S. and Allied forces in every theater during World War II, we 
believe that the Seabasing initiatives currently underway will expand 
to become joint and interagency capabilities. Our control of the sea 
allows us to use it as a vast maneuver space--365 days a year. 
Seabasing allows us to project influence and expeditionary power in the 
face of access challenges, a distinct asymmetric advantage. These 
capabilities allow maritime forces to support our partners and to deter 
and defeat adversaries in a complex and uncertain future. Today, 
another generation of Naval planners continues to envision how our 
amphibious capabilities can evolve into more fully sea-based operations 
and better meet the Combatant Commanders' varied and competing 
requirements.
Amphibious Ship Requirements
    The maritime strategy advocates credible combat power as a 
deterrent to future conflict. The Marine Corps supports this capability 
through the flexibility and combat power of the Marine Air Ground Task 
Force embarked on amphibious warfare ships. By far the most complex of 
our congressionally-mandated missions, amphibious forcible entry 
requires long-term resourcing and a high-level of proficiency. It is 
not a capability that we can create in the wake of a threat.
    The characteristics of amphibious ships (their command and control 
suites, flight decks, well decks, air and surface connectors, medical 
facilities, messing and berthing capacity, and survivability) merged 
with the general-purpose nature of embarked Marines, make them multi-
mission platforms--unbeatable in operations ranging from humanitarian 
assistance to amphibious assault. These forces have brought hope and 
assistance to peoples ravaged by tsunamis, earthquakes, and cyclones--
even hurricanes in our own country. They have provided a powerful 
combat force from the sea as evidenced by the opening days of Operation 
ENDURING FREEDOM when Marines provided the first conventional forces 
ashore in Afghanistan. An equally powerful force assaulted from 
amphibious ships up the Al Faw peninsula in early weeks of Operation 
IRAQI FREEDOM. In spite of the proliferation of anti-access 
technologies among state and non-state actors, Navy-Marine Corps 
amphibious capabilities have answered our Nation's ``9-1-1 call'' over 
85 times since the end of the Cold War. Many international navies have 
recognized the value of amphibious warfare ships--as evidenced by the 
global renaissance in amphibious ship construction.
    Based on strategic guidance, in the last several years we have 
accepted risk in our Nation's forcible entry capacity and reduced 
amphibious lift from 3.0 Marine Expeditionary Brigade (MEB) assault 
echelons to 2.0 MEB assault echelons. In the budgetary arena, the value 
of amphibious ships is too often assessed exclusively in terms of 
forcible entry--discounting their demonstrated usefulness across the 
range of operations and the clear imperative for Marines embarked 
aboard amphibious ships to meet Phase 0 demands. The ability to 
transition between those two strategic goalposts, and to respond to 
every mission-tasking in between, will rely on a strong Navy-Marine 
Corps Team and the amphibious ships that cement our bond. The Navy and 
Marine Corps have worked diligently to determine the minimum number of 
amphibious ships necessary to satisfy the Nation's needs--and look 
forward to working with the Committee to support the Chief of Naval 
Operation's shipbuilding plans.
    The Marine Corps' contribution to the Nation's forcible entry 
requirement is a single, simultaneously-employed two Marine 
Expeditionary Brigade (MEB) assault capability--as part of a seabased 
Marine Expeditionary Force. Although not a part of the Marine 
Expeditionary Force Assault Echelon, a third reinforcing MEB is 
required and will be provided via Maritime Prepositioning Force 
(Future) capabilities. Each MEB assault echelon requires seventeen 
amphibious warfare ships--resulting in an overall ship requirement for 
thirty-four amphibious warfare ships. However, given current fiscal 
constraints, the Navy and Marine Corps have agreed to assume greater 
operational risk by limiting the assault echelon of each MEB by using 
only fifteen ships per MEB--in other words, a Battle Force that 
provides thirty operationally available amphibious warfare ships. In 
that thirty-ship Battle Force, ten aviation-capable big deck ships 
(LHA/LHD/LHA(R)) and ten LPD 17 class ships are required to accommodate 
the MEB's aviation combat element.
    In order to meet a thirty-ship availability rate--based on a Chief 
of Naval Operations-approved maintenance factor of 10 percent--a 
minimum of eleven ships of each of the current types of amphibious 
ships are required--for a total of thirty-three ships. The Navy has 
concurred with this requirement for thirty-three amphibious warfare 
ships, which provide the ``backbone'' of our maritime capability--
giving us the ability to meet the demands of harsh environments across 
the spectrum of conflict.
    Amphibious Assault Ship (Replacement) (LHA(R)).--The legacy Tarawa 
class amphibious assault ships reach the end of their service life 
during 2011-2015. The eighth Wasp class LHD (multi-purpose amphibious 
assault ship) is under construction and will replace one Tarawa class 
ship during fiscal year 2008. To meet future warfighting requirements 
and fully capitalize on the capabilities of the MV-22 and Joint Strike 
Fighter, two LHA(R) class ships with enhanced aviation capabilities 
will replace the remaining LHA class ships. These ships will provide 
enhanced hangar and maintenance spaces to support aviation maintenance 
and increased jet fuel storage and aviation ordnance magazines. We are 
investigating the feasibility of incorporating the reduced island 
concept and well-deck capabilities in future, general-purpose assault 
ship construction.
    Amphibious Transport Dock (LPD).--The LPD 17 San Antonio class of 
amphibious warfare ships represents the Department of the Navy's 
commitment to a modern expeditionary power projection fleet that will 
enable our naval force to operate across the spectrum of warfare. It is 
imperative that eleven of these ships be built to meet the minimum of 
ten necessary for the 2.0 MEB assault echelon amphibious lift 
requirement.
    The Navy took delivery of the first LPD 17 in the summer of 2005 
and operational evaluation is scheduled for Spring 2008. The LPD 17 
class replaces four classes of older ships--LKA, LST, LSD 36, LPD 4--
and will have a forty-year expected service life. LPD 17 class ships 
will play a key role in supporting the ongoing Long War by forward 
deploying Marines and their equipment to better respond to crises 
abroad. Its unique design will facilitate expanded force coverage and 
decreased reaction times of forward deployed Marine Expeditionary 
Units. In forcible entry operations, the LPD 17 will help maintain a 
robust surface assault and rapid off-load capability for the Marine Air 
Ground Task Force and the Nation.
The Maritime Prepositioning Force
    Capable of supporting the rapid deployment of three Marine 
Expeditionary Brigades (MEB), the Maritime Prepositioning Force is an 
important element of our expeditionary warfighting capability. MPF is a 
proven capability and has been used as a force deployment option in 
selected contingencies, to close forces on accelerated timelines for 
major combat operation, and in combination with amphibious forces to 
rapidly and simultaneously react to crises in more than one theater.
    The next and necessary evolution of this program is incorporation 
of the Maritime Prepositioning Force--Future (MPF(F)) Squadron into the 
existing MPF Program. MPF(F) is a key enabler for Seabasing and will 
build on the success of the legacy Maritime Prepositioning Force 
program. MPF(F) will provide support to a wide range of military 
operations with improved capabilities such as at-sea arrival and 
assembly, selective offload of specific mission sets, and long-term, 
sea-based sustainment. From the sea base, the squadron will be capable 
of prepositioning a single MEB's critical equipment and sustainment for 
delivery--without the need for established infrastructure ashore.
    While the MPF(F) is not suitable for forcible entry operations, it 
is critical for the rapid build up and sustainment of additional combat 
forces once our entry has been achieved by our assault echelon--
launched from amphibious assault ships. The MPF(F), along with two 
legacy MPF squadrons, will give the Marine Corps the capacity to 
quickly generate three MEBs in support of multiple Combatant 
Commanders. The MPF(F) squadron composition decision was made in May 
2005. That squadron is designed to consist of three aviation-capable 
big-deck ships, three large medium-speed roll-on/roll-off ships, three 
T-AKE supply ships, three Mobile Landing Platforms, and two dense-
packed container ships. All of these will be crewed by civilian 
mariners and, as stated earlier, are not designed to conduct forcible 
entry operations. The program is currently in the technology 
development phase of acquisition, with a Milestone B decision planned 
in fiscal year 2008.
    Mobile Landing Platform (MLP).--The MLP is perhaps the most 
flexible platform in the MPF(F) squadron. Designed to be the ``pier in 
the ocean,'' the MLP is an interface platform for other surface lift 
ships and vessels. Instead of ships and lighters going to a terminal on 
shore, they could transfer vehicles and equipment to and from the MLP. 
The ship is being designed to interface with MPF(F) Large Medium-Speed 
Roll-on/Roll-off ships through sea state four and accommodate Landing 
Craft Air Cushion operations in sea state three at a minimum. 
Additionally other service platforms could leverage the ship as an 
interface. In concert with the Navy, the MLP capabilities development 
document was delivered to the Joint Requirements Oversight Counsel in 
January 2007.
    Dry Cargo/Ammunition Ship (T-AKE).--The T-AKE is a selectively off-
loadable, afloat warehouse ship, which is designed to carry dry, 
frozen, and chilled cargo; ammunition; and limited cargo fuel. Key 
holds are reconfigurable for additional flexibility. It has a day/night 
capable flight deck. These ships can support the dry cargo and 
compatible ammo requirements of Joint forces and are the same ship 
class as the Combat Logistics Force T-AKE ships.
    Large Medium-Speed Roll-on/Roll-off (LMSR) Ship.--The LMSRs were 
designed to accommodate the Department of Defense's largest vehicles--
such as the Abrams Tanks, Rough Terrain Cargo Handler, and tractor 
trailers; this capacity is being leveraged to support Marine Corps 
vehicles and equipment. These ships, modified for MPF(F), will be very 
large, afloat equipment staging areas with additional capabilities 
including vehicle maintenance areas, berthing, ammunition breakout 
areas, two aviation operating spots, underway replenishment equipment, 
MLP interface, and a 113-ton crane capable of lifting vehicles or 
shipping containers. Importantly, they will also reduce strategic 
airlift requirements associated with our fly-in echelon.
Ship-to-Shore Mobility
    Historically, Marine Corps amphibious power projection has included 
a deliberate buildup of combat power ashore; only after establishment 
of a beachhead could the Marine Air Ground Task Force begin to focus 
its combat power on the joint force's operational objective. Advances 
in mobility, fires, and sustainment capabilities will greatly enhance 
operations from over the horizon--by both air and surface means--with 
forces moving rapidly to operational objectives deep inland without 
stopping to seize, defend, and build up beachheads or landing zones. 
The ability to project power inland from a mobile sea base has utility 
across the spectrum of conflict--from humanitarian assistance to major 
combat operations. The Expeditionary Fighting Vehicle, MV-22 Osprey, 
and CH-53K heavy lift helicopter are critical to achieving necessary 
capabilities for future expeditionary operations.
    High Speed Connectors.--High-speed connectors will facilitate 
sustained seabased operations by expediting force closure and allowing 
the necessary sustainment for success in the littorals. Coupled with 
strategic airlift and sealift assets, the Joint High Speed Vessel and 
Joint Maritime Assault Connector provide an intra-theater capability, 
which enables rapid closure of Marine forces and sustainment ashore. 
These platforms will link bases and stations around the world to the 
sea base and other advanced bases, as well as provide linkages between 
the sea base and forces operating ashore.

              TAKING CARE OF OUR MARINES AND OUR FAMILIES

    Our most precious asset is the individual Marine. Our Marines and 
families have been steadfast and faithful in their service to our 
country, and we have an equally enduring obligation to them. As such, 
we are committed to putting our family programs on a wartime footing--
our Marines and families deserve no less.
Putting Family Readiness Programs on a Wartime Footing
    Last year, we directed a rigorous assessment of our family programs 
and have aggressively moved forward to improve them at every level. We 
continue our assessments--targeting younger Marines and their families 
to ensure that we are fully addressing their needs. We request that 
Congress continue to support these initiatives so that we can advance 
these reforms to meet the evolving requirements of our warfighters and 
their families.
    Our Marine Corps Family Team Building Program and unit Family 
Readiness Programs, the centerpiece to our family support capability, 
was based on a peacetime model and 18-month deployment cycles. It was 
also largely supported on the backs of our dedicated volunteers; our 
volunteers have been performing magnificently while shouldering the 
lion's share of this program--but it is time to dedicate sufficient 
resources in light of the demands of our wartime operations.
    We have recently initiated a sustained funding increase to 
implement Marine Corps family readiness reforms in fiscal year 2008. 
These reforms include:
  --Formalizing the role and relationship of process owners to ensure 
        accountability for family readiness;
  --Expanding programs to support the extended family of a Marine 
        (spouse, child, and parents);
  --Establishing primary duty billets for Family Readiness Officers at 
        regiment, group, battalion, and squadron levels;
  --Improving the quality of life at remote and isolated installations;
  --Increasing Marine Corps Family Team Building installation 
        personnel;
  --Refocusing and applying technological improvements to our 
        communication network between commanders and families;
  --Dedicating appropriate baseline funding to command level Family 
        Readiness Programs; and
  --Developing a standardized, high-quality volunteer management and 
        recognition program.
    The Marine Corps continues its proud heritage of ``taking care of 
its own'' and ensuring family programs sustain our families and our 
Marines for the Long War.
Casualty Assistance
    Your Marines proudly assume the dangerous, but necessary, work of 
serving our Nation. Some Marines have paid the ultimate price, and we 
continue to honor them as heroes for their immense contributions to our 
country. Our casualty assistance program continues to evolve to ensure 
the families of our fallen Marines are always treated with the utmost 
compassion, dignity, and honor.
    Our trained Casualty Assistance Calls Officers provide the families 
of our fallen Marines assistance to facilitate their transition through 
the stages of grief. Last year, Congressional hearings and inquiries 
into casualty next-of-kin notification processes revealed deficiencies 
in three key and interrelated casualty processes: command casualty 
reporting, command casualty inquiry and investigation, and next-of-kin 
notification. These process failures were unacceptable. Instantaneous 
with discovery of the process failures, we ordered an investigation by 
the Inspector General of the Marine Corps and directed remedial action 
to include issuing new guidance to commanders--reemphasizing 
investigation and reporting requirements and the importance of tight 
links between these two systems to properly serve Marines and their 
families. We will continue to monitor our processes, making every 
effort to preclude any future errors and to ensure Marines and families 
receive timely and accurate information relating to their Marine's 
death or injury.
Wounded Warrior Regiment
    In April 2007, the Wounded Warrior Regiment was activated to 
achieve unity of command and effort in order to develop a comprehensive 
and integrated approach to Wounded Warrior care. The establishment of 
the Regiment reflects our deep commitment to the welfare of our 
wounded, ill, and injured. The mission of the Regiment is to provide 
and facilitate assistance to wounded, ill, and injured Marines, Sailors 
attached to or in support of Marine units, and their family members, 
throughout all phases of recovery. The Regiment provides non-medical 
case management, benefit information and assistance, and transition 
support. We use ``a single process'' that supports active duty, 
reserve, and separated personnel and is all inclusive for resources, 
referrals, and information.
    There are two Wounded Warrior Battalions headquartered at Camp 
Lejeune, North Carolina, and Camp Pendleton, California. The Battalions 
include liaison teams at major military medical treatment facilities, 
Department of Veterans Affairs Polytrauma Rehabilitation Centers and 
Marine Corps Base Naval Hospitals. The Battalions work closely with our 
warfighting units to ensure our wounded, ill and injured are cared for 
and continue to maintain the proud tradition that ``Marines take care 
of their own.''
    The Regiment is constantly assessing how to improve the services it 
provides to our wounded, ill, and injured. Major initiatives of the 
Regiment include a Job Transition Cell manned by Marines and 
representatives of the Departments of Labor and Veteran Affairs. The 
Regiment has also established a Wounded Warrior Call Center for 24/7 
support. The Call Center both receives incoming calls from Marines and 
family members who have questions, and makes outreach calls to the 
almost 9,000 wounded Marines who have left active service. A Charitable 
Organization Cell was created to facilitate linking additional wounded 
warrior needs with charitable organizations that can provide the needed 
support. Additionally, The Regiment has also strengthened its liaison 
presence at the Department of Veterans Affairs Central Office. These 
are just some of the initiatives that reflect your Corps' enduring 
commitment to the well-being of our Marines and Sailors suffering the 
physical and emotional effects of their sacrifices for our great 
Nation.
    We are at the beginning of a sustained commitment to care and 
support our wounded, ill and injured. As our Wounded Warrior Program 
matures, additional requirements will become evident. Your continued 
support of new legislation is essential to ensure our Wounded Warriors 
have the resources and opportunities for full and independent lives.
    Thank you for your personal and legislative support on behalf of 
our wounded warriors. Your personal visits to them in the hospital 
wards where they recover and the bases where they live are sincerely 
appreciated by them and their families. Your new Wounded Warrior Hiring 
Initiative to employ wounded warriors in the House and Senate 
demonstrates your commitment and support of their future well-being. We 
are grateful to this Congress for the many wounded warrior initiatives 
in the 2008 National Defense Authorization Act. This landmark 
legislation will significantly improve the quality of their lives and 
demonstrates the enduring gratitude of this Nation for their personal 
sacrifices. I am hopeful that future initiatives will continue to build 
upon your great efforts and further benefit the brave men and women, 
along with their families, who bear the burden of defending this great 
country.
Traumatic Brain Injury (TB I)
    With the frequent use of improvised explosive devices (IEDs) and 
improved protective measures that reduce mortality rates, more Marines 
are exposed to possible traumatic brain injuries. As with other poorly 
understood injuries, there is sometimes a reluctance by individual 
Marines to seek medical attention at the time of the injury. Education 
is the best way to reduce this stigma, and it is to be the most 
effective treatment for those suffering a mild injury. TBI awareness 
and education is part of pre-deployment and routine training. All 
Marines are being screened for TBI exposure during the post-deployment 
phase and those identified as injured receive comprehensive evaluation 
and treatment. A pilot program for baseline neurocognitive testing is 
being implemented to improve identification of TBI and maintain 
individual and unit readiness in the field. The Marine Corps continues 
to work closely with DOD's Center of Excellence for Psychological 
Health and Traumatic Brain Injury to continue to advance our 
understanding of TBI and improve the care of all Marines.
Post Traumatic Stress Disorder (PTSD)
    The Marine Corps Combat Development Command, Marine Corps Training 
and Education Command, Naval Health Research Center, and others are 
studying ways to identify risk and protective factors for Post-
Traumatic Stress Disorder (PTSD) and to increase our resilience to 
stress. By improving the awareness of both individuals and our leaders, 
we can provide early identification and psychological first aid for 
those who are stress-injured. Better screening and referral of at-risk 
Marines are underway via pre- and post-deployment standard health 
assessments that specifically screen for mental health problems. The 
Department of Veterans Affairs has established comprehensive guidelines 
for managing post-traumatic stress, which are available to all 
services.
    The Marine Corps is grateful for the effort Congress has put into 
making TBI, PTSD, and other-combat-related mental illness issues a top 
priority. We will continue to do the same so that we can further 
improve our knowledge and treatment of these disorders.
Combat and Operational Stress Control (COSC)
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our Marines, Sailors, and family members. Our 
commanders bear responsibility for leading and training tough, 
resilient Marines and Sailors, and for maintaining strong, cohesive 
units. Unit commanders have the greatest potential for detecting stress 
occurrences and assessing impact on warfighters and family members. Our 
leaders establish an environment where it is okay to ask for help and 
that combat stress is as deserving of the same respect and care as any 
physical wound of war. With the Navy's medical community, we are 
expanding our program of embedding mental health professionals in 
operational units--the Operational Stress Control and Readiness (OSCAR) 
program--to directly support all elements of the Marine Air-Ground Task 
Force. We also continue our collaboration with sister Services, the 
Department of Veterans Affairs' National Center for Post-traumatic 
Stress Disorder, and external agencies to determine best practices to 
better support Marines and their families.
Family Member Pervasive Developmental Disorders
    The effectiveness of Marines and Sailors during deployment is 
dependent upon the adequacy of support provided to family members at 
home. Children of Service members with special needs, to include 
pervasive developmental disorders, have additional medical, 
educational, and social needs that are challenging to meet even when 
both parents are available. The TRICARE Enhanced Care Health Option has 
not been able to provide sufficient support. To address this issue, the 
Marine Corps is working with the Department of Defense Office of Family 
Policy Work Group on examining options to expand its Educational & 
Developmental Intervention Services (EDIS), a program that delivers 
Early Intervention Services to eligible infants and toddlers in 
domestic and overseas areas as well as through Medically Related 
Service programs in Department of Defense schools overseas.
Exceptional Family Member Program (Respite Care)
    Parental stress can be heightened for families that are not only 
impacted by the current operational tempo but are also caring for a 
child with special needs. To focus on this need, we offer our active 
duty families enrolled in the Exceptional Family Member Program up to 
40 hours of free respite care per month for each exceptional family 
member. We seek to provide a ``continuum of care'' for our exceptional 
family members. In this capacity, we are using our assignment process, 
working with TRICARE and the Department of the Navy Bureau of Medicine 
and Surgery to expand access and availability to care, and providing 
family support programs to ease relocations and ensure quality care 
transitions.
Water Contamination at Camp Lejeune
    Past water contamination at Camp Lejeune has been and continues to 
be a very important issue for the Marine Corps. Our goal is, using good 
science, determine whether exposure to the contaminated water at Camp 
Lejeune resulted in any adverse health effects for our Marines, their 
families, and our civilian workers.
    The Marine Corps continues to support the Agency for Toxic 
Substances and Disease Registry (ATSDR) in their health study, which is 
estimated to be completed during 2009. With the help of Congress, the 
highly respected National Academy of Sciences is now helping us develop 
a way ahead on this difficult issue.
    The Marine Corps continues to make progress notifying former 
residents and workers. We have established a call center and 
notification registry where the public can provide contact information 
so that we can keep them apprised of the completion of these health 
studies.
     beyond the horizon--posturing the marine corps for the future
    History has proven that we cannot narrowly define the conditions 
for which our military must be ready. With little warning, our Nation 
has repeatedly called its Corps front and center. In the southern 
Pacific after Pearl Harbor, in Korea after the communist invasion in 
1950, in the mountains of Afghanistan after 9/11, and southern Asia in 
the wake of the catastrophic tsunami of 2004--to name a few. These 
strategic surprises demonstrate the broad range of possibilities for 
which the Marine Corps must be prepared.
    The United States faces a complex mix of states who sponsor 
terrorism, regional and rising peer competitors, failing states that 
undermine regional stability, and a variety of violent non-state 
actors--religious extremists, insurgents, paramilitary forces, pirates, 
and other criminals--all serving to destabilize legitimate governments 
and undermine security and stability of the greater global community. 
We see this global security context as a persistent condition for the 
foreseeable future.
    Our Nation and its international partners are engaged in a global 
struggle for influence at the same time our access to many areas is 
acutely challenged--diplomatically, militarily, and geographically. In 
the past, the United States has maintained large forces on a 
significant number of permanent bases beyond our shores. Today, 
however, we have far fewer installations overseas. When conflict is 
imminent or crises occur, which may require land-based forces, we must 
conduct extensive diplomatic negotiations to acquire basing rights. 
Because of local and regional political, social, or economic pressures, 
even countries friendly to the United States decline to host or place 
conditional restrictions on basing U.S. forces. Furthermore, 
proliferation of anti-access technology among state and non-state 
actors further diminishes access opportunities.
    Our national interests increasingly require us to operate in 
remote, developing regions of the world where infrastructure is either 
insufficient or rendered useless by natural disasters. The growing 
trend of violent, transnational extremism is especially prevalent in 
many of these remote areas. In addition to ethnic and religious 
intolerance, many developing regions are troubled with economic 
challenges and infectious diseases. These problems are especially 
severe in the densely populated urban centers common to the world's 
littorals, resulting in discontented populations ripe for exploitation 
by extremist ideologues and terrorist networks. We estimate that by the 
2035 timeframe, more than 75 percent of the world's population will 
live within just 120 miles of the ocean; alternative energy sources 
will not be mature, so industrial and, increasingly, developing nations 
will depend on the free flow of oil and natural gas. Fresh water will 
be as equally important as petroleum products; during the 20th century, 
while the global population increased 300 percent, the demand for water 
increased 600 percent. Demographics and the aging of the population in 
industrial countries, accompanied by a youth bulge in developing 
countries, will literally change the face of the world as we know it. 
The U.S. technological advantage, economic power, and military might 
still exceed that of other nations, but will not be nearly as dominant.
    Given these strategic conditions, the requirement for maritime 
forces to project U.S. power and influence has increased--and will 
continue to increase. With its inherent advantages as a seabased and 
expeditionary force, the Marine Corps can quickly reach key areas of 
the globe in spite of challenges to U.S. access. The Marine Corps and 
its naval partners will expand the application of seapower across an 
even wider range of operations to promote greater global security, 
stability, and trust--key objectives for winning the Long War. Our 
seabased posture will allow us to continue to conduct ``Phase 0'' 
operations with a variety of allies and partners around the world to 
ease sources of discontent and deter conflict. We must increase our 
capacity for these operations without forfeiting our warfighting 
prowess in the event of a major regional conflict. As a forward-
deployed force, we are able to achieve familiarity with various 
environments, as well as behavioral patterns of regional actors--
contributing to our significant advantage in speed and flexibility.
    Recently combat-tested in the Middle East and historically engaged 
in the Pacific, the Marine Corps will seek to further enhance its 
operational capabilities in the Pacific theater. Some areas like Africa 
offer unique challenges and opportunities for significant U.S. 
engagement. The shear breadth and depth of that great continent present 
their own challenges, but given the operational flexibility afforded by 
Seabasing and the extended reach of the MV-22 and KC-130J, the future 
bodes well for the ability of dispersed units of Marines--with 
interagency partners--to extend our partnerships within the continent 
of Africa.
Security Cooperation Marine Air Ground Task Force (MAGTF)
    The linchpin of future Marine efforts to support the engagement 
requirements of combatant commanders to build partnership capacity will 
be the Security Cooperation Marine Air Ground Task Force. Similar to a 
Marine Expeditionary Unit but regionally-focused and task organized for 
security cooperation, Security Cooperation MAGTFs will provide training 
and assistance to partner nations--shaping the environment and 
deterring irregular adversaries.
    The units comprising the Security Cooperation MAGTF are general 
purpose forces, which will maintain a foundation of excellence in 
combined arms and the full range of military operations. Additional 
training in culture, language, and foreign internal defense will 
further prepare these units for the unique tasks needed to train 
foreign militaries. Able to aggregate and dis-aggregate based on 
mission requirements, elements of the Security Cooperation MAGTFs will 
be capable of operating for sustained periods and will help prepare the 
militaries of partner nations to disrupt irregular adversaries and 
reduce the requirement for U.S. forces to be committed to these 
regions.
Defense Policy Review Initiative (DPRI) /Guam
    Our recent force posture agreement reached under the auspices of 
the Defense Policy Review Initiative with Japan is facilitating an 
opportunity to more effectively employ Marine Corps forces while 
mitigating the effects of encroachment around United States facilities 
in Japan. The most significant DPRI action is completion of the Futenma 
Replacement Facility on Okinawa. Its completion is a prerequisite for 
realignment of Marine units north of Kadena Air Force Base on Okinawa, 
shifting KC-130s from Futenma to Iwakuni, Japan, and movement of 
approximately 8,000 Marines and their family members from Okinawa, 
Japan, to Guam. The Government of Japan is prepared to bear much of the 
cost associated with the planned changes, but there are still 
significant remaining military construction and other infrastructure 
needs that require United States financial support. For the past two 
years, the Marine Corps has worked with numerous stakeholders to shape 
the eventual basing of forces onto Guam. The Department of Navy-led 
Joint Guam Program Office is leading the detailed facility-level 
planning effort to support the force buildup on Guam. The Marine Corps 
is working with Joint Guam Program Office, the Secretary of the Navy, 
and Commander, United States Pacific Command to ensure plans meet 
operational requirements.
Law of the Sea Convention
    To be able to maneuver from the seas in a timely and reliable 
manner, and in concert with the U.S. Navy, we support joining the Law 
of the Sea Convention. Joining the Convention will best preserve the 
navigation and overflight rights that we need to reliably maneuver and 
project power from the sea.
The Future of Training and Education
    With Marine forces so heavily engaged in counterinsurgency 
operations, we will have to take extraordinary steps to retain the 
ability to serve as the Nation's shock troops in major combat 
operations. Continued congressional support of our training and 
education programs will enable us to remain faithful to our enduring 
mission: To be where the country needs us, when she needs us, and to 
prevail over whatever challenges we face.
    The Long War requires a multi-dimensional force that is well 
trained and educated for employment in all forms of warfare. 
Historically, our Corps has produced respected leaders who have 
demonstrated intellectual agility in warfighting. Our current 
deployment tempo increasingly places our Professional Military 
Education (PME) programs at risk. No level of risk is acceptable if it 
threatens the steady flow of thinkers, planners, and aggressive 
commanders who can execute effectively across the entire spectrum of 
operations.
    Marine Corps University (MCU).--We have made substantial 
improvements in our Officer and Enlisted Professional Military 
Education (PME) programs and have significant improvements planned for 
the future. Marine Corps War College was the first senior Service 
college to be certified as Joint PME II and will soon undergo 
accreditation as part of the process for joint education accreditation 
by the Joint Staff. The Command and Staff resident and non-resident 
programs are scheduled for Joint PME I re-accreditation in September 
2008. We have integrated irregular warfare instruction throughout all 
levels of PME; at the same time, balance between irregular and 
conventional warfare has been maintained so as not to lose sight of our 
essential core competencies, including amphibious operations. 
Additionally, MCU has led the way for integration of culture and 
language by continually refining their curricula to provide proper 
balance among PME, culture, and language.
    Last year we conducted a comprehensive assessment of the health of 
PME. The assessment examined six areas: students, curriculum, 
educational programs, staff, infrastructure, and policy. We are working 
diligently to improve our information technology and infrastructure by 
developing a facility master plan to accommodate needed growth. We must 
develop an aggressive plan and commit resources for additional faculty, 
facilities, and resources. The assessment was informative--we have 
world-class students, curricula, and faculty as evidenced by Marines' 
performance on today's battlefields. With continued Congressional 
support, we can build our information technology and facility structure 
to match.
    Marine Corps Center for Lessons Learned.--Our Marine Corps Center 
for Lessons Learned applies lessons from operational experiences as 
well as those of the Joint Staff, other Services, and Joint Forces 
Command to guide efforts for ``fine tuning'' and transforming our 
force. This rapid, continuous process ensures the latest enemy and 
friendly tactics, techniques, and procedures are used in training and 
are part of the decision-making for institutional changes. In 2007, as 
result of these lessons learned, the Marine Corps implemented changes 
in pre-deployment training in such areas as detention operations; 
transition teams; interagency coordination of stability, support, 
transition, and reconstruction operations; irregular warfare; and the 
role of forensics in counterinsurgency operations.
    Center for Irregular Warfare.--In 2007, we established the Center 
for Irregular Warfare as the primary Marine Corps agency for 
identifying, coordinating, and implementing irregular warfare 
capability initiatives. The Center reaches out through the Center for 
Advanced Operational Culture Learning (CAOCL) and Security Cooperation 
Education and Training Center (SCETC) to other military and civilian 
agencies. Last year, the CAOCL expanded beyond pre-deployment unit 
training by offering operational culture, regional studies, and limited 
language courses for officer professional military education programs. 
Thus far, approximately 2,100 new lieutenants have been assigned 
regions for career long-term study through the regional learning 
concept, which will be expanded this year to include sergeants, staff 
sergeants, and captains. Both officer and enlisted Marines will receive 
operational culture education throughout their careers. We plan to have 
Language Learning Resource Centers at the eight largest Marine Corps 
bases and stations to provide local, on-call, operational language 
training. Congressional support, to include recent supplemental 
funding, has been invaluable.
    Since early 2006, our SCETC formalized our military advisor 
training process and trained over thirty transition teams in fiscal 
year 2007. In fiscal year 2008, the SCETC is scheduled to train over 
100 teams (over 2,000 Marine advisors) as well as stand up a Marine 
Corps Training Advisory Group to manage the global sourcing of future 
transition and security cooperation teams.
    Foreign Area Officers.--The Marine Corps has begun an expansion of 
its Foreign Area Officer (FAO) program in response to the wide-spread 
demand for language and cultural expertise for worldwide service with 
the Defense Attache System and combined, joint, and Service 
headquarters. As a result, the training of Marine FAOs will more than 
double in the near term. In addition to our traditional emphasis on 
Arabic, Russian, and Chinese, FAOs selected this year will learn more 
than a dozen different foreign languages, including Pashto, Hindi, 
Thai, French, and Indonesian.
Training Marine Air Ground Task Forces
    Operations in support of the Long War have significantly increased 
our training requirements. To meet deployment requirements and remain 
skilled in the full spectrum of operations, Marines must now train to a 
broader range of skills. However, due to high operational tempo, we 
face ever-decreasing timetables for Marines to achieve mastery of these 
skills. Our first major initiative to maximize effective use of limited 
time for training was the establishment of a standardized and well-
defined Pre-deployment Training Program. Subsequently, we have 
instituted two additional training efforts: the Marine Combat 
Operations Training Group and the Infantry Battalion Enhancement Period 
Program.
    Marine Corps Tactics and Operations Group (MCTOG).--We recently 
established the MCTOG to provide standardized training and instructor 
qualifications for ground combat elements, similar to our exceptionally 
successful Marine Aviation Weapons and Tactics Instructor Course in 
Yuma, Arizona. The MCTOG is developing and implementing a Ground Combat 
Element Operations and Tactics Training Program to provide advanced 
training in MAGTF operations, combined arms training, and unit training 
management and readiness at the battalion and regimental levels. We 
will improve unit preparation and performance by:
  --Providing focused, advanced instruction for key battalion and 
        regimental staff personnel, and
  --By assisting with the identification and vetting training 
        requirements and deficiencies for our ground combat elements.
    Located at Twentynine Palms MAGTF Training Center, the MCTOG will 
reach an Initial Operating Capability by Spring 2008 and a Full 
Operating Capability by Spring 2009.
    Marine Aviation Training Systems Program (ATS).--Marine Aviation, 
through Aviation Training Systems (ATS), is pursuing the development of 
fully integrated training systems at the post-accession aviation 
officer and enlisted level, to greatly enhance operational readiness, 
improved safety through greater standardization, and to significantly 
reduce the life cycle cost of maintaining and sustaining aircraft. ATS 
will plan, execute, and manage Marine Aviation training to achieve 
individual and unit combat readiness through standardized training 
across all aviation core competencies.
    29 Palms Land Expansion.--The Marine Corps currently lacks a 
comprehensive training capability to exercise all elements of a Marine 
Air-Ground Task Force (MAGTF) in an environment that replicates 
operational conditions with our current equipment--as our new weapons 
systems have greatly increased ranges over legacy systems. As a result, 
we are conducting planning studies for expansion of our range complex 
at the Marine Corps Air Ground Combat Center in Twentynine Palms, 
California. Implementing this action will involve acquiring land and 
seeking assignment of airspace by the Federal Aviation Administration 
in support of large-scale MAGTF live fire and maneuver training. This 
will give us the maneuver space to simultaneously train three to four 
battalions in the range complex and train with our current equipment. 
Our proposed complex will further facilitate the use of the Western 
Range Training Complex and lead to the capability for future large-
scale MAGTF, Coalition, and Joint National Training Center training.
    Modernization of Training Ranges.--In 2001, we activated a Range & 
Training Area Management Division, and in 2004, we began a 
comprehensive investment program to sustain, upgrade, and modernize our 
training infrastructure. This modernization effort provides tools for 
better planning and execution of live training. The four principles of 
our program are:
  --Preserve and enhance our live-fire combined arms training ranges. 
        The full development of our doctrine and the integrated 
        employment of air and ground weapons will continue to require 
        access to the volume of land and air space available at these 
        larger installations.
  --Recapture the unit-training capabilities of the Nation's two 
        premier littoral training areas, Camp Lejeune and Camp 
        Pendleton. The transition of expeditionary combat power from 
        sea to shore remains among the most challenging of military 
        tasks, and we must reorient and update our training 
        capabilities.
  --Provide timely and objective feedback to Marines who are training. 
        Proficiency with individual weapons and in combined-arms 
        requires that we provide venues that have the air and land 
        space to allow realistic employment and the instrumentation and 
        targetry to provide objective, actionable feedback.
  --Ensure our complexes are capable of supporting joint forces. Common 
        range infrastructure and systems architecture to support the 
        joint national training capability are requirements of our 
        modernization program.
  --The range modernization program is a program of record and has 
        successfully programmed the resources to continue operating and 
        maintaining the many investments made with supplemental and 
        congressional-add funds.
Core Values and Ethics Training
    As part of our ethos, we continually seek ways to improve ethical 
decision-making at all levels. In 2007, we implemented the following 
initiatives to strengthen our Core Values training:
  --Tripled the amount of time Drill Instructor and recruits conduct 
        ``foot locker talks'' on values;
  --Institutionalizing habits of thought for all Marines operating in 
        counterinsurgencies, the message of the importance of ethical 
        conduct in battle, and how to be an ethical warrior is being 
        strengthened and re-emphasized at all levels of the Marine 
        Corps;
  --Published pocket-sized Law of War, Rules of Engagement, and 
        Escalation of Force guides;
  --Increased instruction at our Commander's Course on command climate 
        and the commander's role in cultivating battlefield ethics, 
        accountability, and responsibility;
  --Educated junior Marines on the ``strategic corporal'' and the 
        positive or negative influence they can have; and
  --Re-invigorated the Values component of our Marine Corps Martial 
        Arts Program, which teaches Core Values and presents ethical 
        scenarios pertaining to restraint and proper escalation of 
        force as the foundation of its curriculum.
    We imbue our Marines with the mindset that ``wherever we go, 
everyone is safer because a U.S. Marine is there.''

                               CONCLUSION

    The Marine Corps continues to create a multi-capable force for our 
Nation--not only for the current operations in Iraq and Afghanistan, 
but also for subsequent campaigns of the Long War. We are committed to 
ensuring we remain where our country needs us, when she needs us, and 
to prevail over whatever challenges we face. Your continued support has 
been critical to our readiness for today and adaptation for tomorrow. I 
promise you that the Corps understands the value of each dollar 
provided and will continue to provide maximum return for every dollar 
spent.
    Perhaps most importantly to keep in mind as we develop our force 
for the future, everything we read about the future indicates that 
well-trained, well-led human beings with a capacity to absorb 
information and rapidly react to their environment have a tremendous 
asymmetric advantage over an adversary. Ladies and gentlemen, that 
advantage goes to us. Our young Marines are courageous, willing to make 
sacrifices and, as evidenced by our progress in Al-Anbar, capable of 
operating in complex environments. Quiet in their duty yet determined 
in their approach, they are telling us loud and clear that wherever 
there is a job to be done, they will shoulder that mission with 
enthusiasm. On behalf of your Marines, I extend great appreciation for 
your support thus far and thank you in advance for your ongoing efforts 
to support our brave service men and women in harm's way.

    Senator Inouye. I thank you very much, Commandant. I'd like 
to begin my questioning with you, sir.

                           MARINE CORPS FORCE

    At the present time, there are 350 marines and marine 
reservists in Afghanistan, and you recently announced that 
you'll be adding 3,200 marines to Afghanistan. In addition to 
this, there are 25,300 marines and marine reservists deployed 
in Iraq, and added to that, you have your commitments in the 
Horn of Africa, Kuwait, and other locations. And this from a 
small number of 189,000. How will this additional 3,200 
deployed in Afghanistan impact your organization?
    General Conway. Sir, the impact is significant, and I would 
add, just in recent days, that number of 3,200 has actually 
grown to some 3,400 because of requirements that we see with 
regard to the battalion, the marine battalion, 2d Battalion, 
7th Marines. It will be dropped down into some very bad-guy 
country. And to that regard, we saw the need for a couple of 
more people--a couple hundred more people--with special 
capabilities.
    But, to get at the essence of your question, it will keep 
us at what we call surge capacity, that is one-to-one 
deployment to dwell, or worse, in some cases through October of 
this year. It's not something that we like to do. We have told 
the Secretary, in his judgment, that we need that force to 
respond to the request for forces that came from both 
Afghanistan and CENTCOM, that in a very real sense, we're 
taking one for the team because we were not able to raise the 
force elsewhere. But the fact is, we believe that there's an 
important time window there. I think my marines feel like it is 
a very worthwhile mission, they said as much when I spoke to 
them in Afghanistan. And through October, I think we'll be able 
to bear up under that increased stress that the service will 
experience.
    Senator Inouye. How much more do you think you'll be adding 
to your force?
    General Conway. In terms of--in what, capacity, sir? If I 
could ask for a clarification?
    Senator Inouye. The number of marines. You have plans to 
add an additional 27,000.
    General Conway. Yes, sir.
    Senator Inouye. Through 2011.
    General Conway. Yes, sir. Sir, we will grow to 202,000 
marines, as I referenced in our opening statement, we are ahead 
of our program.
    We thought we would originally grow to about 189,000 this 
year, that's roughly 5,000 for each of the first couple of 
years. We're ahead of that schedule, and we think we can stay 
ahead of it this year.
    So, our target is actually something closer to 192,000 
marines. And, of course what that means on the deck, is the 
creation of new units to put against, especially, some of our 
low-density, high-stressed organizations, to be able to do 
something about this deployment-to-dwell.
    Senator Inouye. Thank you very much.

                                DDG 1000

    I'd like to ask the CNO, the DDG 1000 program that you 
spoke of has been in development in one form or another since 
the 1990s, to address the land attack requirements. The number 
of ships the Navy plans to buy has declined to seven. The cost 
estimates of the first of these new destroyers have increased 
to at least $3 billion apiece. Can you explain where the DDG 
1000 fits into the future of the surface Navy, and do you 
believe this is the right ship?
    Admiral Roughead. Senator, the DDG 1000, as you've said, 
has been some time in coming. But what the DDG 1000 brings to 
our Navy and the two ships that we put on contract recently, is 
the introduction of new technologies that will be very 
important to how we go forward.
    In most instances, when we introduce a new class of ship, 
there are only a couple of new advances on those ships. In the 
case of the DDG 1000 there are about 10.
    The one that is most important, I believe, for the future 
of our Navy, is the effort that has been put into the design, 
that brings the crew size of these very complex ships down to 
numbers that we have never seen before. So, I believe that is 
absolutely a critical step forward for us, in the DDG 1000.
    With regard to the reduced number of ships that we have in 
this year's proposed budget, that's really being driven by not 
having four littoral combat ships in there, because of some of 
the issues we've been facing with that program.
    But I do believe that both of these ships portend the Navy 
of the future. In the case of the littoral combat ship, it's 
not as if we're replacing a capability we already have. We have 
gaps in our ability to operate in the littoral areas, and that 
is something that we must have for the future, in my 
professional opinion.
    The DDG 1000 will bring the longest-reach shore-fire 
support gun that we've ever had, but most importantly, the DDG 
1000 brings the technologies that will shape our Navy for the 
future.
    Senator Inouye. Mr. Secretary, I presume you agree with 
that?
    Dr. Winter. Most definitely, sir. I think that the addition 
of the DDG 1000 has been well-thought out. As you pointed out, 
it's been under development for a number of years. We've made 
significant investments in the technology developments that 
underpin this new vessel. We've had more engineering 
development models on this particular vessel than we've ever 
had before, we've also gone, to a much greater degree, of 
detailed design prior to the signing of the contract and start 
of construction than we ever have before. So, I'm comfortable 
that we're proceeding on a well-thought out process here.
    At the same time, as the CNO pointed out, DDG 1000 by 
itself does not solve the future surface Navy issues. There 
were many other issues--not the least of which--is the littoral 
combat ship.

                          LITTORAL COMBAT SHIP

    We have adjusted the pace of acquisition there, from one 
that proved to be too aggressive and too fast, to one that I 
believe is more appropriate to the development of a new class 
of vessel. That development is now proceeding along a well-
established route. We have good progress being made on both of 
the individual vessels, the hulls. And we're also having 
exceptionally good development on mission modules that will 
support that particular activity.
    We will, even with this slower acquisition of the LCS, 
still have the desired number, 55, as part of the target 313 
ships that we will achieve in the 2019 time period. So, I'm 
very comfortable with the acquisition process, and the budget 
that's been laid out for that.
    Senator Inouye. So, you're comfortable and you're pleased 
with the present progress of the LCS?
    Dr. Winter. I look at it very carefully. I'm never pleased 
by any of these development activities, but I think that 
recognizing the amount of new development that is associated 
with this new vessel, that we're making good progress there, 
and I'm pleased to see that progress continuing to be made.
    I'm also particularly pleased, I will note, to see that 
we're able to bring along the mission modules, as well. We have 
taken delivery already on the first of those modules, the mine 
warfare module, the first of the mine warfare modules, and we 
expect to take delivery of the first of the surface warfare in 
the first of the ASW modules later this year.
    Senator Inouye. Thank you very much.
    Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman.

                     NNMC BETHESDA AND WALTER REED

    Secretary Winter, we've been told that the Navy has 
announced now its award to rebuild Walter Reed at Bethesda. You 
will be in charge of that, right?
    Dr. Winter. Yes, sir.
    Senator Stevens. Do you know what the total cost of that 
is?
    Dr. Winter. The current estimate cost is a little over $900 
million, sir. I can get you the exact figure if you'd like.
    [The information follows:]

    The current estimate to rebuild Walter Reed at Bethesda is 
$939.6 million. Detailed cost information follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                   Construction Description                       Cost
------------------------------------------------------------------------
Medical Center Addition, Alteration, and Parking Garage......      697.5
Warrior Transition Unit Administrative and Building 17             101.0
 Renovation for non-clinical administration..................
Warrior Transition Clinical Space............................        3.2
Facilities for the Warrior Transition Unit/Brigade (including      134.4
 renovation of Comfort Hall BEQ, Parking, a Fitness Facility,
 Dining Facility, and other Billeting).......................
Additional Planning and Design costs in fiscal year 2008.....        3.5
                                                              ----------
      Total Estimated Cost...................................      939.6
------------------------------------------------------------------------

    Senator Stevens. There's a base realignment and closure 
(BRAC) deadline on that, is there?
    Dr. Winter. There is a BRAC deadline, there is also an 
acceleration of the activity that we have committed to. The 
cost growth is, in part--a small part--due to the acceleration 
process. There are also additional costs associated with the 
significant expansions that we have made to the plans for the 
integration of these two great facilities, to ensure that they 
truly represent a world-class medical treatment facility for 
all of our servicemembers.
    Senator Stevens. Well, the subcommittee will probably be 
disturbed with me, because I felt the same way about moving the 
installations from Germany to Italy. We moved two massive 
installations out of Germany, down to Italy, now we're going to 
replace Walter Reed--which is still functioning--all during 
wartime. Do you think this is the right time to be doing that?
    Dr. Winter. Sir, we've made a priority to ensure that the 
continuity of care for all of those who are treated at Bethesda 
is maintained during this process. That has been a major 
priority that has been established for the architects and 
engineers that are going through the overall development 
process.
    Senator Stevens. Well, respectfully, Walter Reed has been 
considered an Army facility.
    Dr. Winter. Yes, sir.
    Senator Stevens. But the Navy is going to take it over?
    Dr. Winter. Well, sir, it's going to be worked as a joint 
activity. We have the responsibility for the facilities 
implementation of the joint activity, here.
    Senator Stevens. All right, well put me down as one who 
disagrees, but it doesn't do any good. I just think that it's 
the wrong time to be doing that, and that the Army ought to 
have its facility, just as the Navy has had its, over the 
years.

                                  V-22

    General Conway, the V-22 Osprey squadron was deployed last 
year, as you know, I had the honor to be the first member of 
the Congress to fly that--how did it do?
    General Conway. Sir, they're about 2 months from coming 
home from that 7-month deployment, I've made it a point to 
visit with them both times that I've been in-theater while 
they've been over.
    I will tell you, sir, you're asking the question because we 
have purposefully suppressed information coming out of the 
theater until such time as the deployment is over. But the fact 
is, they're performing very, very well. They've flown over 
2,700 hours with the aircraft without incident, they're 
performing all manner and function of missions of the aircraft 
that the Osprey is replacing--the venerable old CH-46 and the 
CH-53 Delta.
    It cruises at 13,000 feet, well above the small arms and 
the rocketry that have taken down other of our aircraft. It 
cuts the time one-half to one-third, that it takes to transit 
in and around the theater. It's performing very, very well, 
sir, on the first-time deployment of an aircraft in combat, to 
a very austere environment.
    Senator Stevens. Well, the chairman and I caught a little 
hell over that--keeping that alive, as you recall. And so many 
people--after the instance occurred in its initial operation, 
wanted to retire it. I'd just put in a request that when they 
do get back that we can get a de-brief from those guys as to 
how it really functioned. I thought--we thought--that was 
absolutely a necessary system for the marines, and I'm glad to 
hear that.
    General Conway. Appreciate your support, sir. And we have 
that as a takeaway.

                      MARINE CORPS GROW THE FORCE

    Senator Stevens. Tell me, you're trying to accelerate 
growth, and I hope that you understand what I'm saying--this is 
to appear to continue the engagement, now how does that work 
out? It takes some period of time before you can deploy those 
people, doesn't it?
    General Conway. Yes, sir, it does. And what happens, sir, 
is that as we grow the force, our initial targets were, again, 
those low-density, high-use MOS fields that are being most 
stressed in our Corps. It takes time to get those marines 
recruited, through their entry-level training, into their MOS 
schools, mated with the right equipment and so forth.
    But, in the case of two of the three infantry battalions, 
Senator, that we have grown--those people are already scheduled 
to go to Iraq.
    So, the process is underway, it is working very well. As I 
mentioned in my opening statement, we're seeing no diminution 
in terms of quality of the marines that are joining us, and 
it's working very much like we would have hoped, again, or even 
in excess of goals, compared to where we thought we would be 
today.
    Senator Stevens. Do you have the resources to do that, 
while the war is going on?
    General Conway. Sir, we have had augmentation through 
supplementals, in terms of resources required. We hope that for 
this year, for 2009, that it will go into a baseline budget, so 
that we will have that money--that available money, then--to 
continue to work as we continue to grow the force.
    We are somewhat behind, as you might imagine, with regard 
to the infrastructure. The infrastructure has not caught up to 
the increased growth, or even the advanced pace of our growth, 
and in a coarse sort of way, the fact that we have so many 
marines deployed is helping us in that capacity, because we 
don't have to create so many temporary structures.
    Senator Stevens. You're talking about facilities here, at 
home, to house them, when they come home?
    General Conway. Precisely, sir. Facilities, ranges, 
equipment--those types of----
    Senator Stevens. I've got to get you up to Alaska, and let 
you look around.
    General Conway. I'd love to do that, sir.
    Senator Stevens. Secretary Winter, is that right? Is the 
money in here to handle the scope for the marines?
    Dr. Winter. Yes, Senator. And, in particular, just to 
parlay on with the Commandant's comments about the facilities, 
we have put additional resources into the budget to accelerate 
the construction of the new barracks. We expect to be able to 
have all of the barracks for the previous force by 2012, with 
the additional force being accommodated by 2014.
    In the interim, we're doing two things to accommodate the 
additional personnel, one of which has to do with the use of 
temporary facilities, which are being constructed rapidly at 
the required locations, and there is also some activity going 
on to retrofit and improve some of the older facilities to 
ensure they're able to accommodate the marines.

                                  GUAM

    Senator Stevens. Is part of that at Guam?
    Dr. Winter. Not yet, sir. But, in Guam, we have a major 
activity going on associated with the planning of the move from 
Okinawa to Guam of the marines, about 8,000 marines there.
    Right now, the activity is focused in two areas, one of 
which is the Military Master Plan for Guam, and the other is 
the associated environmental impact statement (EIS) that needs 
to be established prior to the start of construction in Guam.
    Senator Stevens. Thank you.

                            MARITIME PATROL

    Admiral Roughead, you mentioned, I think, your top unfunded 
priority for 2009 is for critical maritime patrol improvements. 
I don't quite understand--what is that funding and how does it 
relate to the maritime domain awareness initiative?
    Admiral Roughead. Senator, the top unfunded requirement 
applies to our P-3 maritime patrol airplanes, which have been 
used extensively in the Central Command area of operations, 
because of their very, very good intelligence, surveillance, 
and reconnaissance capability.
    Senator Stevens. Is that in the drug area?
    Admiral Roughead. No, sir. They're being used in combat 
operations in Iraq and Afghanistan.
    Senator Stevens. You have a replacement P-3 coming yet?
    Admiral Roughead. Yes, sir, we do. We have the new P-8, 
which is moving along quite nicely, that program is doing well, 
and it will make its initial operational capability (IOC) in 
2013. But going back to the P-3s, we have detected cracking in 
the wings, because they have been flown far in excess of what 
their flight life was projected to be. And the additional 
funding that we will seek is for repairs to those wings.
    We've grounded 39 airplanes, 28 of which are deployed, 
which represents about----
    Senator Stevens. P-3s, or----
    Admiral Roughead. These are the P-3s that we've had to 
ground. That represents about one-quarter of our Maritime 
Patrol Force.
    Senator Stevens. When will the nines be delivered?
    Admiral Roughead. I'm sorry, sir?
    Senator Stevens. When's the replacement?
    Admiral Roughead. Replacement will IOC in 2013. Their 
initial operational capability will be in 2013.
    Senator Stevens. Are these going to get you through to that 
time?
    Admiral Roughead. Yes, sir, we will--we have a plan for the 
re-winging of the affected airplanes, and they--we will 
diminish our inventory as we work our way through that. It is a 
rather lengthy process to make the repairs on the P-3s, but 
that's why I've placed it so high on the priority list.
    Senator Stevens. Well, thank you very much. I manage a bill 
on the floor, I'm going to have to leave. I'll tell you, to us 
from the World War II era, we are really honored to be able to 
work with you in this generation as we've got now. They are all 
volunteers, they're the new greatest generation. They'll go 
down in history, I think, in a way that will be very favorable 
to them. They've taken on every task and done well.
    And despite the horrors of some of these engagements, their 
enlistments are increasing. So, I think we really owe a debt of 
gratitude, the whole country, to this new generation.
    Thank you very much, Mr. Chairman.
    Dr. Winter. Thank you, sir.
    Admiral Roughead. Thank you, sir.
    Senator Cochran. Mr. Chairman.

                                 LPD-17

    Mr. Secretary, we noticed that the LPD-17 amphibious ship 
is at the top of the Marine Corps unfunded program list, and 
it's also on the Navy's unfunded list. And this, I guess, in 
parlance means these are important. These are some of the most 
important requests being made for funding.
    And I wonder if you would agree that if LPD-26 was to be 
funded in fiscal year 2009 would it provide the needed war 
fighting capability to the fleet at the earliest opportunity? 
And would it take advantage of the learning curve effect found 
in continuous production?
    Dr. Winter. Thank you for your interest, sir, in our 
shipbuilding activities, and LPD, in particular.
    I think as you noted, appropriately, the LPD requirement 
has become a significant issue, both for the Marine Corps, and 
for the Navy. We accept the established requirement now for 11 
operational LPDs, and recognize that it has got to be part of 
what we eventually develop as our integrated fleet plan.
    At that point in time, we have nine LPDs in the fleet. We 
have six of the older Austin class, and three of the new San 
Antonio class, that have all been commissioned.
    We also have six additional LPD-17s, the San Antonio class, 
that have been ordered. Four of those six are under 
construction. The two that have been more recently ordered, the 
ones in the last 1\1/2\ years, have not yet started 
construction, which is to say, their keels have not been laid.
    We have several mechanisms of ensuring that we're able to 
get to, and maintain, 11 LPDs over the period of interest 
associated with the 30-year shipbuilding plan. We're currently 
going through an evaluation of that, as part of our POM 2010 
evaluation, and I think we'll be able to lay out an appropriate 
course of action, here as part of the 2010 build that will 
establish an appropriate mechanism of ensuring that we get to 
the desired fleet.
    Senator Cochran. Thank you.
    Admiral Roughead, I know that you are aware that cost 
increases and delays in scheduling in several programs have had 
an impact--adverse impact--on Navy shipbuilding plans, and 
adjustments are necessary. But it's a concern that's been 
brought to my attention that $1.6 billion has been moved away 
from new ship construction for fiscal year 2009 and that could 
have been used to fund the 10th LPD-17 requirement. What is 
your observation?
    Admiral Roughead. Well, Senator, when we put together the 
plan for our current shipbuilding plan for the future, 
balancing all of the other requirements that the Navy is doing, 
and other future needs that we have, the decision was to submit 
the plan as it is currently constructed--with the seven ships 
in there--and to hold off on the 10th LPD.
    I believe that is the best way forward to apportion the 
resources that we have and still fulfill the needs of building 
the fleet for tomorrow.
    Senator Cochran. Thank you.

                     JOINT HIGH SPEED VESSEL (JHSV)

    General Conway, the Navy's budget request includes the 
first procurement of the joint high speed vessel. I understand 
these vessels are highly flexible and adaptable to a variety of 
missions, they're faster and can operate in shallower and more 
austere ports than larger vessels. Would you advise us how you 
plan to use these vessels, and how important is funding this 
program to the global war on terrorism?
    General Conway. Sir, we see a significant use for these 
joint high-speed vessels. Senator Stevens referenced Guam a 
moment ago--when we move to Guam--assuming that negotiations 
work out and that it happens in the vicinity of 2014 or so, 
Guam will not offer the training opportunities that we 
currently have on Okinawa, so as part of the planning that the 
Secretary of the Navy spoke to was looking elsewhere in the 
Pacific basin, immediately in the vicinity of Guam, the 
Marshall and Palau Islands, to determine what training 
opportunities exist there.
    And we're also in discussion with the Australians--of 
course, we have some training opportunity in Korea, we have 
training opportunity on mainland Japan, we'd like to expand the 
opportunities with the Philippines--all of that requires inter-
Pacific transit kind of capability. And we think the JHSV, in 
addition, perhaps, to some amphibs, could very well satisfy 
those types of requirements.
    That's just one potential use. The qualities of the vessel 
that you mentioned open up another whole panorama of 
opportunities to getting to locations we might not otherwise be 
able to go with small numbers of marines aboard those high 
speed vessels.
    We have some concern about their ability to operate in 
rough seas, and we hope that engineering and so forth, will 
overcome some of those shortfalls, and make them fully capable 
over a wide spectrum of sea states.
    Senator Cochran. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, General Conway, Admiral, 
Secretary.

                     NNMC BETHESDA AND WALTER REED

    First of all, we feel very close to the Navy. We have the 
Naval Academy in our State, we have Bethesda Naval which has 
been talked about, Patuxent River, and of course the marines, 
the marines that are a favorite everywhere.
    My question is going to go to family readiness and the 
family support services, but first, one quick word about 
Bethesda Naval.
    I understand the concern of Senator Inouye, but as I 
understand, the intellectual underpinnings of merging Bethesda 
with Walter Reed is, the marines are an expeditionary force. 
The kinds of wounds of war that they endure parallel what our 
Army also endures from improvised explosive devices (IEDs) to 
traumatic brain injury, to those permanent wounds of war. So 
there's a symmetry now. And I think that's the intellectual 
underpinning of working together.
    What I'm excited about, Mr. Chairman, and I'm sorry that 
Senator Stevens had to go, is that Bethesda Naval-Walter Reed 
is directly across the street from the National Institutes of 
Health (NIH). It's right across the street, too, from the 
Institute of Medicine, and then you have the military medical 
school in the same campus as this. So, we have the possibility 
for incredible new thinking, new ideas, the training of the 
next generation of physicians, doctors, nurses, with the best 
ideas coming out of military medicine, as well as civilian 
medicine.
    Am I right about what you anticipate as the symmetry of 
this? Knowing Walter Reed is an icon, world-known, did not seek 
this, but what it is, is that we think it could be really of 
stunning quality to serve our marines and our naval forces.
    Dr. Winter. Yes, Senator, I believe that the structure that 
we're building right now at Bethesda is intended to provide the 
Centers of Excellence that really are critical, that have been 
defined, recognizing the types of injuries that we see amongst 
all of our servicemembers that have been deployed overseas.
    There are some unique issues, traumatic brain injuries, and 
post-traumatic stress disorders (PTSD) that really require some 
new developments, and require the integration, if you will, of 
a diverse set of clinical and nonclinical specialists. Having 
that all together at one location at Bethesda, gives us the 
ability to leverage the totality that's available within the 
growing medical community of Maryland. And I look forward to 
the ability that the conglomeration, that integrated capability 
will be able to provide for our medical service personnel.
    Senator Mikulski. Well, we want to continue to work with 
you. What we're concerned about is the ability for State and 
local infrastructure, namely that with all those geniuses I 
just described, they could all be at the same traffic light at 
the same time, on Wisconsin Avenue, all calling me. And I'm 
going to say, but they do call me when they're all at the 
traffic light at the same time. So, we look forward to our 
physical infrastructure.
    Dr. Winter. Senator, we're taking the issues there 
associated with the road, and access, very seriously. It's a 
major part of the environmental impact study that we are 
working through right now, and I fully expect that we will be 
able to provide appropriate mechanisms of mitigating all of 
those----
    Senator Mikulski. And I'd like to talk with you more about 
it, if I may.
    Dr. Winter. I'd be pleased to, ma'am.

                        FAMILY SUPPORT SERVICES

    Senator Mikulski. If I could change to both the Marine 
Corps and the Navy and the family support services.
    General Conway, I was so pleased to hear what you said 
about the Family Readiness Programs, and the reliance of the 
marines on volunteers. You've all been very creative, and 
whether it's the young marine--I've heard anecdotal information 
about how in California you're in something called ``Boot Camp 
for Dads,'' it's a weekend program for new fathers, to learn 
what to do with a baby, and you even do, kind of manly things 
like, you hold a baby like a football, just don't toss him or 
run with them--but really, in ways that help these modern men, 
who need to be involved with their families.
    But then when you get that pre-deployment and post-
deployment program--we cannot do this on volunteers. We note 
that you've added about $400,000 to a $30 million program--
could you share with us, now, with the intensity of the 
deployments, certainly the Marine Corps rest time is better 
than the Army--how you see what you need to do to keep that 
spirit of volunteerism that's been a characteristic of 
supporting a marine and his family, or her family, and what you 
need to bring to this to really help them in pre-deployment, 
and also the reintegration when they come back home, with 
spouses, with children, ironing out what might have been 
financial wrinkles that have developed--things along those 
lines.
    General Conway. Yes, ma'am, I'd be happy to.
    Senator Mikulski. As well as the very crucial, important 
medical services.
    But, as you know, the social fabric, often, of a family has 
been worn and tattered during deployment time.
    General Conway. Yes, ma'am.
    I would highlight one thing, ma'am. We're very proud of our 
contribution to this war, and it equates to, essentially, what 
the U.S. Army is doing, as well. In a 28-month period, a 
soldier will be deployed for 15 months, home for 12--that's a 
27-month period. In a 28-month period, a marine will be gone 
for 14, home for 14. So, it balances out over time, even though 
you are correct, our deployment cycle is very different. And 
the marines prefer the 7-month deployments, quite frankly.
    In terms of what we've done with our family programs, we 
have had some global war on terrorism monies as sort of a 
windfall for this year, and we hope now, for next year. We're 
using those monies to enhance our child care, which is the 
number one demand coming from our families--in really, all of 
our bases and stations. We're including some respite care in 
that as well, in some of our exceptional family member 
programs.
    But, what we're doing, essentially, is trying to 
professionalize where we have relied on volunteers in the past. 
That is, in no way, demeaning what our volunteers have given.
    Senator Mikulski. What does that mean?
    General Conway. Well, ma'am, every unit, battalion size, 
squadron size, or larger has a family readiness officer. That 
family readiness officer has been a volunteer in seasons past, 
and that person normally was a spouse from the deploying 
battalion or squadron. Their duties were all-encompassing--
create the organization, create the notification chains, stay 
current with information, do the socials, take care of 
families----
    Senator Mikulski. And they did it on their own time?
    General Conway. Absolutely.
    Senator Mikulski. And in many instances, their own--I mean 
the families, where the families raised money----
    General Conway. Absolutely.
    Senator Mikulski. You know, we'll call it the ``bake sale'' 
way of----
    General Conway. Yes, it was very much a bake sale kind of 
operation. And we have simply now been able to one, put more of 
our own budget against that, but also, again, through the 
benefit of some of the GWOT monies, enhance those efforts to 
where--we still have volunteers, and it's still an absolute 
requirement for some of what we do. But not nearly on the scale 
that we have previously relied on, over the past 4 years.

                            FAMILY READINESS

    Senator Mikulski. So, now--is this true, then, in every 
marine base, you will have, then, someone in charge of these 
efforts, whose full-time duty is that?
    General Conway. Yes, ma'am.
    Senator Mikulski. And it will be a paid person? Because 
volunteer, you still--we know this even from the nonprofits 
sector. Volunteers are great, but you need paid professional 
staff to know how to organize--first of all, to create, 
develop, and organize what is needed.
    General Conway. I would asterisk your comment, ma'am, with 
just a couple of things.
    It still is the Commander's program. He has, at his 
discretion, the opportunity to hire someone, or if he chooses, 
if you have, say, a staff non-commissioned officer that's been 
deployed three or four times in that unit, and he wants to 
leave that person back, he can name that person as his family 
readiness officer. So, it's the Commander's option, but 
certainly he didn't have those options before.
    Senator Mikulski. Well, I know my time is moving along, I'd 
like to have a real, a more complete description of what this 
Readiness Program is, and moving along in this, because you 
have families, you have families there with special needs, 
which--we're so glad you even named, because quite frankly, the 
Army doesn't--and the National Guard, quite frankly, the 
Director of Personnel for the Army didn't think enough to put 
it in the Guard.
    So, we want to help you, because behind every marine is a 
family and its morale.
    But, we know, for example, on one base, they organized a 
group called ``Grannies for the Marines.'' These were people 
who were grandparents in an area that would volunteer 5 hours, 
say, a month, to help a Marine Corps spouse, be able to take 
care of some things. You can't organize volunteers with a 
volunteer. It just takes too much to do it. But beyond that, 
you have to have pre-deployment counseling, when they come back 
home it takes an organized effort for reintegration in the 
family--spouse, children and if there's intense medical needs, 
that could go on for a long time--we really have to have a 
program.
    General Conway. Yes, ma'am.
    And, ma'am, to the credit of the Navy Medical Services, a 
marine who deploys will typically, before he goes and after he 
gets back, will have four such counseling periods. And the Navy 
has also established a forward footprint, with teams actually 
in the theater, who are able to respond if a marine has a 
traumatic incident and needs counseling on the way.
    Senator Mikulski. Could we hear, then, from the Navy, and 
that'll be the summary of my questions.
    Admiral Roughead. Yes, ma'am.
    As you know, we've been a deploying force for centuries, 
but even with that, we've made enhancements to what we are 
providing for our families in our fleet and family readiness, 
or support centers.
    We, too, like the marines, have also expanded our child 
care, which is a very important dimension of our families' 
interests. But, we have also deployed our Navy differently in 
this war. We've deployed our sailors as individual augmentees. 
In fact, many don't realize that the United States Navy has 
more people on the ground in the Central Command area than we 
have at sea.
    And so, what we've done is we've created an organization 
and a separate element within that organization that deals with 
the welfare of those individual deployers, and the ability to 
support the families of those who have been individually 
deployed.
    And I can tell you, in the time that I've been in the Navy, 
there has been no more focus provided by senior leadership, 
than that which we are providing for our individually deployed 
sailors and their families.
    Senator Mikulski. Well, I know this is also a keen interest 
of all members of the subcommittee, but I know, Senator Murray 
and I are trying to see from pre-deployment to battle 
assignment to coming back home, to also, then, as they come 
back for medical care or move back into the VA, that we really 
are developing this system that the family needs, as well as 
the warfighter.
    Our position is that even though the warfighter might not 
be literally wounded, with shrapnel or from an IED, they are 
permanently impacted. And we need to stick with them all the 
way through.
    So, starting with pre-deployment all the way through is 
what we're interested in, so we can help you, and behind every 
great soldier, seaman, marine, is a family that supports them, 
but a mission that supports the family.
    So, thank you, and we look forward to more conversation on 
this.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, thank you, Mr. Chairman.

                                  LCS

    Secretary Winter, this may--I stepped out a few minutes, 
and this may have been asked, and it may not have.
    The littoral combat ship that you alluded to earlier is 
vitally important to the future of our Navy, and I think you've 
said that many times. And I believe it represents an important 
capability for the Navy, and will give our forces a new 
transformational system with the maneuverability to operate 
anywhere, especially in shallow waters, is that correct?
    Dr. Winter. Yes, sir.
    Senator Shelby. While I know there have been issues that 
we've talked about with the LCS acquisition program, can you 
discuss the way forward on the littoral combat ship program?
    Dr. Winter. Thank you very much, Senator, for your interest 
in this area. I think that we've restructured the LCS program 
into an acquisition process now which is appropriate for the 
development of a new class of vessel, and still gets us to the 
desired fleet size of 55 LCS ships as part of the 313 that 
we're targeting for in 2019.
    What we've done right now is, I believe you're aware, is to 
focus on the first two individual vessels--one of each type--so 
as to ensure that we can get through the initial construction 
phase there, understand any issues in construction, take them 
out to sea, be able to go through the initial sea trials, and 
be able to take benefit from all of that as part of the next 
procurement.
    We have approval and funding for one additional vessel in 
2008, and we are requesting funding for two additional vessels 
in 2009. Our desire there is to go out on the acquisition of 
three additional vessels with the idea that we would have a 
competition--one contractor getting two, one contractor getting 
one--providing some motivation for the contractors but 
maintaining the competitive base through that period of time.
    That would lay the groundwork for the future, full-scale 
acquisition process, which would be informed by the full 
benefits of the sea trials, as well as the development 
activities that have taken place.
    Senator Shelby. Would you just take a minute and tell us 
again for the record, how important the littoral combat ship 
program is to the Navy, and the future capability, and how we 
deal with the threats in the shallow water?
    Dr. Winter. I will touch lightly on three specific items 
there, and then ask the CNO to add specifically from an 
operational point of view.
    What we've stressed on the design and development of the 
LCS, is really three things. Number one, having speed, speed 
consistent with the evolving threat that we're seeing out in 
the Middle East and elsewhere around the world. Second of all, 
shallow draft--the ability to operate safely and effectively in 
the littoral regions, which is becoming more and more of a 
focus for our Navy. And last, having the capability to use what 
we call mission modules, the ability to switch the mission 
capability to adapt to the challenges that we see at any given 
point in time.
    This provides us with a huge increase in flexibility, of 
responding to the threat, whether that's a surface threat, 
submarine threat, or mine threat. And also gives us the ability 
to continue to evolve this class of vessels to deal with 
future, perhaps unidentified threats, that we may need to deal 
with in many years to come.
    And with that, I'd like the CNO to comment on the 
operational aspects.
    Admiral Roughead. Sure, thank you, Mr. Secretary.
    And----
    Senator Shelby. How important is it, Admiral?
    Admiral Roughead. It is extraordinarily important. And in 
my perspective, as based on being fortunate to come into this 
job as one of two officers who has commanded the Pacific Fleet 
and the Atlantic Fleet. And from my experiences, and the types 
of operations that we are involved in now, and the fact that we 
do not have a capability that allows us to work in close to 
shore, work in the larger archipelagos that are in the world 
today, the LCS gives us that flexibility--the speed, the 
shallow draft which expands the amount of ocean we can operate 
in, and the flexibility to change mission capabilities in that 
ship rapidly.
    There is nothing on the books now, or on the boards now, 
that fulfills that need, and that is why that ship is so 
important to us.

                                 LPD-17

    Senator Shelby. Thank you, this question may have been 
asked, Admiral--I understand the Navy's fiscal year 2009 budget 
that LPD-17 production will conclude after nine ships. It's my 
understanding that the Marine Corps top-funded priority for 
this year is acquiring another LPD. Do you feel that the future 
amphibious fleet should include 11 LPDs? What are your 
thoughts, here?
    Admiral Roughead. Yes, sir, I do agree with that.
    General Conway and I have had several discussions about the 
future of where we are going. I believe that the world that we 
will live in, in the future, the Navy and Marine Corps will be 
a force of choice, because of our ability to move quickly, to 
be able to move into areas where access may be denied, and our 
amphibious fleet, the assault echelon, as well as the maritime 
pre-position force of the future, will give the Navy and Marine 
Corps that flexibility.
    I support his requirement of 11 LPDs, and that's why it 
also appears on my unfunded program list.
    Senator Shelby. General, you want to comment? You just 
agree with the--do you agree or disagree?
    General Conway. Sir, I agree wholeheartedly. We've had some 
very productive discussions, and both the Navy and the Marine 
Corps agree upon the requirement of the ships.
    We have accepted some risk already, with the idea of 30 
amphibious ships to satisfy a two-brigade requirement. The Navy 
has been forthcoming in trying to sort of stretch the rubber 
band to satisfy our needs, they have agreed to potentially 
extend some of the older amphibious ships. But even with their 
best effort, that leaves us another 9 percent, or so, short of 
being able to project those brigades, so a 30 percent 
shortfall, or so, roughly, is still not something that we're 
comfortable with, so we have asked for newer ships, larger 
ships, really, that allow us to put more aboard.
    Senator Shelby. Thank you, gentlemen.
    Chairman, thank you.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Thank you to all of you for your service and for being here 
today.

                             MENTAL HEALTH

    Secretary Winter, I want to follow up on a little about 
what Senator Mikulski talked about. I think we're still playing 
catch-up for the poor planning that took place after very long 
operations--7 years in Afghanistan, almost 5 years in Iraq.
    A large concern I have is the slow change of tide regarding 
the perception and attitude about psychological health. And 
wanted to ask--I know you talked a lot about the programs 
themselves. But what about--what are we doing to really change 
the attitude, all the way down to the bottom levels, about 
sailors, marines, feeling comfortable talking about needing 
help with psychological issues?
    Dr. Winter. I think, ma'am, the stigma issue, if you will, 
is I think a very critical issue. We recognize it, I think it's 
been recognized at all levels within both the Navy and the 
Marine Corps, and has been attacked from the very senior 
levels, all the way on down.
    The issue there, I think, is to first of all make clear 
what the leadership position is on this, to make sure people 
understand the view. To provide mechanisms of facilities 
access, so that people can access medical care.
    This has gone to the point of including forward-deployed 
mental health professionals, as part of our OSCAR Program, the 
operational stress combat--I'm trying to remember the details 
of the acronym, there--program in which we are actually 
deploying mental health professionals with the forces, to be 
able to provide close proximity and access.
    We're also providing training for many people who have 
peripheral access to such issues--our chaplains and religious 
professionals--who have the ability to guide individual 
servicemembers to seek medical care when it is needed and 
appropriate.
    We're also trying to get marines and sailors to help each 
other. And this has been a longstanding tradition, and I think 
some of the ways in which we are able to get that message out, 
and have individual marines recognize, and be able to go 
marine-to-marine, I think, has a huge benefit.
    Last, we're trying to work with the families, and one of 
the issues that keeps on coming up is, how do you deal with 
this issue post-deployment, and post-discharge? We try to do 
the normal checkups and all the reviews and things of that 
nature, and we're looking to be able to reevaluate----
    Senator Murray. It's oftentimes the spouse that recognizes 
PTSD or other----
    Dr. Winter. Exactly.
    Senator Murray. And I know you talked about some of the 
programs you have for spouses--they're great. But you need 
professionals who are helping the families understand what to 
look for, too. How are you doing with that?
    Dr. Winter. What we're trying to do there, ma'am, is to 
first of all, help the spouses and the families recognize the 
issues, and then ensuring that they understand how to get help. 
And that includes a series of outreach activities, as well as 
resources that they can draw upon, by phone, by Internet, and 
by visiting personnel--whether they're at fleet concentration 
areas, major bases, and operations, or out in the economy. And 
so, we're trying to facilitate that access so that they know 
where they can turn and understand the resources that are 
available to them.
    Senator Murray. General.
    General Conway. If I could augment a very complete answer 
just a little bit, I agree with you that we need professionals 
and we need programs, but we can also help ourselves, and we're 
endeavoring to do that.
    First of all, you get at why a marine feels like there may 
be some stigma associated with it, and quite frankly, Sergeant 
Major and I, when we go and visit, and in publications are 
saying, ``You don't get PTSD unless you're a warrior. You have 
had experiences that, in some cases, no one else has had. So, 
you don't start out being weak or a wimp in this business, 
PTSD, to begin with.''
    Second, some of our most senior people are experiencing it. 
We have a couple of sergeants major, or master gunnery 
sergeants out there who are experiencing these kinds of things, 
and it's just as true for them that we want to help you with 
this injury, because we consider it an injury, just as 
certainly as an external wound, we want to help you with this, 
and we want to get you through it, because you can recover.
    We want to change the name, from ``disorder'' to something 
else. Because, it has, I think, a negative connotation with it.
    And the last thing is--you're right--spouses sometimes 
recognize it even before the servicemember does, and sometimes 
the dialogue is, ``Well, don't report it or they'll toss you 
out.'' Well, we're not doing that. We want to get people 
through it, and we want to keep them as productive members of 
our Corps, and----
    Senator Murray. And you're giving that message to----
    General Conway. Absolutely.
    Senator Murray [continuing]. All the way down?
    General Conway. Absolutely.

                      INDIVIDUAL AUGMENTEES (IAS)

    Senator Murray. And what about the IAs, in particular?
    Admiral Roughead. We have a screening process for our IAs 
and not just our active force. I think the greatest challenge 
we have are for IAs who are Reservists who come back, and then 
go back into their communities. So, at the operational support 
centers, we're paying particular attention to that.
    We also, in the Navy, have taken about 1,300 positions that 
involve medical providers, chaplains and other individuals, and 
have spent some additional time and resources on them to make 
sure that they too are familiar with the types of things that 
they must be aware of.
    And similarly with the Marine Corps, the effort to de-
stigmatize the PTSD issue. And I do believe we're making some 
good progress in this regard.

                      MENTAL HEALTH PROFESSIONALS

    Senator Murray. So we have enough resources to hire the 
mental health professionals that you need?
    Dr. Winter. I think, ma'am, we have the resources, the 
issue is in actually being able to hire.
    Senator Murray. To fill them?
    Dr. Winter. The availability of mental health 
professionals, particularly psychologists and psychiatrists, 
has been a challenge. We've done a little bit better with the 
mental health nurses, we've done very well with social workers 
that we've been able to use in certain, limited, mental health 
capacities, but for psychologists and psychiatrists, this is a 
national challenge.
    Senator Murray. Okay.
    Admiral Roughead. Mr. Secretary--if I may.
    Senator Murray. Absolutely.
    Admiral Roughead. Senator, that's why the provisions that 
you have provided us, in the form of the incentives and the 
bonuses is so very important, particularly in the mental health 
area, so we thank you for that.
    Senator Murray. Okay, well I can assure you that a number 
of us on this subcommittee really want to continue not only to 
work with you to get that message all the way down to the man 
or woman at the bottom, but also to provide the services we 
need. And certainly, I think, we do have to worry about the 
capability of hiring enough professionals out there, and want 
to continue to work with you on that.
    Dr. Winter. Greatly appreciate the support, ma'am.
    Senator Murray. Thank you.

                           ELECTRONIC WARFARE

    To change the topic a little bit, I wanted to ask you about 
the military's ability to jam and use electronic warfare in 
Iraq and Afghanistan--certainly critical as we all know. But 
historically, as we've seen threats decrease, our electronic 
warfare capability has decreased, and we have not invested in 
platforms and technologies and communities.
    Can you give me a current assessment of where we are on 
that?
    Dr. Winter. Well, right now, ma'am, our principal activity 
is the development of the Growler, which is the replacement for 
the EA6B Prowler aircraft. The EA6B is being used extensively 
in the theater right now. It is also the only mechanism we have 
of prosecuting electronic attack at this point in time.
    It is being used extensively, and we are starting to get 
concerned about the life-limiting features associated with it.
    Our analyses suggest that we--an 84-aircraft Growler fleet 
is what we need to build to. We have requested funds for 22 
Growlers in this budget as part of that. That's in addition to 
five Growlers that are pending from the supplemental request 
from 2008. We believe that it is a proper course toward 
providing satisfaction of the 84 aircraft requirement.
    I will note that the sizing of 84 aircraft presume that the 
aircraft would also participate in the development of 
additional electronic attack capabilities----
    Senator Murray. Are you concerned that other agencies 
aren't investing?
    Dr. Winter. We will be looking at that, ma'am, as part of 
the 2010 POM evaluation, and determining whether or not we're 
still comfortable with that assumption, and if that assumption 
is in need of revisitation, we will take a look at the 
implications of that.
    Senator Murray. Thank you.

                         NAVAL STATION EVERETT

    I also want to ask you, as you know, Naval Station Everett 
is one of the three west coast locations under consideration as 
home port for the DDG 1000 that we talked about earlier. My 
understanding is that three of these ships will be stationed at 
a selected location--and with all respect to my chairman--I 
think Naval Station Everett, obviously, is an ideal location.
    Barring that, can you give us a quick assessment of where 
we are in the process and criteria that will be used to develop 
that? Admiral.
    Admiral Roughead. Senator, what we are doing is looking at 
what the lay down of our force should be. When I came into this 
position a few months ago, I wanted to have a very thoughtful 
approach to where forces should be, my staff is working on 
that, and I look forward to having that presented to me, and 
then making the appropriate recommendations.
    Senator Murray. Okay, we look forward to hearing that, very 
much.

                           BREMERTON CVN PIER

    And finally, Mr. Chairman, if I could, I just wanted to 
mention that the Navy is preparing a major overhaul of an 
existing maintenance pier at Naval Base Kitsap in Bremerton, 
I'm sure you're aware of it. It's a $160 million project, and 
very important to all of us--there's no doubt that we all know 
how critical it is.
    But, I was just recently made aware that there are several 
concerns that have been raised at the local level about the 
Navy's consultation with some of the impacted parties, and I 
was hoping that you could just work with us later, and make 
sure we're working with those local constituencies.
    Admiral Roughead. Yes, ma'am, we are, and----
    Senator Murray. Are you aware of the problems?
    Admiral Roughead. I'm aware of that, and the meetings that 
we've been having--I'm committed to continuing to address the 
issues that have been put on the table. And as you pointed out, 
it is very critical that it get resolved, because of the 
availabilities that will be coming into the shipyard and that 
will need that facility there.
    Senator Murray. Okay. Thank you very much, I appreciate 
that.
    Senator Inouye. Thank you very much.

                    AEGIS BALLISTIC MISSILE DEFENSE

    Admiral Roughead, the subcommittee wishes to congratulate 
you and the men and women of your command for the very 
successful interception of the failing NRO satellite, 2 weeks 
ago.
    However, I note that there are many aegis ships deployed 
with long-range surveillance and tracking capabilities, but 
very few equipped with the missile itself. When are you going 
to have this transition from the Missile Defense Agency (MDA), 
so you can take over?
    Admiral Roughead. Thank you for the question, Senator.
    I believe that what our, what we demonstrated 3 weeks ago 
showed that our capability is one that is very valuable to the 
Nation, even though we had to modify significant portions of 
it, to be able to go after a satellite as opposed to ballistic 
missiles.
    But, over the years, as we have demonstrated at Barking 
Sands, at the range in Hawaii, the success of our program, I 
believe is a function of having some great capability that was 
purchased without the intent of what we're using it for now.
    But most importantly, it shows that our capability is in 
the operational Navy. It has grown up in the operational Navy, 
the tests that have been performed, the engagement of the 
satellite were done by sailors, in their ships, using systems 
that they use every day.
    I believe that the investment that MDA makes in the Navy, 
which is roughly 10 percent of their budget, is an investment 
well spent. I also believe that it is an appropriate time to 
consider the migration of what is referred to as the fielding 
wedge for the capability, for that to migrate to the Navy, so 
we can move forward quickly and robustly in maritime ballistic 
missile defense.
    Senator Inouye. So, you plan to equip the aegis vessels 
with missiles?
    Admiral Roughead. Yes, sir, I believe that we will have to 
increase the inventory of missiles. As I look around the world 
today, the proliferation and the sophistication of ballistic 
missile development in many places in the world will be 
important for us to ensure access, to protect our forces, and 
also to support our partners and allies.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Mr. Secretary, I have a lot of questions 
I'd like to submit to you and your colleagues for their 
responses.
    And Senator Cochran, do you have any questions?
    If not, I'd like to thank you, Mr. Secretary, Admiral 
Roughead and General Conway for your testimony this morning 
before the subcommittee. And we appreciate your continuing 
service to our country.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Donald C. Winter
            Questions Submitted by Senator Daniel K. Inouye

    SUSTAINING CURRENT AIRCRAFT VERSUS INVESTING IN FUTURE PROGRAMS

    Question. Secretary Winter, as budget pressures rise there is often 
a dilemma in balancing the maintenance of current or legacy systems 
versus developing new capabilities. How is Navy addressing this balance 
in the aviation community? Are sufficient funds being invested in the 
reliability of current systems--like the P-3C, the E-2C, and the H-3--
to avoid capability gaps should new systems be delayed? Secretary 
Winter, given that delays and cost growth in the development and 
fielding of new aircraft are so common, how confident are you that 
plans to accelerate procurement of various new aircraft to address 
deficiencies in the current fleet is the right strategy?
    Answer. December's grounding of 39 P-3Cs impacted our ability to 
meet COCOM requirements. To mitigate capability gaps and sustain the P-
3C force until the arrival of the P-8A, fiscal year 2008 and fiscal 
year 2009 funding is being separately requested for P-3C wing panels, 
supporting hardware and installation, and acceleration of the Fatigue 
Life Management Program. The fiscal year 2009 budget also reflects a 
systems sustainment and modernization budget to continue to address a 
multitude of mission essential efforts to replace obsolete components, 
integrate open architecture technology, and leverage commonality.
    In addition, we are requesting funding to accelerate the 
introduction of the P-8A. Even with our current efforts, the remaining 
unknowns in the fatigue life of the P-3C airframe continue to present 
significant risk in our ability to sustain the force. I am confident 
that a combination of sustainment of the P-3Cs and acceleration of the 
introduction of the P-8A provides the best balance of mitigating risk, 
minimizing costs, and providing safe and highly effective platforms to 
the warfighters.
    The E-2D Advanced Hawkeye program is currently in flight test and 
building pilot production aircraft. The Navy is planning on reaching a 
production milestone next year. As we procure the E-2D, we continue to 
maintain the Navy's E-2C capability. The Naval Aviation Enterprise, led 
by Commander Naval Air Forces, periodically reviews the sustainment of 
our aircraft using a Cost Wise Readiness model. As with any older 
platform, some investments in the E-2C are required to keep the weapon 
system performing well. As an example, these have addressed reliability 
of replaceable components for the APS-145 radar system--which is the 
key reason we are buying the E-2D and the APY-9 radar in that aircraft. 
These strategic investments also keep our industry base active as we 
ramp up the new production line. E-2Cs are also being modified to 
enable an Open Architecture computing environment, which will make 
sustaining software on this platform more affordable. I believe this 
strategy of modest investments for targeted sustainment, while 
delivering a new platform that will be effective well into this 
century, meets the goals of the Maritime Strategy.
    In regards to Presidential Helicopter Programs, sufficient funds 
have been allocated to sustain both the VH-3D and VH-60 through the VH-
71 Increment 2 restructure. Those gaps associated with the delayed 
fielding of VH-71 Increment 2 will be addressed where feasible and 
funds have been set aside for service life issues and essential 
communication requirements for support to the President. Additionally, 
the five Increment 1 aircraft, with an estimated initial operational 
capability of September 2010, will also mitigate the capability gap 
until fielding Increment 2. The Department will continue to ensure that 
the legacy Presidential fleet maintains viability throughout the 
transition to the VH-71.

                       LITTORAL COMBAT SHIP (LCS)

    Question. Secretary Winter, there have been many changes in the 
acquisition strategy for the Littoral Combat Ship. What is your current 
plan for proceeding with this program? Secretary Winter, do you have 
confidence that the cost growth in the LCS program is under control and 
that the Navy can execute additional ships within the existing cost cap 
of $460 million per ship?
    Answer. An updated acquisition strategy for fiscal year 2008 and 
fiscal year 2009 procurements has been approved by the Under Secretary 
of Defense (Acquisition, Technology and Logistics). The Navy will award 
one ship in fiscal year 2008 using the funding appropriated by 
Congress, along with material from one of the ships terminated in CY 
2007. The fiscal year 2009 President's budget requests two additional 
LCS.
    The Navy believes that additional design maturity, production 
progress on LCS 1 and 2, and a competitive contract award between 
incumbent suppliers will enable the use of fixed price incentive terms 
for the fiscal year 2008 ship appropriated by Congress and the two 
fiscal year 2009 ships that the Navy is requesting. When these ships 
are delivered, the Navy will be able to better evaluate their costs and 
capabilities, and to make decisions regarding the best manner to 
procure the remainder of the class.
    Acquisition strategies for fiscal year 2010 and later ships have 
not yet been formulated.
    The Navy's restructured program contains more informed cost 
estimates that include: incorporation of lessons learned with each lead 
ship contract execution; a more refined estimate of the cost of known 
required changes to the designs; and a higher allowance for program 
management costs to provide for the government oversight expected by 
Congress.
    The Navy has worked diligently with the industry teams to identify 
and evaluate program cost, schedule and technical risk.
    Execution within the cost cap will be a challenge as the initial 
Navy estimate of $460 million end cost was predicated on two ships 
being appropriated in fiscal year 2008. This would have allowed sharing 
of some program costs between seaframes. Moreover, the cap is based on 
the total limitation of the government's liability, which requires the 
Navy to keep the contract's ceiling value below the cap. The basis of 
the Navy's $460 million estimate was contract target price, which is 
lower than the ceiling value.

                     VH-71 PRESIDENTIAL HELICOPTER

    Question. In December, the Navy issued a stop-work order on the VH-
71 Presidential Helicopter as costs continued to spiral higher and 
schedules have failed to be met. However, the fiscal year 2009 budget 
request includes $1 billion to continue development and produce four 
helicopters. I am told that the Navy analyzed 22 alternatives before 
deciding on the plan presented in the request. Secretary Winter, could 
you comment on why the plan reflected in the budget request was found 
to be the best of all those options? Secretary Winter, the Navy's 
budget justification contains no information on the VH-71 program 
beyond fiscal year 2009. When will Congress receive additional details 
on this program?
    Answer. We have taken a very hard and deliberate look at this 
program reviewing over 35 options and have determined that there are no 
other viable alternatives for the VH-71. The options considered were 
both inside and outside of the VH-71 program and all came to the same 
conclusion: to meet the operational requirements and technical scope of 
the program we have the right helicopter. The VH-71 full program of 
record is the best option to meet the full set of White House 
requirements.
    The fiscal year 2009 plan reflected in the President's budget 
request is a restructured program and allows execution to meet the full 
set of White House requirements. As reported recently in the media, a 
decision between the Department and the White House was made on March 
5. Details of this decision are presently being briefed to Professional 
Staff Members. Funding details beyond fiscal year 2009, however, are 
dependent upon the Department's Planning, Programming, Budgeting and 
Execution Process and will not be finalized until the President's 
fiscal year 2010 submission.

                           NUCLEAR ENGINEERS

    Question. Secretary Winter, the demand for qualified nuclear 
engineers in the civilian sector appears to be rising as Baby Boomers 
begin to retire and the energy industry is taking another look at 
nuclear power. As is so often the case, private industry is able to 
lure talent from the public sector by offering better wages and 
benefits. What is the Navy doing to make sure that our shipyards will 
have access to the engineers we need to design, build, and maintain our 
nuclear powered ships?
    Answer. The Navy has been working proactively to understand the 
demand for nuclear engineers and to develop strategies to retain the 
necessary number of nuclear engineering professionals to accomplish 
Navy missions. Senior nuclear engineering managers have been actively 
reviewing common issues and problems affecting the recruitment, 
development and retention of nuclear engineers. These efforts will 
identify best practices and long-term actions that will help to ensure 
a stable cadre of nuclear engineers for the Naval Nuclear Propulsion 
Program. The Navy continuously reviews incentives and benefits to 
promote a rewarding work environment that affords opportunities and 
challenges. Examples include: positively influencing new engineers with 
immediate responsibility; providing a stable work environment; 
providing continuous employee training and development; offering 
competitive pay incentives and other benefits; and encouraging 
engagement in the local community.

                        VIRGINIA CLASS SUBMARINE

    Question. Admiral Roughhead, last year the appropriations 
conference added $588 million above the budget request to accelerate 
the procurement of two submarines per year. I understand the Navy now 
plans to begin procuring two submarines per year in fiscal year 2011. 
What effects will this have on the Navy's overall shipbuilding plan? 
Secretary Winter, would you comment on the procurement plan for the 
Virginia Class?
    Answer. Procuring two submarines per year one year earlier (fiscal 
year 2011 vice fiscal year 2012), will reduce the number of years the 
SSN force structure is below 48 from 14 (per fiscal year 2008 
shipbuilding plan) to 12 years.
    The 30 year Shipbuilding Plan is the best balance of anticipated 
resources to the Navy's force structure requirements. Having less than 
48 attack submarines (from 2022 through 2033) is not ideal, but the 
long-term risk is manageable as part of a stable, properly balanced 
shipbuilding plan.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein

                      T-AKE SHIP PROCUREMENT PLAN

    Question. The recent Navy Long Range Report on Vessel Construction 
noted: ``The current budget does not include the 13th or 14th T-AKEs 
required to meet the MPF(F) structure described above, pending 
completion of an ongoing MPF(F) concept of operations study.'' The 
report further confirms that ``it is expected that the assessment will 
show that the MPF(F) will need those two T-AKEs.'' Can you comment on 
the Navy's plans for procuring the 13th and 14th T-AKEs and will this 
be done in a way to bring greater stability to the shipbuilding budget 
in order to make ship procurement more affordable?
    Answer. The Joint Requirements Oversight Council (JROC) is 
currently reviewing requirements for the 13th and 14th T-AKE ships. 
Pending JROC approval, the Navy's contract with the T-AKE shipbuilder, 
NASSCO, includes fixed priced contract options for T-AKE 13 and T-AKE 
14. These pre-priced contract options provide stability to the 
shipbuilding budget and make ship procurement more affordable.
                                 ______
                                 
               Questions Submitted by Senator Judd Gregg

                      COMPARATIVE COST OF DDG 1000

    Question. In a February 27, 2008 report to Congress, the 
Congressional Research Service provided a comparison of the cost of 
procuring and maintaining a DDG 51 class destroyer to that of the new 
DDG 1000 class destroyer. The report indicates the Navy argues that 
when life cycle operation an support costs were taken into account, it 
would cost roughly the same amount of money to procure and maintain one 
DDG 51 as it would a DDG 1000. Can you elaborate on why this would be 
the case, to include providing comparative cost data supporting this 
assertion?
    Answer. The Navy has not stated that it would cost roughly the same 
amount of money to procure and maintain one DDG 51 ship as it would a 
DDG 1000 ship. The unit costs for the final ships of the DDG 51 class 
(procured in fiscal year 2005) are lower than the projected unit costs 
for the follow ships of the DDG 1000 class. However, the Navy does 
expect that a DDG 1000 class ship will have a lower annual total 
operating and support (O&S) cost per ship than a DDG 51 class ship. 
This comparison is based on the Navy service cost estimate for DDG 1000 
O&S costs compared to a composite across all ships of the DDG 51 class 
based on reported O&S cost data. The overall lower DDG 1000 per ship 
annual O&S cost is primarily due to the decreased ship manning for DDG 
1000 as compared to DDG 51. This decreased manning affects both direct 
Mission Personnel costs and indirect support costs (such as 
installation and personnel support costs). The Navy is currently 
updating the O&S cost estimate for DDG 1000 based on the current design 
and life cycle support strategy.

                   COMPARATIVE CAPABILITY OF DDG 1000

    Question. Can you address the requirement and capability 
differences between DDG 51 and DDG 1000? What kind of added capability 
will the DDG 1000 ship class deliver to the Fleet and Joint Commanders 
that is currently not available?
    Answer. DDG 1000 is optimally designed to operate in the littoral 
environment where as DDG 51 was designed for an open ocean environment.
    The DDG 1000 will deliver the following capabilities that are not 
currently available:
  --Advanced Gun System and Long Range Land Attack Projectile will 
        provide guided 155 mm Naval Surface Fires Support out to 74 nm 
        with the capability of multiple rounds simultaneous impact 
        versus the 13 nm range of the current 5 inch rounds of the DDG 
        51.
  --Dual Band Radar incorporates S-Band Volume Search Radar and X-Band 
        Multi-Function Radar (MFR), and provides better sensitivity in 
        clutter and greater firm track range to increase AAW 
        capability. MFR provides periscope detection in the ASW 
        environment.
  --Dual-frequency bow mounted sonar and Multi-Frequency towed array 
        are integrated and provide significantly enhanced littoral ASW 
        capability, and in-stride mine avoidance.
  --Integrated Power System that provides 78 MW of power for use 
        throughout the ship (propulsion and electrical). Dual power and 
        electrical paths increase survivability and decrease 
        probability of power loss.
  --Signature Reductions:
    --Significant reduction in radar signature compared to a DDG 51, a 
            50 fold reduction; stealth disrupts an adversary's detect-
            to-engage chain and allows missions to be performed not 
            achievable by current ships.
    --Significant improvement in infra-red signature.
    --Significant acoustic and magnetic signature reductions that 
            enhance survivability against littoral diesel submarine and 
            mine threats.
  --Enhanced survivability and damage control capability. DDG 1000 can 
        withstand a USS COLE-like event and keep fighting. DDG 1000 has 
        more robust armor than DDG 51. All DDG 1000 spaces have 
        automated fire fighting and flooding systems. Additionally, a 
        resilient power system allows for automatic electric plant 
        isolation and reconfiguration.
                                 ______
                                 
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Senator Daniel K. Inouye

                           P-3 ``RED STRIPE''

    Question. Admiral Roughead, last December the Navy issued a ``red 
stripe'' bulletin grounding 39 of the 123 mission-ready P-3 Orion 
aircraft. The problem, found by modeling and simulation, was unexpected 
fatigue damage leading to possible cracks in the wing. What is the 
operational impact of losing these aircraft? Admiral Roughead, what is 
the Navy's plan to get the aircraft back to mission-ready status?
    Answer. The grounding of the 39 aircraft had significant 
operational impact. While the details of the impact are classified, ten 
deployed aircraft were affected. The Navy will continue to work with 
the Joint Staff and Combatant Commanders using Global Force Management 
Allocation Plan to optimize P-3 allocation as inventory constraints 
permit.
    To recover the P-3C mission-ready inventory, fiscal year 2008 and 
fiscal year 2009 funding is being separately requested for P-3C wing 
panels and outer wing box assemblies, supporting hardware and 
installation, and acceleration of the Fatigue Life Management Program. 
A dual path approach of targeted wing repairs and outer wing 
replacements will be implemented to ensure P-3 flight safety through P-
8A transition and to maximize industrial depot capacity. The Navy's 
sustainment approach to P-3 operations will include the strict 
management of requirements and flight hour use and continued 
installation of Special Structural Inspection Kits to address fatigue 
concerns.

                           NAVY END STRENGTH

    Question. Admiral Roughead, the Navy has reduced its end strength 
by nearly 40,000 Sailors since fiscal year 2005 and continues to draw 
down personnel. These reductions have come through military to civilian 
conversions and technology-based efficiencies aboard ships. Are you 
still comfortable with the Navy's planned end strength level? Are you 
concerned that these manning reductions are having a negative impact on 
the Navy's operational capabilities? Admiral, as the Navy introduces 
new technology aboard ships, extensive training will be required to 
operate these increasingly complex vessels. More time for training will 
mean more time away from ships for many Sailors. Has the Navy taken the 
additional training requirements into account in its manning plan?
    Answer. I am comfortable with the current plan for the Navy's end 
strength level. The planned steady-state end strength level is based on 
our ability to shed non-essential functions, continue to leverage 
advances in platform and system design, and maintain war fighting 
readiness. The Navy is moving toward a capability-based workforce by 
refining the shape and skill-mix of the force to provide the 
specialized skills needed to respond to new technology and expanded 
missions.
    Reductions are targeted to ensure that we retain the skills, pay 
grade, and experience mix necessary to provide mission ready forces. 
Our steady-state end strength target of 322,000 active and 68,000 
reserve Sailors and Officers is based on analysis of current and future 
force structure plans. Our personnel distribution system is intended to 
assign the right Sailor, to the right job, at the right time. 
Therefore, changes to force structure, capability demands, and capacity 
and/or limitations on manpower and personnel systems necessitate a 
continual reassessment of the proper force size of the Navy.
    The Navy accounts for additional training requirements and 
continually evaluates requirements for both initial and follow-on 
training for our Sailors. The alignment of our Learning Centers to the 
Warfare Enterprises has greatly improved the dialogue between our Fleet 
operators and our training organization. Navy training is fundamentally 
driven by the skill requirements of the jobs and positions Sailors 
hold. As new developments and technologies transform job requirements 
training is updated and adapted. Many Sailors proceed directly from 
their accession level basic school into advanced specialized skill 
training designed to prepare them for their specific assignment at sea. 
When they arrive at their ship with the required training the amount of 
additional training they will need is significantly reduced during 
their time assigned onboard.
    Similarly, Sailors proceeding from one command to another are 
scheduled for any new, intensive technical training required to operate 
equipment within their specialty while en route to their new command. 
Our ultimate goal is to provide effective and meaningful job training 
through a continuum of learning that enables our Sailors to obtain and 
maintain competency, while minimizing time away from their job and 
their ship.

                         NUCLEAR SURFACE SHIPS

    Question. Admiral Roughead, some have suggested that rising oil 
prices and the development of energy-intensive combat systems could 
mean that it may make sense to include nuclear propulsion on future 
surface combatants. Others have argued that adding nuclear power to a 
next-generation surface combatant would add a large up-front cost to 
building new ships and may present other problems for training, 
maintaining, and operating a ship that does not operate on conventional 
power. Admiral Roughead, what are your views on the question of using 
nuclear power for future surface combatants? Admiral Roughead, if the 
Navy continues to build conventionally powered surface combatants, how 
will our future fleet meet the power demands of increasingly power-
hungry combat systems, such as the next-generation Aegis radar or 
futuristic directed energy weapons?
    Answer. The decision whether nuclear power propulsion will be 
incorporated in future surface combatants will be based on a thorough 
examination in compliance with statute. The ongoing analysis of 
alternatives (AoA) for the Maritime Air and Missile Defense of Joint 
Forces capability, which includes an assessment of CG(X) alternatives, 
examines both fuel efficient conventional power plants and nuclear 
power alternatives.
    The AoA addresses the power architecture options for CG(X), 
including the expectation for increased electrical power requirements 
in CG(X) for both the nuclear and fossil-fueled alternatives for future 
technologies such as high energy weapons and radars. The ability to 
accommodate higher electric energy demands associated with future 
weapon and sensor systems is a function of electrical generation 
capacity, and is independent of fuel type (nuclear vs. fossil fuel). 
Flexibility in accommodating increased electric loads can be introduced 
into either nuclear or fossil fuel propulsion plant designs.

          AMPHIBIOUS SHIP BALANCE BETWEEN PACIFIC AND ATLANTIC

    Question. Admiral Roughead, we are all aware of the growing 
importance of the Asia-Pacific region to the security of the United 
States. In fact, the 2006 Quadrennial Defense Review recommended a 
shift of a number of submarines from the Atlantic to the Pacific. 
Currently, about 55 percent of Marines are stationed within Marine 
Forces Pacific. Considering this and the renewed emphasis on 
maintaining a stable balance of power in the Pacific, are there plans 
to shift more amphibious ships to the region to support the Marines?
    Answer. The present laydown of amphibious ships in San Diego and 
Japan is sufficient to meet current response times for Department of 
Defense contingency and steady state presence requirements. However, 
with the impending move of Marines from Okinawa to Guam and Hawaii, and 
in conjunction with the planned growth in Marine end strength, the Navy 
is assessing laydown possibilities that support alignment with the 
Marines.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein

                        T-AKE SHIP REQUIREMENTS

    Question. The Navy fiscal year 2009 Unfunded Priorities identified 
as your 4th highest unfunded priority requirement $941 million to 
``fund procurement of final 2 T-AKEs (13 and 14) to accelerate and 
support Maritime Prepositioning Force Requirements and leverage hot 
production line at NASSCO shipbuilding and allow Navy to maintain 
support of existing production contract without renegotiation.'' Do you 
believe there remains a strong military requirement for completing the 
planned and already contracted buy of all 14 T-AKE ships?
    Answer. The Navy has committed to procuring 12 T-AKEs, the minimum 
necessary to meet the Combat Logistic Force requirement.
    The Joint Requirements Oversight Council is currently reviewing 
requirements for the 13th and 14th T-AKE ships. The T-AKE contract 
includes a latest option exercise date for the 13th T-AKE Long Lead 
Time Material of January 2010 and the 14th T-AKE Long Lead Time 
Material of January 2011.
                                 ______
                                 
             Questions Submitted to General James T. Conway
            Questions Submitted by Senator Daniel K. Inouye

                  UP-ARMORED HMMWVS AND MRAP VEHICLES

    Question. General Conway, in response to urgent theater needs, we 
are rapidly procuring Mine Resistant Ambush Protected Vehicles, known 
as M-RAPs, which provide superior protection against IEDs. At the same 
time, you are requesting funds to procure modernized up-armored 
Humvees. Can you please explain to the Committee the need to continue 
the procurement of up-armored Humvees when the M-RAP requirement has 
been fully funded?
    Answer. The MRAP Vehicle was never intended as a replacement for 
the HMMWV. MRAP vehicles were procured and fielded to meet a special 
in-theater requirement. While the MRAP has performed well, it is too 
large to conduct missions in tight built-up areas and too heavy to 
conduct missions in rough offroad terrain. The Marine Corps requires a 
light tactical vehicle to perform these missions.

           JOINT LIGHT TACTICAL VEHICLE AND UP-ARMORED HMMWVS

    Question. General Conway, the Joint Light Tactical Vehicle is 
designed to replace the Humvee. If you go ahead with your planned 
purchase of new up-armored Humvees, do you still need the Joint Light 
Tactical Vehicle?
    Answer. The HMMWV/ECVs future replacement, the Joint Light Tactical 
Vehicle (JLTV) will not achieve Initial Operational Capability (IOC) 
until fiscal year 2014. In order to bridge the gap until JLTV is in 
full production and counteract the degraded useful life of current 
HMMWVs (due to weight and usage) the Marine Corps will need to buy more 
ECVs.

            MINE RESISTANT AMBUSH PROTECTED VEHICLE STRATEGY

    Question. General Conway, the M-RAP has been characterized as a 
``niche'' capability. What will we do with these vehicles when we pull 
out of Iraq?
    Answer. We have identified an enduring requirement for some of 
these vehicles from the 2,225 total number required. Explosive Ordnance 
Disposal units, combat engineers, and other units responsible for route 
clearance will use these vehicles. We are considering several options 
for the remaining vehicles such as placing them forward in stores, 
embarked aboard Maritime Prepositioning Ships or a mix of both options. 
The Combat Tactical Wheeled Vehicle strategy, that will be completed 
this summer, will provide additional details.

                TACTICAL WHEELED VEHICLE STRATEGY UPDATE

    Question. General Conway, when will you be able to provide the 
Committee an update on your Tactical Wheeled Vehicle Strategy?
    Answer. The Marine Corps will provide a comprehensive Combat 
Tactical Wheeled Vehicle (CTWV) strategy that will include a detailed 
``way ahead'' for the current and future Marine Corps tactical wheeled 
vehicles to the President's Office of Management and Budget (OMB) and 
the Secretary of Defense (SECDEF) in July 2008.
    Prior to the final briefing to OMB and SECDEF, the Joint 
Requirements Oversight Council and the Deputy's Advisory Working Group 
will review our strategy. Additionally, an internal progress review 
with OMB and Office of the Undersecretary of Defense Comptroller is 
scheduled for April 18, 2008.

          EXPEDITIONARY FIGHTING VEHICLE--PROGRAM IMPROVEMENT

    Question. General Conway, the Expeditionary Fighting Vehicle has 
encountered reliability problems which have delayed the program by four 
years, reduced by nearly half the number of vehicles the Marine Corps 
intends to buy, and added significant costs to the program. Given that 
this program is a high priority for the Marine Corps, how is the 
program going to be turned around while containing further cost growth?
    Answer. The Expeditionary Fighting Vehicle (EFV) program was 
certified by the Secretary of Defense to Congress as vital to national 
security in June 2007. The program was restructured to provide the 
necessary engineering support to achieve the reliability requirement 
and to provide the procurement funding necessary for the approved 
acquisition objective of 573. The restructured program is utilizing a 
rigorous systems engineering approach to execute a Design for 
Reliability effort aimed at the redesign of mission essential 
components of the EFV. During the certification process the Cost 
Analysis Improvement Group developed an independent cost estimate for 
the restructured program. In order to minimize the risk of cost growth 
the Marine Corps funded the program to that estimate even though it was 
higher than the program's estimate.
    The Marine Corps is actively working to manage cost using multiple 
approaches. The current contract's award fee structure was renegotiated 
to utilize objective criteria for cost, schedule and performance. The 
three cost criteria are aimed at managing vehicle, development, and 
operations and support costs. Through the conduct of a thorough 
Integrated Baseline Review by the Program Office and a compliance 
review by DCMA, the earned value system is on a path to become a vital 
management tool to help manage cost and schedule. The Marine Corps will 
continue to assess available trade-space in the engineering design and 
requirements through yearly reviews with the requirements owners in 
order to achieve the necessary EFV performance characteristics while 
maintaining cost and schedule.
    Finally, the Acquisition Decision Memorandum (ADM) issued after 
certification established a significant increase in government 
oversight. The increased oversight includes a Quarterly Program Review 
with USD (AT&L). Senior acquisition leadership from the Department of 
the Navy (DON) and Department of Defense (DOD) and top management from 
General Dynamics participate in the reviews. Additionally, the ADM 
established three additional DAB reviews for the program prior to 
Milestone C. These provide off-ramps for the government if necessary.

       EXPEDITIONARY FIGHTING VEHICLE--KEY PERFORMANCE PARAMETERS

    Question. General Conway, has the Marine Corps given consideration 
to revisiting the key performance parameters of the Expeditionary 
Fighting Vehicle?
    Answer. Requirements are reviewed on a recurring basis by the 
Marine Corps Combat Development Command (MCCDC). In addition to Key 
Performance Parameters (KPP), Operational Requirements, Specification 
Requirements, and Derived Requirements are looked at on a regular basis 
whenever trade space is needed.
    After a thorough review of all requirements, the Marine Corps 
recently reduced the Wave Height requirement associated with the High 
Water Speed KPP with minimal operational impact. The USMC also recently 
reduced the follow-on land range requirement and removed the smoke 
grenades providing weight saving trade space resulting in cost control.
    Some additional requirement changes such as removal of the NBC 
system and repackaging of the Auxiliary Power Unit have been identified 
as potential future changes to preserve cost and schedule if deemed 
necessary.

    EXPEDITIONARY FIGHTING VEHICLE--AMPHIBIOUS ASSAULT VEHICLE PLANS

    Question. General Conway, the original plan for the EFV was to 
replace the Amphibious Assault Vehicle on a one-for-one basis. But now 
the planned purchases of EFVs has been reduced by nearly half. Does the 
budget include adequate funds for sustaining the AAV into the future? 
What is the impact on the Marine Corps' amphibious assault capability 
due to the reduction of the planned purchases of EFVs?
    Answer. The present level of funding is sufficient to sustain 
Amphibious Assault Vehicles (AAV) at the current capability level. If 
necessary, the Marine Corps is positioned to apply vehicle upgrades and 
enhance current capabilities as required. Additionally, the AAV is 
subjected to a regular cycle of depot level maintenance via the Inspect 
and Repaired Only As Necessary program with funding provided to the 
Marine Corps Logistics Command.
    We are balancing our two missions of amphibious assault and 
participation in long-term, irregular warfare by shifting from an 
emphasis on amphibious forcible entry to a mix of platforms that have 
application across the range of military operations. We have tailored 
our EFV investment to be consistent with strategic guidance and have 
offset EFV reductions with investments in the Marine Personnel Carrier 
and the Joint Light Tactical Vehicle. In the near term, our investment 
in Mine Resistant Ambush Protected vehicles will afford Marines 
operating in Iraq and Afghanistan with significantly enhanced 
protection tailored specifically for Central Command operations.
    The reduction of the EFV requirement will not limit our ability to 
conduct surface-borne ship-to-objective forcible entry from a distant 
sea-base nor constrain our ability to conduct amphibious operations and 
subsequent maneuver ashore in support of national objectives. We will 
continue to pursue a balance of vehicles that will enable our Navy-
Marine Corps team to increasingly provide a persistent and flexible 
forward presence, both afloat and ashore, to meet combatant commanders' 
growing requirements for general purpose forces. Our future mobility 
systems will enable us to more effectively engage in low-end shaping, 
deterrence, and security missions while also positioning us to respond 
to high-end combat and forcible entry amphibious operations.

            GUAM RELOCATION--IMPACT OF MISCONDUCT INCIDENTS

    Question. General Conway, tensions are high in Okinawa in the wake 
of the alleged rape of a 14 year-old girl by a Marine. Unfortunately, 
this is not the first time U.S. military personnel have been accused of 
violence and misconduct in this area, and these incidents have added to 
the resentment of the United States military presence there. I 
understand that the charges have been dropped, but what, if any, impact 
will this incident have on the relocation of Marines from Okinawa to 
Guam?
    Answer. The Marine Corps does not anticipate a major impact on the 
relocation of Marines from Okinawa to Guam as a result of the alleged 
incident. We are working with leaders in both locations to improve 
relationships between the military and local civilians.
    All units and installations in Japan have recently conducted 
education and training that reinforces and encourages the high 
standards of professionalism and conduct expected of U.S. forces living 
in Japan. We also implemented a ``Period of Reflection'' after the 
alleged incident to remind Marines that we are guests and must 
represent our country in a professional manner.

     GUAM RELOCATION--PERSONNEL MEASURES FOR POSITIVE RELATIONSHIP

    Question. General Conway, what measures will the Marine Corps 
institute in order to assure the people of Guam that every effort is 
being taken to have a positive relationship with the local people?
    Answer. We continue to review the procedures and orders that govern 
the discipline and conduct of all U.S. service members serving 
overseas. Concurrent with our reviews, we are meeting with local 
officials to discuss ways to work together toward the common goal of 
reducing off-base misconduct incidents, and to address their concerns 
in our relocation plans.

                     MV-22--PERFORMANCE IN THEATER

    Question. General Conway, at the end of last year, the MV-22 Osprey 
faced one of its biggest tests ever by flying combat missions for the 
first time in Iraq. This was a major milestone in the Osprey's long 
history of triumphs and challenges. How is this aircraft performing in 
theater?
    Answer. The successful combat deployment represented a significant 
milestone for the MV-22. The aircraft and the Marines and Sailors who 
deployed with it have exceeded expectations. Aircraft development 
continues as well as refinement of Tactics, Techniques, and Procedures 
employed by Marine aircrews that are flying MV-22s. The first combat 
deployment of the aircraft has been a success.

                 MV-22--LACK OF MOUNTED WEAPONS SYSTEMS

    Question. General Conway, recent media criticism of the MV-22 
included the concern that it has no side- or front-mounted weapons 
systems, leaving it vulnerable to attack. How much of a limitation has 
this proven to be during the Osprey's deployment?
    Answer. Marine Corps assault support aircraft do not have forward 
firing weapons. The weapons on assault support platforms are designed 
for defensive suppressive fires only, thus the lack of side- or front-
mounted weapons systems has not limited MV-22 operations to date. The 
Ramp Mounted Weapon System (RMWS) provides the MV-22 aircrew a 
defensive capability sufficient for its current operations. A defensive 
weapons system that provides 360 degree coverage is currently in 
development.

                          SUBCOMMITTEE RECESS

    Senator Inouye. This subcommittee will reconvene on 
Wednesday, March 12, at 10:30 a.m., when we will receive 
testimony on the fiscal year 2009 budget request from the 
Department of the Air Force.
    We will stand in recess.
    [Whereupon, at 11:57 a.m., Wednesday, March 5, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 12.]

</pre></body></html>
